<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 112-214]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-214

                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 264                                S. 888                           S. 265                                S. 925                           S. 324                                S. 970                           S. 764                                S. 1063                           S. 864                                S. 1134                           S. 883
                               __________

                             JULY 28, 2011

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Printed for the use of the
               Committee on Energy and Natural Resources




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-460 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          RAND PAUL, Kentucky
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
AL FRANKEN, Minnesota                ROB PORTMAN, Ohio
JOE MANCHIN, III, West Virginia      DEAN HELLER, Nevada
CHRISTOPHER A. COONS, Delaware       BOB CORKER, Tennessee

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee










                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Coons, Hon. Christopher A., U.S. Senator From Delaware...........    33
Franken, Hon. Al, U.S. Senator From Minnesota....................     8
Harycki, Ken, Mayor, City of Stillwater, MN......................    35
Hession, Jack, Member, Executive Committee, Alaska Chapter, 
  Sierra Club....................................................    42
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    27
Johnson, Hon. Ron, U.S. Senator From Wisconsin...................    13
Klobuchar, Hon. Amy, U.S. Senator From Minnesota.................     9
O'Dell, Peggy, Deputy Director, National Park Service, Department 
  of the Interior................................................    16
Paul, Hon. Rand, U.S. Senator From Kentucky......................     8
Tomten, Roger L., Resident and Business Owner, Stillwater, MN39..
Udall, Hon. Mark, U.S. Senator from Colorado.....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    59

                              Appendix II

Additional material submitted for the record.....................    63

 
                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                        THURSDAY, JULY 28, 2011

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:32 p.m.in Room 
SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. We'll come to order. Good afternoon to 
everyone.
    The Subcommittee on National Parks is holding a hearing to 
consider eleven pending bills. I believe most of the bills are 
non-controversial. Three of the bills on today's agenda were 
considered and favorably reported by the committee last 
Congress.
    Because of the number of bills on the agenda, I won't read 
through the list, but at this time I'll include the complete 
list of bills in the hearing record.
    A few of the bills, such as the St. Croix River Crossing 
bill, are more controversial, and this afternoon the 
subcommittee will receive testimony from several of the bills' 
sponsors, and also hear from witnesses on both sides of the 
issue so that we can establish a complete legislative record on 
the bill. I know this is an important issue to the Minnesota 
and Wisconsin senators, and I will continue to work with them 
as we consider the policy issues raised at this hearing.
    I know several of our colleagues have statements they would 
like to make, and we will turn to them in a few minutes.
    But before that, I would like to congratulate my colleague, 
Senator Paul, who was ratified last week by the committee as 
the new ranking member of the National Parks Subcommittee.
    The subcommittee has one of the busier legislative agendas 
in the Senate, and the key to working through the large number 
of bills that are referred to the subcommittee is a strong 
working relationship with the ranking member. I'd like to take 
this opportunity to welcome Senator Paul as the new ranking 
member, and I very much look forward to working with him.
    At this point I'd like to recognize Senator Paul for any 
remarks he would care to make.
    [The prepared statement of Senator Udall follows:]
   Prepared Statement of Hon. Mark Udall, U.S. Senator From Colorado
    This afternoon, the Subcommittee on National Parks is holding a 
hearing to consider 11 pending bills. I believe most of the bills are 
non-controversial; and three of the bills on today's agenda were 
considered and favorably reported by the committee last Congress.
    Because of the number of bills on the agenda, I won't read through 
the list, but at this time I'll include the complete list of bills in 
the hearing record.
    A few of the bills, such as the St. Croix river crossing bill, are 
more controversial, and this afternoon the subcommittee will receive 
testimony from several of the bill's sponsors and also hear from 
witnesses on both sides of the issue so that we can establish a 
complete legislative record on this bill. I know this is an important 
issue to the Minnesota and Wisconsin Senators and I will continue to 
work with them as we consider the policy issues raised at this hearing.
    I know several of our colleagues have statements they would like to 
make and we will turn to them in a few minutes. Before that, I would 
like to congratulate Senator Paul, who was ratified last week by the 
Committee as the new Ranking Member of the National Parks Subcommittee.
    The subcommittee has one of the busier legislative agendas in the 
Senate, and the key to working through the large number of bills that 
are referred to the subcommittee is a strong working relationship with 
the Ranking Member. I'd like to take this opportunity to welcome 
Senator Paul as the new Ranking Member and I look forward to working 
with him. At this point, I'd like to recognize Senator Paul for any 
remarks he would care to make.
    We have received written statements from several of the sponsors of 
bills on today's agenda. Without objection, statements from Senator 
Boxer, Senator Lieberman, and Senator Cardin will be included in the 
hearing record. We have received several statements with respect to S. 
1134, the St. Croix river bill, representing views both for and against 
the bill, including statements from Governor Dayton of Minnesota, 
Governor Walker of Wisconsin, Representative Betty McCollum of 
Minnesota, and former Vice President Walter Mondale, and their 
statements will be included in the record as well. We are joined this 
afternoon by Senators Klobuchar and Johnson, who are here to speak on 
S. 1134.

    [The prepared statements of former Vice President Mondale 
and Senators Boxer, Cardin, Lieberman, and Barrasso follow:]
Prepared Statement of Hon. Walter F. Mondale, Former Vice President of 
                           the United States
    Chairman Udall, members of the National Parks Subcommittee of the 
Senate Energy and Natural Resources Committee including our great 
Minnesota Senator, Al Franken. I also wish to recognize Minnesota's 
wonderful Senior Senator, Amy Klobuchar. While we do disagree on this 
issue, I am honored to be one of her earliest and strongest supporters.
    I thank the committee for permitting me to submit my testimony in 
writing to be made part of the Record.
    I make this statement in opposition to the S1134 because I believe 
that the huge bridge that would be authorized by this measure is a 
brutal assault on one of the most magnificent rivers in America. After 
careful study required by the Federal Court, the National Park Service 
determined that the huge bridge authorized by the pending legislation 
would have a `direct and adverse effect' on the St. Croix National 
Scenic Riverway, one of eight original Wild and Scenic rivers 
designated for protection in that legislation.
    In 1968, I joined my colleague and friend, Sen. Gaylord Nelson, so 
well known to you and this committee, to sponsor the Wild and Scenic 
Rivers legislation. Gaylord considered the Wild and Scenic Rivers Act 
and the protection of the Namekagon and St. Croix Rivers, one of his 
proudest accomplishments, a major part of his brilliant legacy to our 
country including Earth Day.
    I am testifying today not only on my own behalf but I believe, also 
for Gaylord Nelson who would have certainly opposed this mega bridge 
proposal.
    This bill if enacted would, for the first time in the nearly 43 
year history of the Wild and Scenic Rivers program, permit the 
construction of a new bridge or infrastructure project of this 
magnitude in our glorious national system of protection for 166 rivers 
in 38 states. It would be a potent precedent, not only for the 
magnificent but fragile St Croix river that forms the border between 
Minnesota and Wisconsin, but for all of these treasured rivers.
    In fact, the very reason for the adoption of the Wild and Scenic 
Rivers legislation was to protect these cherished and magnificent 
rivers from the very kind of massive development approved under this 
proposal. As Gaylord then predicted, these rivers will be exposed to 
tremendous developmental pressure that, if permitted, will convert 
these national treasures into the typical industrial rivers. If this 
mega bridge is built across the St Croix River, this will be not the 
end of such abusive encroachments but the beginning. I can guarantee 
the Committee that there are a multitude of developers that will soon 
seek authorization for development on and across our protected rivers. 
They will surely cite this bridge as evidence that our national river 
system is open for sale.
    In the preamble to the proposed authorizing legislation it states 
that the mega bridge would contain ``appropriate mitigation measures to 
promote river values.'' But, as the Park Service report concludes, 
there is no way this huge bridge can be built consistent with the 
values of the national rivers system. It is an enormous $700 million 
four lane massive bluff top bridge that accommodates noisy high-speed 
commercial traffic of all kinds. This new structure will be nearly 200 
feet tall, visible for many miles along this stretch of the St. Croix.
    Moreover, it would be by far the most expensive bridge ever built 
in Minnesota and Wisconsin, while both states have hundreds of failing 
bridges in need or repair or replacement.
    The preamble of P.L. 90-452 states that, ``It is hereby declared to 
be the policy of the United States that certain selected rivers of the 
Nation which, with their immediate environments, possess outstandingly 
remarkable scenic, recreational, geologic, fish and wildlife, historic, 
cultural or other similar values, shall be preserved in free-flowing 
condition.'' Those words ring as true today as in 1968.
    A bit of history is in order here about the St. Croix River and its 
inclusion in 1968 in the list of original rivers. In the early 1960's 
Minnesota permitted the construction of a coal-fired power plant on the 
St. Croix River in Bayport, south of Stillwater, despite citizen 
efforts to stop it. It was precisely because of this plant siting and 
the potential for additional incompatible projects that Gaylord and I 
insisted this stretch of the St. Croix be included in the Wild and 
Scenic Rivers system.
    Proponents of the St. Croix Crossing Project point to this power 
plant and an adjacent wastewater treatment facility as evidence that 
some sort of industrial zone exists on this river. They argue adding a 
massive bridge that will attract large and loud trucks around the clock 
is somehow compatible with this section of the river. This argument 
turns the reason for the inclusion of the St. Croix in the system on 
its head. Our magnificent Park Service, which administers this river, 
has clearly ruled against a bridge of this type.
    The proponents of this mega-bridge will tell the Committee about 
the long history of efforts to build a new bridge in Stillwater to 
replace an aging Lift Bridge, despite the fact that the rarely 
congested Interstate 94 bridge is just 7 miles south.
    The Committee will also hear about a so-called Stakeholders group 
established during the Bush and Pawlenty Administrations to seek a 
consensus on a bridge alignment and design. You should know this was 
not a fair process, as only designs that could accommodate vehicles 
traveling at 70 MPH were analyzed. Alternative, less impactful designs 
were simply not considered.
    I do acknowledge there is considerable history of plans to replace 
the Stillwater Lift Bridge. And there have been several NPS reviews of 
proposed bridge designs to assess the impacts on a river landscape the 
U.S. Congress designated for special protection for future generations.
    I appreciate that many in the region are weary of this issue, 
including elected officials. Some are ready to build the proposed 
bridge believing this process has gone on too long.
    But neither a long process nor bridge issue fatigue justifies this 
particular bridge. This design and location does not makes sense for 
this river today anymore than it did when first proposed more than a 
decade ago. In fact, there are many in Stillwater and the river valley 
that prefer the Lift Bridge simply be rebuilt. I count myself in that 
group.
    However, I understand the argument that a new bridge is necessary 
to deal with rush hour congestion in this historic river town and 
accommodate western Wisconsin commuters into the Twin Cities. But those 
goals can be achieved without spending close to $700M of public funds 
in a era of fiscal stress on a bridge that is essentially another 
freeway crossing over this segment of the St. Croix River.
    Consequently, I hope the Committee will not act on this bill in 
this session.
    Rather, I believe the Governor of Minnesota and Minnesota 
Department of Transportation should evaluate a recent and new 
alternative put forward by the Sensible Stillwater Bridge Partnership 
that would result in a much less expensive and impactful bridge, just 
downstream from the current Lift Bridge, costing less than half the 
projected budget of the proposed bridge.
    I urge the Committee to direct the National Park Service to review 
this recent proposal under its section 7a responsibilities based on a 
request from the Minnesota Department of Transportation. I am confident 
following a good faith review, the NPS will conclude the Sensible 
alternative is preferable to the massive bridge S. 1134 would 
authorize.
    Based on the dramatically lower cost of the `Sensible' alternative, 
there is no longer pressure to pass this legislation by the date 
certain established by the Governor of Minnesota to allocate federal 
highway funds. Both states' share of the construction costs of this 
bill is dramatically reduced, as is the impact on the St. Croix River.
    In conclusion, let us remember the words of a beloved colleague who 
served with distinction on this Committee for much of his public life. 
Gaylord Nelson said of the St. Croix River, ``If we don't take care of 
this great resource, it will end up as `just another urban river' whose 
values have been squandered.''
    I plead with you not to let this happen.
                                 ______
                                 
Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California, 
                          on S. 864 and S. 925
    Thank you, Chairman Udall and Ranking Member Paul, for considering 
S. 864, the Distinguished Flying Cross National Memorial Act and S. 
925, the Mt. Andrea Lawrence Designation Act of 2011 in today's 
hearing. Each of these bills would honor people who have made unique 
and important contributions to our nation's history.
    S. 864, the Distinguished Flying Cross National Memorial Act, would 
designate the recently constructed Distinguished Flying Cross Memorial 
at March Field Air Museum in Riverside, California, as a national 
memorial to recognize members of our Armed Forces who have 
distinguished themselves by heroism in aerial flight. I am pleased that 
Congressman Ken Calvert has sponsored this legislation in the House of 
Representatives, where it passed in the last Congress by a vote of 410-
0.
    The Distinguished Flying Cross recognizes members of the U.S. Armed 
Forces and a few select civilian aviators who perform acts of ``heroism 
or extraordinary achievement while participating in an aerial flight.'' 
It is America's oldest military award for aviation, with recipients 
including Wilbur and Orville Wright, Charles Lindbergh, Amelia Earhart, 
former President George H. W. Bush, Senator John McCain, former Senator 
John Glenn, Chuck Yeager, General Jimmy Doolittle and Admiral James 
Stockdale.
    The most reliable statistics indicate that 126,318 members of our 
Armed Forces received the medal during World War II, approximately 
21,000 members received the medal during the Korean conflict, and 
21,647 members received the medal during the Vietnam War. Since the end 
of the Vietnam War, more than 203 members of the Armed Forces have 
received the medal in times of conflict.
    However, the United States currently lacks a national memorial 
dedicated to recipients of the Distinguished Flying Cross. Designating 
the Distinguished Flying Cross Memorial at March Field Air Museum in 
Riverside, California, as a national memorial would honor the bravery 
and sacrifice of the thousands of men and women who have received this 
prestigious award.
    This bill was developed in collaboration with the Distinguished 
Flying Cross Society--a nonprofit organization dedicated to honoring 
recipients of the Distinguished Flying Cross. The legislation is also 
supported by the Military Officers Association of America, the Air 
Force Association, the Air Force Sergeants Association, the Association 
of Naval Aviation, the Vietnam Helicopter Pilots Association and the 
China Burma India Veterans Association.
    The Distinguished Flying Cross National Memorial Act is a fitting 
tribute to the incredible men and women who have served our nation with 
honor and distinction in flight. I look forward to working with my 
colleagues to see this legislation enacted into law.
    S. 925, the Mt. Andrea Lawrence Designation Act of 2011, would 
designate a peak on the border of Mono and Tuolumne Counties in 
California as ``Mt. Andrea Lawrence'' in memory of the late Andrea 
Lawrence--a three-time Olympian and former member of the Mono County 
Board of Supervisors who dedicated her life to conserving the 
breathtaking landscapes of the Eastern Sierra. I am pleased to have 
worked with Congressman Buck McKeon in crafting this bipartisan 
legislation, which previously passed the House of Representatives by 
voice vote in the last Congress.
    Andrea Mead Lawrence was a three-time Olympian who remains the only 
American double Olympic gold medalist in alpine skiing. She was 
inducted into the U.S. National Ski Hall of Fame in 1958 at the age of 
25. In 2002, sports documentarian Bud Greenspan called her ``the 
greatest Winter Olympian of all time,'' basing his choice not only on 
her accomplishments as an athlete, but also on how she later translated 
her love of mountains into a lifetime of civic service.
    After retiring from competitive skiing, Andrea Lawrence spent the 
rest of her life working to protect the natural landscapes that she had 
so loved and enjoyed as a skier. She moved to Mono County, California, 
where she worked to protect and restore Mammoth Lakes, Mono Lake, Bodie 
State Historic Park, and other important natural and cultural resources 
of the Eastern Sierra. She served for 16 years on the Mono County Board 
of Supervisors, served on the Great Basin Air Pollution Control 
District, and in 2003 founded the Andrea Lawrence Institute for 
Mountains and Rivers to promote environmental protection and economic 
vitality in the region.
    Andrea passed away on March 31, 2009 at 76 years of age, leaving 
five children--Cortlandt, Matthew, Deirdre, Leslie, and Quentin--and 
four grandchildren. The day before she died, President Obama signed 
into law a bill that I authored with Representative McKeon, the Eastern 
Sierra and Northern San Gabriel Wild Heritage Act, which Andrea had 
strongly supported. Her family told me that they celebrated the bill's 
enactment with her in her hospital room. It touches me deeply to know 
how much this bill meant to her, and I am so grateful that she lived to 
see it become law.
    The peak we are naming after Andrea is currently identified only by 
its elevation as ``Peak 12,240,'' and is located on the border of Mono 
and Tuolumne Counties between the Ansel Adams Wilderness and Yosemite 
National Park. The John Muir trail passes close to the peak, providing 
an unobstructed view of the future Mt. Andrea Lawrence.
    Supporters of my bill include Andrea Lawrence's family, the Mono 
County Board of Supervisors, the Tuolumne County Board of Supervisors, 
the Wilderness Society, the Sierra Club, the Mono County Democratic 
Central Committee, the Mammoth Town Council, the Mono Lake Committee, 
the Andrea Lawrence Institute for Mountains and Rivers, the Sierra 
Nevada Alliance, the Mammoth Mountain Ski Area, Town of Mammoth Lakes 
Council Member Wendy Sugimura and former Mono County Supervisor Tim 
Alpers.
    Like the mountains she once tackled with such skill and grace, 
Andrea Lawrence's spirit and accomplishments were both larger than 
life. I look forward to working with my colleagues to advance this 
legislation and grant this iconic woman such a fitting tribute.
                                 ______
                                 
   Prepared Statement of Hon. Benjamin L. Cardin, U.S. Senator From 
                          Maryland, on S. 324
    I would like to thank Chairmen Bingaman and Udall and Ranking 
Members Murkowski and Barrasso for allowing me to submit the following 
testimony on my bill, The Chesapeake and Ohio Canal National Historical 
Park Advisory Commission Act (S. 324), this afternoon. The sole purpose 
of my bill, and the commission it supports is to support greater public 
involvement in the administration of one of Maryland's most treasured 
and most popular National Parks, The Chesapeake and Ohio Canal National 
Historical Park. My bill ensures that the communities located along the 
184-and-a-half mile-long C&O Canal National Historical Park have a 
voice with the National Park Service regarding decisions affecting the 
administration of the Park. The Commission keeps the people and small 
businesses most affected by the operation of the C&O Canal National 
Historical Park informed and involved in the decisions surrounding the 
Park. Citizen involvement in the governmental process is a hallmark of 
our democracy and the C&O Canal National Historical Park Advisory 
Commission Act exemplifies the goal of ensuring the public's role in 
government decision making.
    The importance of the Commission is intrinsically tied to the 
uniqueness of the C&O Canal National Historical Park. The Park covers 
an area of 20,000 acres winding North and West along the Potomac River 
from the heart of Georgetown's old industrial district in Washington 
D.C. to Cumberland, MD nestled in the valleys and mountains of Western 
Maryland. The Park's watered canal, contiguous towpath (popular among 
cyclists, backpackers, day hikers, runners and families), hundreds of 
historic structures and towns like Hancock, Hagerstown, Harpers Ferry, 
Williamsport and Sharpsburg that grew during the Canal's heyday, all 
tell the story of how the C&O Canal once served as a crucial East/West 
commercial link. The Park also preserves pristine views of the Potomac 
River, evocative of the C&O Canal's working days. At its widest points, 
the C&O Canal National Historical Park spans less than two tenths of a 
mile across and in many areas directly abuts neighboring commercial and 
residential properties bordering the Park.
    During the commercial operation of the C&O Canal, these towns were 
local commercial centers where area farmers and tradesman utilized the 
canal boats to deliver their goods to market. Today, the hospitality 
and tourism industries of these communities thrive upon the C&O Canal 
National Historical Park's popularity and are integral to enhancing the 
park user experience. Whether it is a hotel or Bed and Breakfast to 
spend the night in, a restaurant or diner to grab a meal, stores to 
shop in or to stock up on camping provisions, boathouses to rent a 
canoe for the afternoon, bike shops to service a flat tire or make 
repairs to your bicycle or any of the myriad of goods and services park 
visitors may need while visiting the Park, the communities along the 
C&O Canal are as important to the Park user experience as the Park's 
users are to maintaining their businesses.
    In 2009, more than 3.75 million people visited the C&O Canal 
National Historical Park. To put it in perspective, in 2009, more 
people visited this historic treasure than the number of people who 
visited Yellowstone, Yosemite, the Everglades or Shenandoah National 
Park. Much of the C&O Canal National Historical Park's success is 
attributable to the positive relationship that has developed over time 
between the National Park Service and the local community leaders that 
span the length of the Park. The Park's Commission has greatly 
facilitated this relationship. As a sign of that I support, I have 
included letters of support for my bill from local county commissioners 
and other community leaders with my written statement for the hearing 
record.
    The Commission provides the vital link between the affected 
committee that the Park runs through and the National Park Service. The 
Commission ensures that the public is engaged in the numerous processes 
surrounding operational policy, infrastructure maintenance and 
restoration projects on the C&O Canal National Historic Park. The 
Commission plays a vital consultation and planning role for park 
activities and operations. The cooperation that has developed between 
the Commission and the National Park Service helps ties to the Park to 
its communities. The Commission serves a purely advisory function and 
does not have the authority to make binding park policy.
    The Commission was first established as part of the 1971 Chesapeake 
and Ohio Canal Development Act sponsored by Rep. Gilbert Gude (R-MD). 
Every ten years, a bill like mine comes before Congress, when the 10-
year extension of the Commission's authorization expires. Three times 
over a 40-year period extension bills have passed by Unanimous Consent 
and without controversy. My bill is another 10-year extension of the 
Advisory Commission's authorization and makes no changes to the 
Commission's authority. Legislative precedent has never set an 
authorization amount for the Commission, but the Commission has always 
functioned at a nominal cost.
    The General Services Administration's Federal Advisory Commissions 
Act database determined that the C&O Canal Advisory Commission's 
expenses totaled $33,199 for fiscal year 2010. All expenses came out of 
the National Park Service's general operating budget. Expenses covered 
the cost of travel for commission members ($295), federal staff time 
($28,074) and miscellaneous expenses ($4,830) like meeting space, 
printing, supplies and website maintenance. Reauthorizing this program 
would not establish a new authorization but would rather extend a 
current and long-standing authorization that exists in the U.S. Code.
    The National Park System is a showcase of America's natural and 
historical treasures. So much of the National Park System's success is 
rooted in the citizen stewardship projects and the involvement of 
caring citizens and community leaders. Like so many of our National 
Parks the C&O Canal National Historical Park has an extensive backlog 
of maintenance and repair projects. The Commission plays a critical 
role in helping keep these projects moving forward and assisting the 
National Park Service with their completion because there is 
recognition of the shared responsibility between the Park Service and 
the Commission about the importance of continuing to make the Park a 
desirable tourism and outdoor recreation destination. The Commission 
provides that bridge between the government and public. I urge the 
committee to support this bill.
                                 ______
                                 
   Prepared Statement of Hon. Joseph I. Lieberman, U.S. Senator From 
                         Connecticut, on S. 883
    Chairman Udall, Ranking Member Paul, and members of the 
Subcommittee, I want to thank you for taking the time to examine S. 
883. I was honored to introduce this legislation, along with Senator 
Grassley, to authorize the National Mall Liberty Fund, DC, to establish 
a memorial in Washington, DC, to recognize African American patriots 
who fought during the Revolutionary War. I am further proud that 
Senator Landrieu, a member of your esteemed subcommittee, is also a 
cosponsor. As you may be aware, the full Energy and Natural Resources 
Committee unanimously reported identical legislation, then sponsored by 
Senator Dodd, last congress.
    In my view, the memorial authorized by S. 883 would not only be of 
great historical significance, but would also serve to remind Americans 
of the enduring values that unite us as a nation.
    This bill was inspired by the tireless work of Maurice Barboza, a 
native of Plainville, Connecticut. When Maurice was a young boy, he 
discovered that he was a distant relative of two patriots, Jonah Gay 
and Samuel Stinson, who fought for the colonists during the 
Revolutionary War. Naturally, Maurice was very proud to learn of this 
connection, and was accepted into the Sons of the American Revolution. 
He then encouraged his Aunt, Lena Ferguson, to join the prestigious 
Daughters of the American Revolution (DAR).
    Despite the fact that Maurice was able to prove that his Aunt could 
trace her lineage back to Gay and Stinson, DAR still refused her 
membership. It was only after years of struggle that Mrs. Ferguson was 
admitted. During this protracted dispute, Maurice came to realize that 
there were many African Americans who had fought bravely during the 
American Revolution but had not received the recognition they deserve. 
As a result of his and his aunt's efforts, the DAR launched a project 
to identify and honor these overlooked heroes, which the organization 
completed several years ago.
    According to the DAR, over 5,000 African Americans served as 
sailors and soldiers for the colonial forces during the Revolutionary 
War, and there may have been many more. Some of those who fought for 
the colonial forces were slaves motivated by the fight for liberty or 
the promise of freedom from bondage. Many others were free African 
Americans who, despite suffering pervasive discrimination in their own 
lives, bravely took up arms against the British to defend the rights of 
their fellow countrymen. For a great number of these patriots, America 
was the only country they had known. All of them were true American 
heroes.
    Throughout our history the sacrifices of these remarkable patriots 
have often been relegated to a mere footnote. This is unfortunate not 
only because it overlooks their service, but also because it prevents 
us from taking an honest, nuanced view of our nation's history. By 
establishing a memorial to honor African Americans' contributions to 
our nation's founding, we will broaden all Americans' understanding of 
the diversity of the patriots who helped to secure our independence. As 
The Worcester Telegram put it in a recent editorial supporting the 
memorial: ``. . .we imagine visitors [to the memorial] wanting to know 
much more about the lives and the circumstances that came together for 
the cause. That's how history leads us to honesty: by fleshing out the 
facts, and inviting us to dig deeper.''
    In conclusion, ladies and gentlemen of the subcommittee, S. 883 
would not only provide a fitting a tribute to the role many African 
Americans played during the Revolutionary War, but would also serve as 
an enduring reminder that what defines the United States as a nation is 
not membership in a particular race, creed or class, but rather a 
strong belief in individual liberty and freedom. This ultimately was 
what colonial soldiers and sailors, black and white alike, were 
fighting for, and what our nation has strived to realize throughout its 
history.
    Thank you for considering my testimony.
                                 ______
                                 
 Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming, 
                               on S. 1134
    I want to thank the witnesses for their testimony today.
    It has been an interesting discussion.
    As a general rule for parks and lands bills, I respect the wishes 
of the home state delegation.
    There are sometimes exceptions to my rule.
    The St. Croix River Crossing legislation is not one of those 
circumstances.
    The river was designated Wild and Scenic in 1972.
    The Minnesota and Wisconsin delegations believe a new bridge over 
the river is important.
    I respect that.
    Sometimes restrictive federal laws and rules do not recognize local 
conditions or interest.
    If Wyoming faced a similar situation, I would expect members to 
afford our delegation the same consideration.

           STATEMENT OF HON. RAND PAUL, U.S. SENATOR 
                         FROM KENTUCKY

    Senator Paul. Thank you, Senator Udall.
    People often say in Washington nothing is ever bipartisan. 
I think we're going to show a change to that today, and I'm 
excited to see members on both sides of the isle testifying 
before us. I think Senator Udall has a reputation for working 
with both sides. Of course, my friend Senator Franken has a 
reputation for working with both sides. I look forward to being 
on this committee.
    That sounded very sincere, didn't it?
    [Laughter.]
    Senator Paul. I heard a few titters, and I was wondering if 
someone was questioning my sincerity.
    I think I'm, you know, I think I'm on such a roll with 
that, I think I'm just going to leave it at that. Thank you.
    Senator Udall. Thank you, Senator Paul. We hit the ground 
running. I very much look forward to working with you.
    With that, let me recognize a member of the committee, 
Senator Franken from Minnesota. Senator Franken.

          STATEMENT OF HON. AL FRANKEN, U.S. SENATOR 
                         FROM MINNESOTA

    Senator Franken. Thank you, Chairman Udall.
    Congratulations, Ranking Member Paul--who is my mentee--did 
you know that? In the Senatorial mentor program. My mentee. So, 
congratulations, and, took my advice, and now you're the 
ranking member.
    Stillwater, Minnesota is beautiful city that's between a 
rock and a hard place. The current lift bridge between 
Minnesota and Wisconsin is 80 years old, and was not designed 
to handle the traffic that it currently sees on a daily basis. 
Cars and trucks idle for hours every day along the historic 
main street, even when the bridge is open. When the lift bridge 
is raised, the problem multiplies.
    The St. Croix River is federally protected under the Wild 
and Scenic Rivers Act, which was authored by Vice President 
Walter Mondale when he represented this State in the Senate, 
and also coauthored by Gaylord Nelson, who represented 
Wisconsin in the Senate. Senator Klobuchar and I revere the 
Vice President. I think that's safe to say.
    Now, the National Park Service ruled that they can't allow 
any new construction in the protected riverway. The lift bridge 
cannot be replaced because it is listed on the National 
Register of Historic Places. While the witnesses before the 
committee today may disagree on the size and the design of a 
bridge, the fact remains that a new bridge is absolutely 
necessary, and any bridge would need congressional approval to 
move forward under the Wild and Scenic Rivers Act.
    But I want to make it clear that this is a unique situation 
with unique needs, and that we are not declaring open season on 
the Wild and Scenic Rivers Act. I believe very much in 
preserving Vice President Mondale's landmark legislation and 
his intent.
    I look forward to hearing from all of the witnesses today, 
and I'd especially like to thank Senators Klobuchar and Johnson 
for appearing before the committee to discuss this important 
issue for Minnesota and Wisconsin.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Franken.
    We have received a number of written statements from 
several of the sponsors of bills on today's agenda, and without 
objection, statements from Senator Boxer, Senator Lieberman, 
and Senator Cardin will be included in the hearing record.
    We have received several statements with respect to S. 
1134, the St. Croix River bill, representing views both for and 
against the bill, including statements from Governor Dayton of 
Minnesota, Governor Walker of Wisconsin, Representative Betty 
McCollum of Minnesota, and former Vice President Walter 
Mondale, and their statements will be included in the record as 
well.
    As I mentioned earlier, we've been joined by 2 of our 
colleagues, Senators Klobuchar and Johnson, who are here to 
speak on S. 1134.
    Let me first recognize Senator Klobuchar for her statement.

         STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR 
                         FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Chairman Udall.
    Congratulations, Ranking Member Paul.
    Thank you, also, to my colleague, Senator Franken.
    Thank you for holding this hearing today on S. 1134, the 
St. Croix River Crossing Project Authorization Act, which I 
introduced with my colleagues Senators Kohl and Johnson of 
Wisconsin, and Senator Franken.
    Before I begin, I want to welcome to the U.S. Senate the 
Minnesota witnesses who will be speaking later: Stillwater 
Mayor Ken Harycki, who drove here, Chairman, with his family. 
That's how badly he wanted to get here. I'm sure he went over 
many bridges. Also, Roger Tomten, who will also be testifying.
    The St. Croix River Crossing Project Authorization Act 
would allow construction of a bridge across the St. Croix 
River. The project would not only provide a new link between 
the States of Minnesota and Wisconsin, but also ensure that a 
critical package of projects are built to mitigate impacts the 
bridge may have on the scenic recreation or historical value of 
the St. Croix River Valley. The project, as you mentioned, has 
the support of Governor Dayton and Governor Walker, as you can 
see from their strong testimony on the record.
    There's broad consensus, as Senator Franken noted, that a 
new bridge is necessary. The current crossing is the lift 
bridge, which was built in 1931 and is designed to handle 
11,000 vehicles per day. Today it handles over 18,000 vehicles 
per day, and as many as 25,000 per day in the summer.
    The Minnesota Department of Transportation has listed the 
bridge as being structurally deficient, and is also fracture-
critical, which means that if one component of the bridge 
fails, the entire structure will fail.
    As the bridge has aged, closures for maintenance and 
repairs have increased. This spring the lift bridge was 
featured on the History Channel's Inspector America program, 
which showed the severe corrosion on the steel plates, and the 
host's ability to remove concrete from the piers with his own 
hands.
    The bridge itself is a source of significant traffic 
congestion, especially in the summer months when it lifts 
frequently to allow water craft to pass. This backs up on both 
sides of the bridge as much as an entire mile, creating 
extensive gridlock and air pollution, hindering economic 
activity, and threatening public safety, particularly when 
emergency vehicles are unable to pass through. Simply put, 
there is nearly unanimous agreement that the current bridge is 
completely inadequate.
    Mr. Chairman, Mayor Harycki will discuss the impact the 
lift bridge has on the community, and testimony discussing the 
regional impact of the lift bridge has been submitted by 
Lakeview Hospital; Leo's Grill and Malt Shop, a small business 
owner; and the Minnesota Building and Construction Trades 
Council.
    You may ask why this project has taken 30 years, if 
everyone agrees that a new bridge is necessary, which is a very 
good question--Why are we here today?
    In October 2010 the National Park Service determined that 
the proposed bridge would violate section 7(a) of the Wild and 
Scenic Rivers Act. This was the third such determination issued 
by the NPS which, in doing so, reversed the previous 7(a) 
determination, which, in turn, was a reversal of their first 
7(a) determination on this project dating back to the mid-
1990s. So, when you combine these actions with endless 
litigation, it's very easy to see why we're here today, in the 
U.S. Senate, considering a bill to authorize the project to 
finally move forward.
    The bridge that my bill would authorize has been developed 
through a comprehensive stakeholder process that began 3 
decades ago. Local, State and Fed officials joined with the 
environmental community, historical preservationists, local 
businesses, and the general public to partner on the process. I 
worked closely with the NPS to ensure that the legislation 
required a comprehensive package of mitigation projects which 
would be implemented with the construction of the bridge. This 
mitigation package was developed among a 2-member stakeholder 
process in 2006, including the National Park Service, and would 
make important improvements, like remove other manmade 
structures from the river and protect parklands and bluffs. As 
you can see from this picture right here, the bridge would be 
constructed near an existing power plant, with a water 
treatment facility and a marina. Also nearby, you'll see in the 
background, is a prison. All of these structures already exist 
in the river valley.
    Now, in 2004, options were studied with the goal of 
choosing the most appropriate bridge project that would not 
only meet the region's current and future transportation needs, 
but would also have the best design with the smallest impact on 
the river valley's scenic recreational, historical and 
environmental resources.
    A few weeks ago--and you'll hear about this today--a 
proposed lower and slower bridge design reemerged that would 
have a diagonal 3-lane bridge be constructed closer to the 
existing lift bridge. Now, I say it reemerged--and I'm sure it 
did with all good intentions--but it reemerged because it is 
similar to options that were studied during the 2004 review. 
Those options were studied extensively and rejected because it 
was determined that they would have greater environmental 
impacts than the preferred alternative next to that treatment 
plant--impacts that would affect everything from park 
properties, bluff areas, historical structures, flood plains, 
wetlands, and commercial properties; and they would face a 
difficult time making it through this scenic river review 
process.
    That's not to mention the issue of costs. In 2004 the 
rejected bridge proposals that--one that was similar to the 
lower, slower plan--were anticipated to cost at least $500 
million. That is nearly double the design estimate that's made 
for this project now. So, obviously, we're concerned about the 
cost with the alternative.
    Finally, as we know, this would have to go through the 
entire review process again, and would add more and more time 
to the process, and here we get to the nub of the problem.
    The States of Minnesota and Wisconsin have worked hard to 
plan for this project over 30 years, and they have the money to 
build it. They're not asking here today, they're not coming and 
asking Congress for money. Some of the State and Federal funds 
that would be used for construction will expire in 2014. That 
is why we cannot go through an entire process again, Mr. 
Chairman, for a different design.
    Unfortunately, the Minnesota Department of Transportation 
estimates that it will take 3 years to complete all the 
necessary permits for constructing this project. That is why 
Governor Dayton has said that the legislation to authorize the 
bridge should be enacted by September 30th, 2011.
    In conclusion, Mr. Chairman, for decades the people and 
businesses of the St. Croix River Valley have been crying out 
for a safer, more efficient alternative to the lift bridge. Not 
only that, the States have the resources necessary to start 
construction, and any bridge proposal would likely need 
congressional authorization.
    So, what are we waiting for? It's time to break the 
deadlock and bring this project out of the bureaucratic limbo 
that it's been in for 30 years. We've waited long enough, and 
it's time to move forward.
    I ask for your support and your help in moving this bill 
quickly to the Energy and Natural Resources Committee, to the 
full Senate.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Klobuchar follows:]
 Prepared Statement of Hon. Amy Klobuchar, U.S. Senator From Minnesota
    Chairman Udall, Ranking Member Paul, and members of the 
Subcommittee, thank you for holding this hearing today on S. 1134, the 
St. Croix River Crossing Project Authorization Act, which I introduced 
with my colleagues Senators Kohl and Johnson of Wisconsin, and Senator 
Franken, a member of this Subcommittee.
    Before I begin, I would like to welcome to the U.S. Senate the 
Minnesota witnesses who will speak later: Stillwater Mayor Ken Harycki 
and Roger Tomten.
    The St. Croix River Crossing Project Authorization Act would allow 
construction of a bridge across the St. Croix River. The project would 
not only provide a new link between the states of Minnesota and 
Wisconsin, but also ensure that a critical package of projects are 
built to mitigate impacts the bridge may have on the scenic, 
recreational or historical values of the St. Croix River valley.
    And, the project has the support of Governors Dayton and Walker as 
you can see from their strong testimony for the hearing record.
    There is broad consensus that a new bridge is necessary. The 
current crossing is the Lift Bridge, which was built in 1931 and 
designed to handle 11,000 vehicles per day. Today, it handles over 
18,000 vehicles per day and as many as 25,000 per day in the summer.
    The Minnesota Department of Transportation (Mn/DOT) has listed the 
bridge as being ``structurally deficient,'' and is also ``fracture 
critical,'' which means that if one component of the bridge fails, the 
entire structure will fail.
    As the bridge has aged, closures for maintenance and repairs have 
increased. This spring, the Lift Bridge was featured on the History 
Channel's, ``Inspector America'' program, which showed the severe 
corrosion on the steel plates and the host's ability to remove 
concreted from the piers with his hands.
    The bridge itself is a source of significant traffic congestion, 
especially in the summer months, when it lifts frequently to allow 
watercraft to pass. This backs up on both sides of the bridge, as much 
as an entire mile, creating extensive gridlock and air pollution, 
hindering economic activity and threatening public safety--particularly 
when emergency vehicles are unable to pass through.
    Simply put, there is nearly unanimous agreement that the current 
bridge is completely inadequate.
    Mr. Chairman, Mayor Harycki will discuss the impact the Lift Bridge 
has on his community. And, testimony discussing the regional impact of 
the Lift Bridge has been submitted by Lakeview Hospital; Leo's Grill 
and Malt Shop, a small business owner; and the Minnesota Building and 
Construction Trades Council on the potential to create 3,000 
construction jobs each year.
    You may ask why this project has taken thirty years if everyone 
agrees that a new bridge is necessary, which is a very good question.
    In October 2010, the National Park Service determined that the 
proposed bridge would violate section 7(a) of the Wild and Scenic 
Rivers Act. This was the third such determination issued by the NPS, 
which, in doing so, reversed their previous 7(a) determination, which, 
in turn, was a reversal of their first 7(a) determination on this 
project dating back to the mid-1990s.
    So, when you combine these actions with endless litigation, it's 
very easy to see why we're here today considering a bill to authorize 
the project to finally move forward.
    The bridge that my bill would authorize has been developed through 
a comprehensive stakeholder process that began three decades ago. 
Local, state and federal officials joined with the environmental 
community, historical preservationists, local businesses and the 
general public to partner on this process.
    I worked closely with the NPS to ensure my legislation required a 
comprehensive package of mitigation projects, which would be 
implemented with construction of the bridge. This mitigation package 
was developed among a 28 member stakeholder process in 2006, including 
the NPS, and would make important improvements like remove other 
manmade structures from the river, and protect park land and bluffs.
    And, as you can see the bridge would be constructed near an 
existing power plant, water treatment facility, and a marina. All of 
these structures already exist in the river valley.
    In 2004, options were studied with the goal of choosing the most 
appropriate bridge project that would not only meet the region's 
current and future transportation needs , but would also have the best 
design with the smallest impact on the river valley's scenic, 
recreational, historical and environmental resources.
    A few weeks ago a proposed ``lower and slower'' bridge design 
reemerged that would have a diagonal three lane bridge be constructed 
closer to the existing Lift Bridge.
    I say that the ``lower-slower'' bridge ``reemerged,'' because it is 
similar to options that were studied during the 2004 review. Those 
options were studied extensively and rejected because I t was 
determined that they would have greater environmental impacts than the 
preferred alternative--impacts that would affect everything from park 
properties, bluff areas, historical structures, flood plains, wetlands, 
and commercial properties. And, they would face a difficult time making 
it through the very same Wild and Scenic Rivers Act review process that 
brings us here today.
    That's not to mention the issues of cost for the ``lower-slower'' 
option. In 2004, the rejected bridge proposals--the ones that included 
similar ideas to this ``lower-slower'' plan--were anticipated to cost 
at least $500 million. That's nearly double the estimate cited for the 
reemerged design.
    In addition, because this may technically be a ``new'' proposal, 
the environmental work would have to be reopened, amended and perhaps 
redone. And, yet another review under the Wild and Scenic Rivers Act 
would also likely be required. This would cause the project to be 
delayed for years--perhaps as long as a decade. So, this would mean 
that we all could be sitting right back here, 10 years from now, 
discussing legislation to build the exact same bridge.
    During that time, congestion will grow. . . the need for repairs 
and maintenance on the lift bridge will increase. . . threats to public 
safety and critical access to medical care will worsen. . . economic 
development will be stifled. . . and costs will continue to rise with 
inflation.
    So, they are right when they say that their proposal is both 
``lower'' and ``slower!''
    The states of Minnesota and Wisconsin have worked hard to plan for 
this project and they have the money to build it.
    Some of the state and federal funds that would be used for 
construction will expire in 2014. Unfortunately, the Minnesota 
Department of Transportation estimates that it will take three years to 
complete all the necessary permits for constructing this project. That 
is why Governor Dayton has said that legislation to authorize the 
bridge should be enacted by September 30, 2011.
    For decades, the people and businesses of the St. Croix River 
Valley have been crying out for a safer, more efficient alternative to 
the Lift Bridge. Not only that, but the states have the resources 
necessary to start construction, and any bridge proposal would likely 
need Congressional authorization. So what are we waiting for? It's time 
to break the deadlock and bring this project out of bureaucratic limbo. 
We've waited long enough and it's time to move forward. I ask for your 
support and your help in moving this bill quickly through the Energy 
and Natural Resources Committee to the full Senate.
    Thank you.

    Senator Udall. Thank you, Senator Klobuchar.
    Senator Johnson, welcome. We're eager to hear your 
statement.

          STATEMENT OF HON. RON JOHNSON, U.S. SENATOR 
                         FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    Ranking Member Paul, congratulations; and Senator Franken.
    Rather than repeat an awful lot of what Senator Klobuchar 
has already said--she's made a very good case--let me just ask 
that my testimony be added to the record, and I'll just make a 
few points.
    First of all, I'm very happy to join my Senate colleagues 
from Minnesota and Wisconsin. This truly is a bipartisan 
effort. I think that's a good thing. So, I'm happy to support 
this, and really do appreciate Senator Klobuchar's leadership 
in getting this bill presented.
    As soon as I travel in, particularly in the western part of 
the State of Wisconsin, this is a very high priority for the 
constituents. I mean, it's generally topic A, topic B, and 
topic C. So, this is very important from a standpoint of 
economic growth.
    I'm originally from Minnesota so, back in the 1970s I 
repeatedly went over this bridge. In fact, the matter is, back 
then is, you know, when the Wild and Scenic Rivers Act was 
passed. It was 37 years old at that point in time, when I was 
crossing that bridge in the 1970s, it seemed like a pretty 
unsafe bridge at that point. So it hasn't improved much. Now 
it's 80 years old.
    Just to kind of put some perspective, back when it was 
built in 1931, the number of cars on the road numbered about 26 
million. Today the number of cars on the road are almost 10 
times that amount--242--and you've heard the statistics that 
Senator Klobuchar cited in terms of the peak traffic out of 
that, close to 20,000 cars.
    I realize that the Wild and Scenic Rivers Act is very 
important. I support it as well. I just want to say that no one 
enjoys a clean and pristine environment more than I do. I mean, 
when I had time for vacations, pretty much I did camping, 
fishing, hiking throughout the States of Minnesota and 
Wisconsin. I mean, I think they're 2 of the most beautiful 
States in the country. There may be some disputes. But, they're 
gorgeous. There would be, I would never propose anything that 
would harm----
    Senator Klobuchar. Remember, we have to keep the Ranking 
Member and the Chairman happy.
    Senator Johnson. I understand.
    [Laughter.]
    Senator Johnson. But, anyhow, from my standpoint, I would 
never propose anything that would harm that scenic beauty. So, 
again, I think it's extremely important--one other point I'd 
like to make is, this project has been put on hold. Back when 
this was originally proposed back in 1992, the original 
construction costs would have been $80 million. Today it's 
going to cost close to $700 million, and we're looking at 
potentially having some funding running out here. So, again, I 
think it's just absolutely critical that we move forward with 
this thing.
    Again, I'm happy to join this effort. I really do ask full 
consideration to get this project moving forward quickly. Thank 
you.
    [The prepared statement of Senator Johnson follows:]
 Prepared Statement of Hon. Ron Johnson, U.S. Senator From Wisconsin, 
                               on S. 1134
    Chairman (Mark) Udall, Ranking Member Paul and Members of the 
Committee, thank you for your consideration of S. 1134. I am happy to 
join my three Senate colleagues from Wisconsin and Minnesota in 
cosponsoring this bill that facilitates the construction of a four-lane 
highway bridge over the Lower St. Croix River connecting St. Joseph, 
Wisconsin and Oak Park Heights, Minnesota.
    The current lift-bridge that connects Stillwater, Minnesota and 
Houlton, Wisconsin was built in 1931. Herbert Hoover was president and 
the country was in the early stages of the Great Depression. According 
to the United States Department of Transportation, there were only 26 
million motor vehicles registered in 1931. To put that in perspective, 
in 2009, there were 242 million. . .almost 10 times more.
    In 1968, the Wild and Scenic Rivers Act was passed by Congress and 
signed into law by President Johnson. The intent of the Act was to help 
maintain the natural beauty of our nation's rivers. At that time, the 
Lift Bridge was already 37 years old. I remember crossing the bridge a 
number of times during the 1970's. It was already showing signs of age 
at that time, and was hardly a thing of beauty.
    Now it is 80 years old, and conditions in the area are far 
different than they were in 1931. Motor vehicle traffic has increased 
exponentially in the area, and traffic congestion is having a negative 
impact on the daily lives of local citizens and the regional economy.
    It is now estimated that as many as 20,000 cars use the lift bridge 
every day. Looking at pictures of the lift bridge, I think it's pretty 
clear that it wasn't built for that much traffic. Traffic backs up into 
the local communities causing congestion, delays, and more dangerous 
commutes to work and school. And the Minnesota Department of 
Transportation projects traffic volumes will increase significantly 
over the next 20 years.
    Mr. Chairman, no one enjoys a clean and pristine environment more 
than my family and I. When we had time for vacations, we generally 
chose activities and locations that allowed us to enjoy the natural 
beauty of God's creation. We camped, fished, and hiked extensively 
throughout Minnesota and Wisconsin. They are two of the most beautiful 
states in America. I would not propose anything that would harm or 
detract from their beauty.
    My experience in manufacturing and business certainly taught me how 
economic development can positively affect an area when a major project 
is initiated. The economic impact of a new bridge on the local 
communities, both during construction and after, would be decidedly 
positive. According to the Minnesota Department of Transportation, more 
than 6,000 full time workers would be required during peak 
construction. In addition, this upgrade of an important element of 
regional infrastructure would help facilitate economic development for 
decades.
    According to the Minnesota Department of Transportation, the 
deterioration of bridge components is expected and rehabilitation 
projects are needed to ensure its safety.
    As I said earlier, I remember driving across the bridge during the 
70's. It didn't feel very safe to me then, and now the safety ratings 
from the Minnesota Department of Transportation indicate the bridge is 
one of the least safe bridges in the Midwest. According to an April 
2011 report by the Minnesota Department of Transportation, the 
sufficiency rating is only 33 out of 100. To put this into perspective, 
the I-35W Mississippi Bridge that collapsed on Aug. 1, 2007, causing 13 
deaths and 145 injuries, received a sufficiency rating of 50.
    Since 1980, the Wisconsin, Minnesota, and United States Departments 
of Transportation have worked together toward a replacement bridge.
    It is important to point out that his bill does not require any new 
funding from the federal government in order to pay for the project. 
The only further contribution the Federal government needs to make is 
to pass this bill to let construction proceed. It is a shame 
construction of this bridge has been on hold since 1992, when the 
construction cost would have been approximately $80 million. Today, the 
cost will be closer to $700 million. Further delay in undertaking this 
necessary infrastructure project will only result in higher costs to 
our states in the future.
    Both Governor Walker and Governor Dayton support the project. A 
bipartisan coalition of members from the House and Senate support an 
exemption from the Wild and Scenic Rivers Act for the St. Croix River 
Crossing Project. More importantly, the local communities in Wisconsin 
and Minnesota overwhelmingly support the construction of a new four-
lane bridge connecting our states.
    Therefore, I respectfully ask the Committee to take the necessary 
action to move this project forward. Congress should exempt the St. 
Croix River Crossing Project from the Act so that we can retire an old 
and substandard bridge and replace it with a modern bridge to meet the 
needs of the region and contribute to economic growth.

    Senator Udall. Thank you, Senator Johnson.
    Thank you, Senator Klobuchar.
    Your statements are self-explanatory. I don't have any 
questions. But let me turn to the Ranking Member to see if he 
has any questions.
    Senator Paul. You know, the first thing that comes to my 
mind--and I'm supportive of your effort. But the first thing 
that comes to my mind when it takes from 1992 to the present to 
get something done because Federal rules are inhibiting it, 
that perhaps the original Federal legislation has some 
problems. While I do support this specific exemption, really, 
to me it points to the fact that there are problems with the 
legislation if the Federal Government holds you up, and each of 
the States in particular saying this is not something, you 
know, we're worried that the new bridge will obstruct the view 
to the power plant, or worried that the new bridge might not 
let us see the prison.
    So, but I really think we ought to review the Scenic 
Waters, you know. I mean, I understand the ode to Walter 
Mondale. But, for goodness sakes, 20-some-odd years to build a 
bridge because of this legislation makes me think there may be 
some problems with the legislation.
    I don't have a specific question, unless you'd care to 
comment.
    Senator Klobuchar. Obviously, we have a lot of respect for 
the legislation in our States, and we love our rivers and our 
lakes. But right now we are really focused on this specific 
exemption, Senator Paul, and we think that is, and the story 
is, there have been reversals of opinions and a lot of 
litigation. We've come to the point now where we actually have 
the money set aside from the 2 States, strong agreement from 
the 2 Governors, and we believe that this is the time to 
proceed.
    You know, I'm sure there are other versions of the bridge, 
and other things that could be proposed here. But at some point 
you realize that time is running out here with the funds.
    Senator Udall. Senator Johnson.
    Senator Johnson. I guess I'd just like to add that this is 
a moment in time when we can actually accomplish this. To open 
up a debate on a larger issue, it's probably just not worth. I 
mean, I think it's extremely important. Again, I just want to 
underline how incredibly important this is to, just, economic 
development.
    I think one of the things that Senator Klobuchar pointed 
out, if you just speak construction, you know, their estimate's 
close to 6,000 jobs being created there. Again, this project 
would be instrumental for economic development for decades. So, 
it really is important.
    Senator Udall. Senator Franken.
    Senator Franken. I just want to thank my colleagues for 
testifying, and apologize on behalf of Senator Johnson. New 
Mexico and Kentucky are exquisitely beautiful.
    Senator Klobuchar. Colorado is----
    Senator Franken. Oh. Colorado. I'm sorry.
    [Laughter.]
    Senator Klobuchar [continuing]. Really quite beautiful.
    Senator Franken. Yes. I was going to say--but, actually, I 
think New Mexico is more beautiful than Colorado. No. I'm 
sorry. I mistook you for your cousin for a second. Colorado and 
Kentucky are just exquisite States. We'd appreciate the vote 
for the bridge.
    [Laughter.]
    Senator Udall. Let me thank both senators for taking time 
out of your busy schedules. I know you have much in the way of 
demands on your time. But if you'd like to stay, you're 
certainly welcome to join the committee. We would welcome your 
participation. We also understand if you need to go off to 
other engagements. So, thanks again.
    Senator Klobuchar. Thank you very much.
    Senator Johnson. Thank you much.
    Senator Udall. While the senators take their leave, I'd 
like to call the second panel to the table, and we'll start 
with your testimony when you get comfortable and ready to go.
    Welcome to both of you. We've been joined by Peggy O'Dell, 
who's the Deputy Director for Operations, National Park 
Service, Department of Interior, and by Joel Holtrop, Deputy 
Chief, National Forest System, Forest Service, Department of 
Agriculture.
    Neither of you are unfamiliar to the committee. We welcome 
you. Thank you for taking the time to come up here today.
    Let me turn to Ms. O'Dell for your opening statement.

   STATEMENT OF PEGGY O'DELL, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Ms. O'Dell. Thank you, Mr. Chairman, Senator Franken, and 
Ranking Member Paul when he comes back.
    Thank you for the opportunity to appear before your 
subcommittee to present the Department of the Interior's views 
on the 8 bills on today's agenda.
    I would like to submit our full statement on each of these 
subjects for the record and summarize the Department's 
positions on these bills.
    [The prepared statements of Ms. O'Dell follow:]
  Prepared Statement of Peggy O'Dell, Deputy Director, National Park 
                  Service, Department of the Interior
                                 s. 264
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 264, a bill to direct the Secretary of the Interior to convey to the 
State of Mississippi two parcels of surplus land within the boundary of 
the Natchez Trace Parkway, and for other purposes.
    The Department supports S. 264 with an amendment described later in 
this statement. This legislation would authorize the conveyance of 67 
acres of unused federal land to the State of Mississippi. This land was 
originally donated by the state to the National Park Service to help 
complete construction of the Natchez Trace Parkway (Parkway), but it 
was never used for that purpose. The bill would also adjust the 
boundary of the Parkway to include approximately 10 acres of land that 
the National Park Service owns around the current southern terminus, 
which were inadvertently excluded from the boundary previously.
    The Natchez Trace was the main overland link between the old 
southwest territory and the Ohio River Valley in the 18th and 19th 
centuries. In 1938, Congress established the Natchez Trace Parkway as a 
unit of the National Park System. The Parkway was constructed between 
1938 and 2005 at a cost of nearly $500 million. During the construction 
period, the states of Mississippi, Alabama, and Tennessee helped 
acquire and donate over 50,000 acres of land to facilitate parkway 
construction and protect the scenic, natural, cultural, and historic 
resources within the Natchez Trace corridor. Today, the completed 
Parkway spans 444 miles from Nashville, Tennessee, to Natchez, 
Mississippi, and is enjoyed by over 13 million travelers each year.
    The southern terminus in Natchez was the final section of Parkway 
constructed and was completed in 2005. Decades prior to this section 
being planned and designed, it was uncertain where the Parkway would 
terminate. In order to prepare, the State of Mississippi acquired and 
donated to the National Park Service two different sections of land to 
accommodate two possible construction alternatives.
    The National Park Service began planning the final section of 
Parkway in the mid-1990s. After completing an environmental impact 
statement in 1998, which included significant public input, the Park 
Service selected the Liberty Road alternative. This decision left land 
acquired for the alternative terminus unused. The 67 acres identified 
in S. 264 are the unused land.
    The 67 acres are subdivided into two parcels, both within the city 
limits of Natchez. One parcel, commonly known as the bean field 
property, is approximately 38 acres and is adjacent to Natchez High 
School. The other parcel, commonly known as the Feltus property, is 
approximately 29 acres and is located in the new business district of 
Natchez. The Feltus property includes a structure that has been used by 
the city since 1999 under a cooperative agreement with the National 
Park Service.
    In 2000, the city approached the National Park Service with a 
request to lease the bean field parcel to facilitate construction of a 
public recreational complex for the city, including soccer fields and 
other amenities. Public Law 106-527, enacted that year, authorized the 
National Park Service to lease land within its boundary to the city 
``for any purpose compatible with the Parkway.'' This legislation 
provided authority for the National Park Service to accommodate the 
city's request to use the bean field property for public recreational 
uses.
    The National Park Service then entered into a 25-year memorandum of 
agreement with the city to help facilitate the recreational project. In 
2001, as part of the agreement, an extensive archeological 
investigation was performed to determine if any significant cultural or 
historical resources existed on the bean field property. None were 
found. This investigation was in addition to the assessments undertaken 
for the 1998 environmental impact statement, which covered all 67 
acres.
    The city is planning to invest up to $5 million to build the 
recreational complex on the bean field property. With such a large 
local investment planned, we believe this is an appropriate time to end 
the National Park Service's role as the property's lessor by conveying 
the property back to the state. Both the state and the city are highly 
supportive of the proposed conveyance and have discussed the best way 
to proceed should this legislation pass. The state has indicated that 
in the short term, the state would continue honoring the existing ``any 
purpose compatible with the Parkway'' lease authority and may consider 
conveying the parcel to the city to allow for fee simple ownership. The 
Feltus property would be retained by the state for purposes deemed 
appropriate, and the state would collaborate with the city on any 
future plans for this property as well.
    While we support the proposed conveyance, we are concerned about 
how the bean field property might be used in the future, beyond the 
planned use for recreational purposes. We recommend that S. 264 be 
amended to provide for reversion of the 38-acre bean field property to 
the United States, for administration by the National Park Service, in 
the event that the land is not used for purposes compatible with the 
Parkway. The bean field, unlike the Feltus property, is visible from 
the Parkway. A reversionary clause would help protect against the 
future possibility of incompatible development detracting from the 
Parkway's scenic values. We would be happy to work with the committee 
on language for such an amendment, as well as a technical amendment 
needed for 10-acre boundary adjustment provision.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or any members of the subcommittee 
may have.
                                 s. 265
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 265, a bill to authorize the acquisition of core battlefield land at 
Champion Hill, Port Gibson, and Raymond for addition to Vicksburg 
National Military Park.
    The Department supports S. 265. This bill would enable the National 
Park Service to add three separate battlefield sites to Vicksburg 
National Military Park, which would each make significant contributions 
to telling the story of the remarkable campaign that resulted in the 
Union Army's capture of the city of Vicksburg during the Civil War.
    The battlefields at Champion Hill, Port Gibson, and Raymond are 
sites of military engagement associated with the 1863 Vicksburg 
Campaign. The campaign was a major milestone on the road that led to 
the final success of the Union army in the war and the ultimate 
reunification of the nation. The strategies and tactics of Major 
General Ulysses S. Grant during the campaign continue to be studied by 
modern military leaders as examples of excellence in generalship.
    The proposed addition of campaign battlefields to Vicksburg 
National Military Park is based on the study authorized by Public Law 
106-487, the Vicksburg Campaign Trail Battlefields Preservation Act. 
That law directed the Secretary of the Interior to complete a study to 
determine what measures should be taken to preserve Civil War 
battlefields along the Vicksburg Campaign Trail. The Vicksburg Campaign 
Trail Feasibility Study, transmitted to Congress in 2006, identified 
Champion Hill, Port Gibson, and Raymond as ``Tier I'' sites, placing 
them among the 19 highest-ranked resources out of the more than 500 
Vicksburg Campaign-related resources evaluated by the study. The study 
recommended Champion Hill and Port Gibson for addition to the National 
Park System. Raymond was viewed as adequately protected by the Friends 
of Raymond, a local non-profit group.
    All three battlefields continue to exhibit a very high degree of 
historical integrity. Most essential features remain intact, and modern 
intrusions are limited. Acquisition of the battlefields would allow the 
National Park Service to ensure long-term preservation of the cultural 
landscape and other cultural resources, and to better interpret the 
stories of the Vicksburg Campaign. The renewed public interest in the 
need to protect Civil War battlefields that is being generated by Civil 
War Sesquicentennial activities makes this legislation particularly 
timely. In addition, this legislation would advance the vision of 
safeguarding our historic and cultural heritage that the President 
committed to through the America's Great Outdoors Initiative.
    The battlefield at Port Gibson marks the first engagement of 
Grant's operations against Vicksburg after his army landed on 
Mississippi soil. After a day of battle, the Confederate army left the 
field and Grant secured his beachhead. The proposed boundary at Port 
Gibson encompasses about 3,810 acres. The State of Mississippi owns 14 
acres in fee, and holds a preservation easement on 609 acres. The 
historic Schaifer House, a Civil War-era home, is extant on the 
property owned by the state. Many roads within the battlefield remain 
very similar in appearance to the mid-19th century and provide a strong 
sense of how Civil War troops moved.
    Eleven days after the battle at Port Gibson, the Union and 
Confederate armies met again on the field at Raymond. After a day of 
heavy fighting, Federal forces again prevailed and General Pemberton's 
troops withdrew to Jackson. The proposed boundary at Raymond 
encompasses about 1,520 acres. The Friends of Raymond owns 140 acres of 
this land in fee, and holds a preservation easement on an additional 6 
acres. The battlefield remains largely pristine, and holds high 
potential for interpretation.
    Following the battle at Raymond and the subsequent occupation of 
Jackson, General Grant turned his army towards the west. On May 16, 
Union and Confederate forces met again, this time at Champion Hill. The 
battle was the largest, bloodiest, and most decisive engagement of the 
Vicksburg Campaign. By the end of the day, the Confederates were in 
full retreat towards Vicksburg. The proposed boundary at Champion Hill 
includes approximately 6,350 acres. The State owns 836 acres in fee, 
and holds a preservation easement on an additional 558 acres. The Civil 
War Trust also owns 60 acres in fee. The historic Coker House, a Civil 
War-era home, is extant on the property owned by the State.
    In total, S. 265 authorizes the addition of up to 11,680 acres to 
Vicksburg National Military Park. The State of Mississippi, Civil War 
Trust, and Friends of Raymond cumulatively own about 1,050 acres in 
fee, and hold preservation easements on about 1,172 acres of land. Each 
of these entities has expressed the desire to transfer its interests to 
the National Park Service. Acquisition costs for these properties would 
be nominal, since they would be donated. Based on current assessed 
property values, the acquisition costs for other lands in these areas 
are expected to average between $1,700 and $3,000 per acre (depending 
on the presence, if any, of marketable timber), totaling approximately 
$16 million to $28 million, for acquisition in fee. The National Park 
Service would also seek to protect land through less costly means, such 
as conservation easements. Additional management planning involving 
public participation would be necessary to best determine the level of 
facilities needed to serve the visiting public and to identify 
important battlefield protection strategies for these new lands. The 
capital investment needed to support infrastructure and recurring 
operational costs, consequently, have not been defined in detail. In 
gross terms, annual operational costs have been estimated at $1 million 
to $1.5 million.
    Under S. 265, the properties identified for potential acquisition 
by the National Park Service would not be added to the boundary of, or 
managed as part of, Vicksburg National Military Park unless and until 
they are actually acquired.
    S. 265 enjoys strong local and national support. Mississippi 
Governor Haley Barbour and leadership at the Mississippi Department of 
Archives and History are on record as supporting the transfer of state 
lands to the National Park Service. The Civil War Trust and Friends of 
Raymond have expressed support for the legislation, as have elected 
officials and community leaders in Hinds and Claiborne Counties and the 
communities of Raymond and Port Gibson. This bill would help guarantee 
the preservation, protection, restoration, and interpretation of these 
important lands for current and future generations.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or any members of the subcommittee may have.
                                 s. 324
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 324, a bill that would amend the Chesapeake and Ohio Canal 
Development Act to extend the authority of the Chesapeake and Ohio 
Canal National Historical Park Commission.
    The Department supports S. 324. The establishment of the Chesapeake 
and Ohio Canal National Historical Park Commission (Commission) on 
January 8, 1971, stemmed in part from the unique nature of the canal. 
It is unlike most areas administered by the National Park Service as it 
is a linear park running along a 185-mile stretch of river shoreline 
and is flanked by the nation's capital, suburban communities, and 
numerous small towns.
    S. 324 would change the termination date of the Commission from 40 
years to 50 years after the effective date of January 8, 1971. The 
Commission's authority to operate terminated on January 8, 2011. S. 324 
would extend the authority to operate to January 8, 2021.
    The Chesapeake and Ohio Canal, begun in 1828 and completed in 1850, 
runs continuously 185 miles from Georgetown in the District of Columbia 
through Maryland and West Virginia to Cumberland in Maryland. 
Originally planned to link Washington, D.C., and Pittsburgh, 
Pennsylvania, as part of this nation's canal-building boom, the canal 
was constructed to be a major commercial route. While the canal 
operated until 1924 when it was abandoned, competition from the newly 
constructed railroad and the National Road resulted in much less 
commercial success than its builders had hoped. In 1938, the United 
States purchased the narrow canal right-of-way from Georgetown to 
Cumberland, Maryland, and partially restored the lower end of the 
canal.
    In 1961, the C & O Canal Monument was created by Presidential 
Proclamation but no funding was provided to develop the area or acquire 
adjacent lands. A proposal to construct a highway along the canal's 
route met considerable public opposition led by Supreme Court Justice 
William O. Douglas and this support ultimately led to the establishment 
of the Chesapeake and Ohio Canal National Historical Park, running the 
length of the original canal.
    When the park was established in 1971, the Chesapeake and Ohio 
Canal National Historical Park Commission was created. The 19-member 
Commission served to link the various jurisdictions along the length of 
the park. Under the 1971 legislation, the Secretary of the Interior was 
directed to meet and consult with the Commission at least annually on 
general policies and specific matters related to the administration and 
development of the park.
    The Commission has performed valuable service during the past 39 
years in advising and assisting the National Park Service in the 
administration and development of the park. In the early years, the 
Commission served as the vehicle for public meetings in the development 
of the general plan for the park, and subsequently for several park, 
site-specific development concept plans. In the years since, the 
Commission has served as the public forum for discussing implementation 
of plans along the 185 miles of the park.
    The Commission represented not only the local park neighbors, but 
the national constituency as well. Many Commission members had a life-
long interest in the C & O Canal and the National Park Service. The 
Commission met quarterly and Commission members were only compensated 
for reimbursement of actual expenses for meetings. Individual members 
of the Commission served on various volunteer groups and participated 
in park-sponsored events throughout the year. The commissioners 
communicated directly with the park superintendent during meetings and 
individually throughout the year regarding park issues.
    The need for the Commission continues because the park is spread 
across 19 political jurisdictions. The Commission assisted park staff 
in reaching out to these numerous constituencies and ensuring that all 
their views were heard. As the work of managing C & O Canal National 
Historical Park continues, the public connection to park management 
through the Commission should continue as well.
    This completes my prepared comments concerning S. 384. I will be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                                 s. 864
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
864, a bill to designate a Distinguished Flying Cross National Memorial 
at the March Field Air Museum in Riverside, California.
    The Department would defer to the Department of Defense for a 
position on S. 864 since the purpose of the legislation is to further 
honor military personnel who have been awarded the Distinguished Flying 
Cross at a site that is not under the jurisdiction of the Department.
    The Distinguished Flying Cross is awarded to a member of the United 
States armed forces who distinguishes himself or herself in support of 
operations by ``heroism or extraordinary achievement while 
participating in an aerial flight.'' We applaud the effort of the March 
Field Air Museum to create a suitable memorial to the honor, bravery, 
and sacrifice of members of our Armed Forces who have earned this 
medal.
    This legislation explicitly states that this memorial is not a unit 
of the National Park System. As this language makes clear, the use of 
the title ``national memorial'' creates a reasonable expectation among 
the general public that it must have an affiliation with the National 
Park Service, which currently administers 27 national memorials across 
the country. This is not the first time this issue has arisen, nor is 
it likely to be the last, and the Department respectfully encourages 
only the most thoughtful and judicious designation of any future 
``national'' memorials or other similar sites.
    That concludes my testimony Mr. Chairman. I would be pleased to 
respond to any questions from you and members of the committee.
                                 s. 883
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 883, a bill to authorize the National Mall 
Liberty Fund D.C. to establish a memorial on federal land in the 
District of Columbia to honor free persons and slaves who fought for 
independence, liberty, and justice for all during the American 
Revolution.
    The Department supports S. 883 if amended to conform to the 
principles, processes, and requirements set forth in the Commemorative 
Works Act, which has successfully guided the process for establishing 
monuments in the nation's capital since it was enacted in 1986 and as 
amended since that time.
    The bill would authorize the establishment of a memorial on federal 
land in Area I in the District of Columbia to recognize and commemorate 
the contributions of 5,000 African Americans who served as soldiers and 
sailors or provided civilian assistance during the American 
Revolutionary War. The bill prohibits the use of federal funds to 
establish the memorial, directs that the memorial be established 
according to the Commemorative Works Act, and repeals two laws for the 
authorization and site selection of a similar memorial proposal that 
have already lapsed by operation of law.
    In 1986, Congress enacted the Commemorative Works Act to guide the 
process for establishing memorials in the nation's capital. Since its 
enactment, the Act has played an important role in ensuring that 
memorials in the nation's capital are located, designed and erected in 
a manner that is worthy of their historically significant subjects. The 
act was amended in 2003 to, among other things, provide for 
establishment of the Reserve where no additional memorials may be 
located.
    While S. 883 states that the memorial shall be established in 
accordance with the Commemorative Works Act, the bill contravenes a 
critical requirement of the Commemorative Works Act by pre-authorizing 
the memorial to be located within Area I. In effect, the bill directs 
that the memorial be located within Area I without benefit of public 
participation or the participation of the Secretary of the Interior, 
circumventing the process Congress has adhered to since 1986. This 
preempts the Secretary's responsibility to recommend Area I 
designations to Congress for Congress to consider and act upon, and it 
curtails the roles of the National Capital Planning Commission and the 
Commission of Fine Arts.
    The Commemorative Works Act, as amended, designates federal land in 
two areas in the District of Columbia and environs on which memorials 
could be sited within the District of Columbia, and one area, known as 
the Reserve, where no additional memorials can be located. These areas 
are depicted on the attached map which is designated in the Act. All 
memorials authorized to be located on this federal land in the District 
of Columbia and environs are authorized to seek sites within the 
portion of the map designated as Area II. However, a new memorial may 
be located in Area I only if the Secretary determines, after 3 
consulting with the National Capital Memorial Advisory Commission, 
which holds public meetings, that the memorial's subject warrants 
location in Area I, and if the Congress agrees with the Secretary's 
determination by passing legislation to this effect within 150 days. 
Area I is within the Monumental Core of the Nation's Capital extending 
from Third Street, N.W. to the eastern boundary of Arlington National 
Cemetery and along the shoreline on the Virginia side of the Potomac 
River.
    The Department's position regarding adherence to the Commemorative 
Works Act process for Area I designation is consistent with the 
position taken by the National Capital Memorial Advisory Commission, 
which reviewed S. 883 at its public meeting on June 23, 2011. The 
Commission recommended support for S. 883 if brought into conformance 
with the Commemorative Works Act by deleting the word ``preeminent'' in 
Section 1, and the reference to Area I in Section 2(A)(i).
    In the Department's view, following the Commemorative Works Act 
would not hinder the Liberty Memorial Foundation in its ability to 
establish this memorial. In fact, if the Foundation obtains an Area I 
designation through the Commemorative Works Act process, the 
Foundation's 7-year statutory period to establish the memorial is 
automatically extended seven more years, beginning on the enactment of 
the Area I designation, instead of expiring at the 7-year point. This 
change to give sponsors seven more years for a memorial when seeking an 
Area I designation, was made by Congress when it amended the 
Commemorative Works Act in 2003, and as a result, sponsors no longer 
need to factor into their goals that seeking an Area I designation 
would reduce the time available to them to locate, fund and design 
their memorials.
    We also would point out that S. 883 makes no provisions for the 
disposition of monies raised in excess of funds needed for the 
establishment of the memorial or to hold in reserve the amount 
available should the authority to establish the memorial lapse. The 
Department recommends that the bill be amended to clarify the 
disposition of these funds.
    The Department reiterates our support of the establishment of a 
memorial in the Nation's Capital that recognizes and commemorates the 
contributions of African Americans who fought for independence, liberty 
and justice during the Revolutionary War. We look forward to the 
opportunity to work with the Subcommittee to develop language that 
would provide for such authorization in a manner consistent with the 
principles, processes, and requirements set forth by existing 
authorities.
    Mr. Chairman, that concludes my prepared testimony, I would be glad 
to answer any questions that you or other members of the subcommittee 
may have.
    Attachment (map)*
---------------------------------------------------------------------------
    * Map has been retained in subcommittee files.
---------------------------------------------------------------------------
                                 s. 970
    Mr. Chairman, thank you for the opportunity to appear before your 
committee today to discuss the views of the Department of the Interior 
on S. 970, a bill to amend the Wild and Scenic Rivers Act by 
designating additional segments and tributaries of the White Clay Creek 
in Delaware and Pennsylvania as components of the National Wild and 
Scenic Rivers System.
    The Department supports enactment of this legislation with one 
technical amendment.
    S. 970 would amend the White Clay Creek Wild and Scenic River 
designation to add nine additional miles of segments and tributaries to 
the designation, to be administered by the Secretary of the Interior 
(Secretary). The additional segments and tributaries will be managed in 
accordance with the ``White Clay Creek and Its Tributaries Watershed 
Management Plan'' (amended Summer 2001) with the Secretary coordinating 
the White Clay Creek Watershed Management Committee.
    In December 1991, Congress directed the National Park Service to 
undertake a study of the headwaters of the White Clay Creek in the 
Commonwealth of Pennsylvania to its confluence with the Christina River 
in the State of Delaware. The study was also to include the East, West, 
and Middle Branches; Middle Run; Pike Creek; Mill Creek; and other 
tributaries of the White Clay, as identified by the Secretary, to 
determine their eligibility for inclusion in the National Wild and 
Scenic Rivers System. The study was to be done in cooperation and 
consultation with various federal, state, regional, and local 
governments and affected landowners. In addition, a river management 
plan was to be prepared that would provide recommendations as to the 
protection and management of the White Clay Creek and its tributaries. 
The plan was to outline roles for the state and local governments and 
affected landowners to play in the management of the White Clay Creek 
as a designated component of the National Wild and Scenic Rivers 
System.
    In 1998, a watershed management plan was prepared that contained 
six goals for management of the White Clay Creek and its tributaries. 
These goals include improving and conserving water quality and 
quantity, and conserving open space, woodlands, wetlands, and geologic 
features. The plan was done cooperatively and calls for a management 
framework for the White Clay Creek and its tributaries that rely 
heavily on local land use decisions.
    In 1999, the National Park Service issued the ``White Clay Creek 
and Its Tributaries National Wild and Scenic River Study Draft 
Report.'' In the report, the National Park Service found that the 
majority of the river segments identified in the study met the 
eligibility requirements of the Wild and Scenic Rivers Act by virtue of 
their free-flowing condition and presence of one or more outstandingly 
remarkable resource values. The watershed also includes open space and 
recreational opportunities for hiking, jogging, canoeing and fishing; 
in fact, the White Clay Creek is the most heavily stocked and heavily 
used put-and-take trout stream in the State of Delaware. In 2000, 
Public Law 106-357 designated 190 miles of the White Clay Creek and its 
tributaries as components of the National Wild and Scenic River System.
    The study report also identified additional segments and 
tributaries, which are the subject of S. 970, that would be eligible 
and suitable for designation. These segments and tributaries are 
eligible and suitable because they are free-flowing streams with 
outstandingly remarkable values including the Cockeysville marble 
geologic formation that supports a high-yielding aquifer, a major 
source of drinking water, and threatened and endangered species 
including the Muhlenberg's (bog) turtle and cerulean warbler. However, 
these segments and tributaries were removed from consideration because 
the Delaware River Basin Commission was looking at these areas as 
possible locations for reservoirs under their comprehensive plan. In 
addition, there was not demonstrated municipal support for such a 
designation.
    In 2007, these segments and tributaries were removed from the 
comprehensive plan of the Delaware River Basin Commission. In addition, 
the New Garden Township in Pennsylvania, the only affected 
municipality, passed a resolution in support of the designation. With 
these two issues resolved, the Department now supports these segments 
and tributaries, totaling nine miles, be added to the National Wild and 
Scenic River System. The Department would like to work with the 
committee to make a technical correction to a map reference in Section 
3 of the bill.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                                s. 1063
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1063, the Huna Tlingit Traditional Gull Egg Use Act of 2011.
    This legislation provides for the restoration of an important 
cultural connection to Glacier Bay by the Huna Tlingit, and provides 
for the environmentally preferred action identified in our studies. As 
such, the Department supports enactment of S. 1063 with an amendment.
    Glacier Bay National Park is the traditional homeland of the Huna 
Tlingit who harvested eggs at gull rookeries in Glacier Bay prior to, 
and after the park was established in 1925. Egg collection was 
curtailed in the 1960s as Migratory Bird Treaty Act and National Park 
Service (NPS) regulations prohibited the activity.
    The Glacier Bay National Park Resource Management Act of 2000 (P.L. 
106-455) directed the NPS to study whether gull egg collection could 
resume without impairing the biological sustainability of the gull 
population in the park. The NPS conducted the study, wrote an 
environmental impact statement, and issued a record of decision, which 
found that collection under certain conditions would be sustainable. 
Those conditions, addressing the frequency of harvest and an annual 
harvest plan, are reflected in S. 1063.
    Section 2 (b) of the bill contains a condition for the Secretary of 
the Interior to develop an annual harvest plan jointly with the Hoonah 
Indian Association. To clarify that the Hoonah Indian Association's 
role is purely advisory, we recommend the attached amendment.
    The Department appreciates the opportunity to testify on this 
matter. I will be glad to answer any questions.
AMENDMENT TO S. 1063
    On p. 2, line 9, strike ``jointly by the Secretary and the Hoonah 
Indian Association.'' and insert ``by the Secretary in consultation 
with the Hoonah Indian Association.''.
                                s. 1134
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior (Department) regarding S. 1134, a bill 
to authorize the St. Croix River Crossing Project with appropriate 
mitigation measures to promote river values. This bill would allow 
construction of a new extradosed bridge crossing the St. Croix River if 
the mitigation items are included as enforceable conditions.
    The Department cannot support this legislation, as the NPS 
determined that the St. Croix River Project would have a direct and 
adverse impact to the river and that these impacts cannot be mitigated, 
as documented in its Section 7(a) Wild and Scenic Rivers Act evaluation 
of October 15, 2010. We are very concerned about the precedent that 
such legislation would establish given that the Department found the 
bridge project would have a direct and adverse effect on the designated 
river. In its May 4, 2011 testimony NPS did not support a similar 
bill--H.R. 850, which would facilitate a proposed project in the Lower 
St. Croix National Scenic Riverway. S. 1134 differs from H.R. 850 with 
the inclusion of mitigation measures for the project.
    This bill requires that the mitigation items described in paragraph 
9 of the 2006 St. Croix River Crossing Project Memorandum of 
Understanding for Implementation of Riverway Mitigation Items, signed 
by the Federal Highway Administration on March 28, 2006, and by the 
National Park Service on March 27, 2006, are included as enforceable 
conditions.\1\ It also states that any subsequent amendments to the 
Memorandum of Understanding are included as enforceable conditions.
---------------------------------------------------------------------------
    \1\ A copy of the Memorandum of Understanding may be found at 
http://www.dot.state.mn.us/metro/projects/stcroix/pdfs/Memounder/
Riverway%20MOU%204-11-06.pdf
---------------------------------------------------------------------------
    The Lower St. Croix National Scenic Riverway (Riverway) received 
protection as a ``study river'' with passage of the Act in 1968. 
Congress subsequently designated the upper 27-mile segment of the Lower 
St. Croix River as a Wild and Scenic River in 1972 and provided that if 
the Governors of the States of Minnesota and Wisconsin submit an 
application for the lower 25-mile segment, the Secretary of the 
Interior upon his approval shall designate that segment. The Governors 
did submit an application and the Secretary designated the lower 
segment in 1976. The Act established a method for providing Federal 
protection for some of our country's remaining free-flowing rivers, 
preserving them and their immediate environments for the use and 
enjoyment of present and future generations.
    In Section 7(a) of the Act, Congress expressed the clear intent to 
protect river values. The Act prohibits Federal agencies from assisting 
in the construction of any water resources project that would have a 
direct and adverse effect on the values of a designated river. Section 
7(a) states:

                  . . .no department or agency of the United States 
                shall assist by loan, grant, license or otherwise in 
                the construction of any water resources project that 
                would have a direct and adverse effect on the values 
                for which such river was established, as determined by 
                the Secretary charged with its administration. . .

    Pursuant to that statute, if the Department determines a direct and 
adverse impact would occur, the project cannot proceed absent 
congressional action.
    The Riverway is administered by the states of Minnesota and 
Wisconsin for 25 miles and the National Park Service (NPS) for 27 
miles. However, the Department of the Interior, through the NPS, has 
responsibility for evaluation of proposed Federal projects for the 
entire 52 miles of the designated river. The NPS is responsible for 
evaluating water resources projects under Section 7(a) of the Act to 
determine whether those Federal projects, including bridges, will have 
a direct and adverse effect on the Riverway's free-flowing condition, 
water quality, and outstandingly remarkable values. Each water 
resources project is evaluated independently on its own merits.
    The Riverway runs fast over sections of exposed bedrock, slow and 
deep over great depositional sediments left by the last glaciers, and 
throughout its course to the Mississippi River, the river carves 
through steep forested bluffs and rich valley bottomlands. Although 
solitude in natural settings is increasingly rare so close to a major 
metropolitan area, the Riverway offers natural solitude and abundant 
recreation.
    In 1995, the Federal Highway Administration (FHWA) released a 
Record of Decision to construct a new bridge over the Lower St. Croix 
National Scenic Riverway and in June 1996, the Sierra Club and 
Voyageurs Region National Park Association commenced a lawsuit against 
the United States Department of Transportation, the Federal Highway 
Administration, the Department and the NPS to enjoin construction of 
the project. They alleged that the Department had violated Section 7(a) 
of the Act by failing to determine whether the new bridge would have a 
direct and adverse effect upon the values for which the Riverway was 
established. In September 1996, the FHWA and its lead partner--the 
Minnesota Department of Transportation (MnDOT)--applied for a Section 
10/404 permit to place fill in the waters of the United States for 
bridge construction. Subsequently, the NPS prepared a Section 7(a) 
evaluation and determined that the project would have a direct and 
adverse effect on the Riverway's scenic and recreational values because 
of its visual impacts and that no available mitigation measures could 
significantly reduce the negative effects of the proposed bridge. 
Therefore, permits could not be issued and the bridge project could not 
go forward. MnDOT, the Wisconsin Department of Transportation (WisDOT) 
and the City of Stillwater, Minnesota, intervened in the lawsuit as 
defendants. They alleged that the 1996 NPS Section 7(a) determination 
was arbitrary, capricious, and in excess of statutory authority. The 
court upheld the 1996 NPS Section 7(a) determination, establishing case 
law that bridges are water resources projects subject to Section 7(a) 
of the Wild and Scenic Rivers Act.
    In 1998, after discussions with legislators and other interested 
parties, the FHWA, MnDOT and WisDOT decided to revisit the issue of a 
river crossing near Stillwater. MnDOT facilitated a consensus-building 
process for a new bridge crossing of the Riverway. This process 
resulted in a new bridge alignment and design as well as a mitigation 
package.
    In 2000, the NPS prepared a Draft Section 7(a) evaluation for 
inclusion in FHWA's Environmental Impact Statement (EIS). This 
evaluation determined that the proposed bridge would have a direct and 
adverse effect on scenic and recreational values; however, the adverse 
effects were adequately offset by the mitigation package developed by 
the stakeholders.
    In 2001, the FHWA suspended that EIS process short of a final 
decision, citing insufficient funds for the implementation of the 
mitigation measures.
    In 2002, the FHWA and its two state partners again re-initiated a 
St. Croix River Crossing EIS process. A ``Stakeholders Group,'' made up 
of 28 representatives of diverse interests was formed to provide input 
to the transportation agencies in their decision-making process. This 
process resulted in a new proposed bridge alignment (similar to the 
original 1996 alignment), a bridge design, and a mitigation package.
    In 2005, the NPS prepared an updated Section 7(a) evaluation that 
determined that the proposed crossing, when taken along with its 
mitigation package, would not have a direct and adverse effect on the 
scenic and recreational values, provided that the mitigation package 
remained intact.
    In 2006, the FHWA issued a new record of decision to allow the 
bridge to be built. The Sierra Club again sued the Secretaries of 
Transportation and the Interior, alleging violations of the National 
Environmental Policy Act, Section 4(f) of the Department of 
Transportation (DOT) Act of 1966 (40 U.S.C. 1653(f)), and the Wild and 
Scenic Rivers Act.
    On March 11, 2010, the U.S. District Court of Minnesota found the 
2005 NPS Section 7(a) evaluation ``arbitrary and capricious'' and 
vacated it.
    On April 6, 2010, the FHWA requested that the NPS prepare a new 
evaluation in response to the court's decision. The NPS released its 
latest Section 7(a) evaluation on October 15, 2010. The evaluation 
determined that, due to visual impacts, the St. Croix River Crossing 
Project would have a direct and adverse impact to the river and that 
those impacts cannot be mitigated.
    The NPS transmitted the 2010 Section 7(a) evaluation to the FHWA, 
stating that, ``While the NPS believes the mitigation measures are not 
sufficient to eliminate the direct and adverse effects of the Project 
on the Lower St. Croix National Scenic Riverway's designated scenic and 
recreational values, the NPS strongly supports their implementation if 
Congressional action is taken to allow the Project to move forward. The 
mitigation measures are essential to meet the requirements of Section 
4(f) of the DOT Act of 1966 and help the states of Minnesota and 
Wisconsin protect and enhance river values under Section 10(a) of the 
Act. ''
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions from members of the committee.

    Ms. O'Dell. S. 264 would direct the Secretary of the 
Interior to convey 67 acres of land from Natchez Trace Parkway 
to the State of Mississippi. This land was donated by the State 
to the National Park Service to help complete construction of 
the southern terminus of the parkway at Natchez, but it was not 
needed for that purpose.
    The bill would also adjust the parkway boundary to include 
10 acres already owned by the National Park Service around the 
southern terminus.
    The Department supports this legislation with an amendment 
to help protect against the possibility of future development 
that would be incompatible with the parkway.
    S. 265 would authorize the National Park Service to add 3 
separate battlefield sites to Vicksburg National Military 
Park--Champion Hill, Port Gibson and Raymond. These 3 sites 
would each make significant contributions to telling the story 
of the remarkable campaign that resulted in the Union Army's 
capture of the city of Vicksburg during the Civil War. All 3 
battlefields exhibit a very high degree of historic integrity, 
and are among the highest-ranked resources evaluated in the 
study the National Park Service conducted of the Vicksburg 
Campaign Trail.
    The Department supports this legislation.
    S. 324 would amend the Chesapeake and Ohio Canal 
Development Act to extend the authority of the Chesapeake and 
Ohio Canal National Historical Park Commission. The 
Commission's authority to operate terminated on January 8, 
2011. S. 324 would extend the authority to operate to January 
8, 2021. The Department supports S. 324.
    S. 864 would designate a Distinguished Flying Cross 
National Memorial at the March Field Air Museum in Riverside, 
California. The Department defers to the Department of Defense 
for a position on S. 864, since the purpose of the legislation 
is to further honor military personnel who have been awarded 
the Distinguished Flying Cross at a site not under the 
jurisdiction of the Department. This legislation explicitly 
states that this memorial is not a unit of the National Park 
Service.
    S. 883 would authorize the National Mall Liberty Fund DC. 
to establish a memorial on Federal land in the District of 
Columbia to recognize the contributions of African-Americans 
who served as soldiers and sailors, or provided civilian 
assistance during the American Revolutionary War.
    The Department supports S. 883 if amended to conform to the 
principles, process and requirements set forth in the 
Commemorative Works Act. While S. 883 states that the memorial 
shall be established in accordance with the act, the bill 
contravenes a critical requirement of the act by preauthorizing 
the memorial to be located within Area 1.
    In addition, S. 883 makes no provisions for the disposition 
of excess moneys raised to establish the memorial, or to hold 
in reserve the amount available should the authority to 
establish the memorial lapse. The Department recommends that 
the bill be amended to clarify the disposition of these funds.
    S. 970 amends the Wild and Scenic Rivers Act to designate 
approximately 9 miles of additional segments and tributaries of 
White Clay Creek in the State of Delaware and the Commonwealth 
of Pennsylvania as components of the National Wild and Scenic 
Rivers System.
    The Department supports enactment of S. 970, with only a 
technical correction to the map reference.
    S. 1063 would allow for the sustainable harvest of gull 
eggs by the Huna Tlingit people within Glacier Bay National 
Park. This legislation provides for the restoration of an 
important cultural connection to Glacier Bay, and provides for 
the environmentally preferred identified in a recent 
environmental impact statement.
    The Department supports enactment of S. 1063 with one 
amendment, which is provided in our written testimony.
    S. 1134 seeks to authorize the St. Croix River Crossing 
Project with appropriate mitigation measures. This bill would 
allow construction of a new bridge crossing if the mitigation 
items are included as enforceable conditions.
    The Department cannot support this legislation, as the 
National Park Service determined that the St. Croix River 
Project would have a direct and adverse impact to the river, 
and that certain of those impacts cannot be mitigated, as 
documented in its section 7(a) Wild and Scenic Rivers Act 
evaluation of October 15th, 2010.
    We are very concerned about the precedent that such 
legislation would establish. We feel strongly that any 
authorization or appropriations for this project should include 
the mitigation measures referenced above if congressional 
action is taken to allow the project to move forward.
    While we cannot support the legislation, we acknowledge the 
efforts of Senator Klobuchar and her staff to include the 
mitigation provisions and to preserve the original intent of 
the Wild and Scenic Rivers Act, which are concerns that we 
raised during a hearing on a similar bill in the House Natural 
Resources Subcommittee on National Parks, Forests, and Public 
Lands.
    Mr. Chairman, that concludes my statement. I'm available 
for any questions you all might have.
    Senator Udall. Thank you, Ms. O'Dell.
    Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Chairman Udall and Senator Franken, thank you 
for the opportunity to appear before you to provide the views 
of the Department on 3 bills being considered today.
    The Department supports S. 764, which would amend the Wild 
and Scenic Rivers Act to make technical corrections to the 
segment divisions for the Chetco River in Oregon. This bill 
would also add language to the act to provide for withdrawal of 
the land within the entire river boundary, subject to valid 
existing rights, from all forms of mineral entry.
    The Wild and Scenic River designation of the Chetco River 
protects its important anadromous fishery, water quality, and 
recreational values. The river also contributes exceptionally 
pure and clean water to the domestic water supplies for the 
communities of Brookings and Harbor, Oregon.
    The technical corrections in the bill would move the 
divisional Wild and Scenic River boundary to extend the wild 
segment 2 miles. The scenic segment of the river would be 
extended 1.5 miles. Both changes better reflect the respective 
river classifications, and there is no change in the overall 
mileage of the designated portion of the ChetcoRiver.
    The withdrawal proposed in this bill would, will help to 
further protect these watersheds. To provide time for Congress 
to consider and take action on legislation introduced in June 
2010, the Forest Service submitted a withdrawal request within 
the scenic and recreational segments of the Chetco River 
boundary for 5 years.
    The Department strongly supports S. 888, which would amend 
the Wild and Scenic Rivers Act to designate a segment of 
Illabot Creek in Skagit County, Washington as a component of 
the National Wild and Scenic Rivers System. It would add 14.3 
miles to the system in 2 segments, but would exclude the lower 
2 miles of Illabot Creek.
    The segment to be designated by this bill is a tributary of 
the Skagit River which was added to the National Wild and 
Scenic Rivers System in 1978. It is located on the Mt. Baker-
Snoqualmie National Forest approximately 100 miles northeast of 
Seattle, Washington, and flows from the glaciers of the North 
Cascades into the upper Skagit River, the largest tributary to 
Puget Sound.
    Illabot Creek provides exceptional spawning and rearing 
habitat for salmon, native steelhead, and one of the largest 
populations of bull trout in the Skagit River watershed. Puget 
Sound Chinook, steelhead and bull trout are listed under the 
Endangered Species Act.
    Illabot Creek also provides habitat for wintering bald 
eagles. Eagles using the Illabot roost are a part of one of the 
largest concentrations of wintering bald eagles in the 
continental United States.
    Because of Illabot Creek's outstandingly remarkable fish 
and wildlife values, I recommend the subcommittee consider 
designating all 16.3 miles of Illabot Creek, from its 
headwaters to its confluence with the Skagit River. With the 
designation of Illabot Creek as proposed in S. 888, only 0.6 
miles of the entire creek would not be afforded the protections 
of a Wild and Scenic Rivers corridor.
    The Department has no objection to the enactment of S. 925, 
which would direct the designation of an unnamed 12,240-foot 
peak located on the boundary between Ansel Adams Wilderness and 
Yosemite National Park as ``Mount Andrea Lawrence.'' Ms. 
Lawrence was a successful Olympic athlete and a committed 
public servant. She was a strong supporter of the work of the 
Inyo National Forest and Yosemite National Park. She worked 
tirelessly to protect the health and vitality of the 
environment and economies in the Eastern Sierra and the Sierra 
Nevada as a whole. Ms. Lawrence passed away at the age of 76 on 
March 31, 2009.
    The Department recognizes the contributions of Ms. Lawrence 
to both the United States and California, and concurs with the 
principles embodied in the legislation. However, we do note 
that the policy of the Board on Geographic Names requires that 
a person be deceased at least 5 years before a commemorative 
proposal will be considered.
    This concludes my remarks, and I would be pleased to answer 
any questions you have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
      System, Forest Service, Department of Agriculture, on S. 764
    Chairman Bingaman and members of the Subcommittee, thank you for 
the opportunity to provide the views of the Department of Agriculture 
on S. 764, the Chetco River Protection Act of 2011.
    S. 764 amends Sec. 3(a) (69) (A), (B), and (C) of the Wild and 
Scenic Rivers Act (the Act) to make technical corrections to the 
segment divisions for the Chetco River in Oregon. The bill would also 
add language to the Act to provide for withdrawal of the land within 
the entire river boundary (44.5 miles and all classifications), subject 
to valid existing rights, from all forms of appropriation or disposal 
under the public land laws; location, entry, and patent under the 
United States mining laws; and disposition under laws relating to 
mineral and geothermal leasing or mineral materials.
    We support the legislation. The Chetco River was added to the 
National Wild and Scenic Rivers System in 1988 to protect its important 
anadromous fishery, water quality, and recreational values. The Chetco 
River supports significant populations of anadromous winter steelhead, 
fall Chinook salmon, and sea-run cutthroat with resident cutthroat and 
rainbow trout abundant in its upper reaches. The River has striking 
water color and clarity, and ability to clear quickly following storm 
events. It also contributes exceptionally pure and clean water to the 
domestic water supplies for the communities of Brookings and Harbor, 
Oregon. The withdrawal proposed in this bill will help protect these 
regionally significant values.
    There are two technical corrections proposed in this bill. The 
first would move the divisional boundary to extend the wild segment of 
the river 2 miles. The second would move the divisional boundary to 
extend the scenic segment of the river 1.5 miles. Both changes better 
reflect the respective classifications. There is no change in the 
overall mileage of the designated portion of the Chetco River. These 
technical changes are consistent with the recommendation in the 
decision notice for the Rogue River-Siskiyou National Forest's 
comprehensive river management plan for the Chetco River which was 
signed in 1993.
    The wild segment of the Chetco River was withdrawn from mining and 
mineral leasing when the River was designated, as are all wild river 
classifications by the enabling legislation. To provide time for 
Congress to consider and take action on legislation introduced in June 
2010 (H.R. 5526 and S. 3488), the Forest Service submitted a withdrawal 
request to the U.S. Department of the Interior, Bureau of Land 
Management to withdraw the approximate 5,610 acres within the scenic 
and recreational segments of the Chetco River boundary for 5 years in 
order to protect this area from future mining claims. This withdrawal 
request is consistent with the lands described in (this bill) S.764. We 
expect the withdrawal request to be published in the Federal Register 
within the next two weeks. All withdrawals are subject to valid 
existing rights and validity exams will have to be conducted on any 
proposed mining activity
S. 888, TO AMEND THE WILD AND SCENIC RIVERS ACT TO DESIGNATE A SEGMENT 
        OF ILLABOT CREEK IN SKAGIT COUNTY, WASHINGTON, AS A COMPONENT 
        OF THE NATIONAL WILD AND SCENIC RIVERS SYSTEM
    The Wild and Scenic Rivers Act, Public Law 90-542 (16 U.S.C. 1271--
1287, as amended) protects the free-flowing condition, water quality, 
and outstandingly remarkable natural, cultural, and recreational values 
of some of our most precious rivers. It also provides an opportunity to 
build partnerships among landowners, river users, tribal nations, and 
all levels of government.
    S. 888 amends Sec. 3(a) of the Act to designate a segment of 
Illabot Creek in Skagit County, Washington, as a component of the 
National Wild and Scenic Rivers System. It adds 14.3 miles in two 
segments: 4.3 miles from the headwaters to the Glacier Peak Wilderness 
boundary classified as wild, and 10 miles from the Glacier Peak 
Wilderness boundary to approximately 1000 feet south of the Rockport-
Cascade road classified as recreational.
    We strongly support the legislation.
    The segment to be designated by S. 888 is a tributary of the Skagit 
River, which was added to the National Wild and Scenic Rivers System in 
1978. It is located on the Mt. Baker-Snoqualmie National Forest, 
approximately 100 miles northeast of Seattle, Washington and flows from 
the glaciers of the North Cascades into the upper Skagit River, the 
largest tributary to Puget Sound.
    Illabot Creek provides exceptional spawning and rearing habitat for 
summer and fall Chinook, coho, chum and pink salmon; native steelhead; 
and, one of the largest populations of bull trout in the Skagit River 
watershed. Puget Sound Chinook, steelhead and bull trout are listed 
under the Endangered Species Act. Illabot Creek also supports the 
highest density of chum and pink salmon in the Skagit River watershed 
and provides habitat for wintering bald eagles. Eagles using the 
Illabot roost are a part of one of the largest concentration of 
wintering bald eagles in the continental United States.
    Mr. Chairman, we recommend the Subcommittee consider designating 
all of Illabot Creek, from its headwaters to its confluence with the 
Skagit River (16.3 miles) as recommended in the Mt. Baker-Snoqualmie 
National Forest Plan (June 1990). This includes the lower 2 miles, 
classified as a recreational river, of which approximately 1.4 miles is 
in the Skagit Wild and Scenic River Corridor. With the designation of 
Illabot Creek as proposed in H.R. 1740, only 0.6 mile is not included 
in either Illabot Creek Wild and Scenic River or the existing Skagit 
Wild and Scenic River corridor. The lower 2 miles includes some of the 
most important fish spawning habitat and an important foraging and 
roosting area for wintering bald eagles. Much of this area is in the 
Skagit River Bald Eagle Natural Area and dedicated to resource 
protection.
S. 925 THE MOUNT ANDREA LAWRENCE DESIGNATION ACT OF 2011
    This legislation directs the designation of an unnamed 12,240 foot 
peak, located on the boundary between Ansel Adams Wilderness Area and 
Yosemite National Park approximately six tenths miles (0.6) northeast 
of Donahue Peak, as ``Mt. Andrea Lawrence.''
    The management of the proposed Mt. Andrea Lawrence is shared 
between the Inyo National Forest and Yosemite National Park. We have 
consulted with the U. S. Department of the Interior--National Park 
Service in the preparation of this statement.
    Ms. Lawrence was a successful Olympic athlete and a committed 
public servant, having served 16-years on the Mono County Board of 
Supervisors and founded the Andrea Lawrence Institute for Mountains and 
Rivers. She was a strong supporter of the work of the Inyo National 
Forest and Yosemite National Park. She worked tirelessly to protect the 
health and vitality of the environment and economies in the Eastern 
Sierra and the Sierra Nevada Region as a whole. Ms. Lawrence passed 
away at the age of 76 on March 31, 2009.
    The Department has no objection to the enactment of S. 925 and 
notes that it would have no adverse impact to the management of the 
Inyo National Forest, or the Ansel Adams Wilderness. However, the Board 
on Geographic Names was created by Congress in 1947 to establish and 
maintain uniform geographic name usage throughout the Federal 
Government. It is Board policy not to consider names that commemorate 
living persons. In addition, a person must be deceased at least 5-years 
before a commemorative proposal will be considered. In accordance with 
the Board's interpretation of Wilderness Act of 1964, the Board on 
Geographic Names discourages naming features in congressionally 
designated wilderness areas unless an overriding need can be 
demonstrated. Although the Administration does not have any objections 
to the enactment of S. 925, maintaining consistency with the 
longstanding policies of the Board on Geographic Names is recommended.
    The Department recognizes the contributions of Ms. Lawrence to both 
the United States and California, and concurs with the principles 
embodied in the legislation. Should the legislation be enacted, the 
Forest Service would work to ensure that our visitor information maps 
reflect the new designation, and understand that the National Park 
Service would do the same when their maps, signs, and other 
informational materials are replaced or updated.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.

    Senator Udall. Thank you, Mr. Holtrop.
    Let me turn to Ms. O'Dell. I have a suite of 3 questions 
I'd like to direct your way, and then I'll turn to Senator 
Franken.
    Let me start with the S. 1036, the collection of seagull 
eggs in Glacier Bay National Park. The bill authorizes the 
collection of gull eggs from within the park, notwithstanding 
any other provision of law--that's quote, unquote. As I read 
this language, it would waive the National Park Service Organic 
Act, the laws specific to the establishment of Glacier Bay, and 
several other applicable laws.
    Why do you believe such a broad waiver of park laws is 
necessary to allow for the limited collection of gull eggs?
    Ms. O'Dell. Those laws govern that we protect the natural 
resources of Glacier Bay National Park without impairment. The 
environmental impact statement that we did was a legislative 
environmental impact statement. The ROD suggested that we would 
need legislation to protect the status of all of those other 
laws, and to allow for the sustainable harvesting of eggs to 
take place.
    Senator Udall. Thank you for that clarification. I may want 
to submit an additional question or more for the record to that 
particular point.
    But, let me turn to the S. 1134, the St. Croix River 
bridge. The bill would authorize Federal agencies to assist in 
the construction of a bridge over the St. Croix River, 
notwithstanding section 7 of the Wild and Scenic Rivers Act. Do 
you know how many other times section 7 has been waived for 
other designated Wild and Scenic Rivers?
    Ms. O'Dell. The National Park Service does not have the 
authority to waive section 7 of the bill, so if anything had 
ever happened, it would have been due to congressional action.
    Senator Udall. But, you don't know how many times it has 
been----
    Ms. O'Dell. It hasn't----
    Senator Udall [continuing]. Waived?
    Ms. O'Dell [continuing]. Been, sir.
    Senator Udall. I think that's an important question. We'll 
work together to find the answer.
    Let me move to the second question tied to the bridge. 
There appears to be general consensus that a new bridge needs 
to be built. The question seems to be more about what type of 
bridge and how much it costs. Is legislation needed to move any 
new bridge forward, or just the bridge discussed in this 
proposal?
    Furthermore, is the Park Service opposed to any new bridge 
over the river, or just the specific bridge that has been 
proposed?
    Ms. O'Dell. Let me try to clarify what the National Park 
Service's role is in this project. It's our job to analyze any 
bridge proposal in this project, in this circumstance, and 
analyze whether or not it has direct and adverse impacts on the 
Wild and Scenic River. That's our sole role. So, any proposal 
for a bridge that comes to the National Park Service, we will 
do that analysis and present that finding. We have not been in 
a position, nor would we, under section 7(a), to compare any 
bridge proposal to another bridge proposal.
    Senator Udall. OK. That's an important clarification for 
this committee's understanding.
    Third question----
    Ms. O'Dell. Yes, sir.
    Senator Udall [continuing]. On the heels of your answer. I 
understand Senator Klobuchar's bill conditions the 
authorization for a new bridge on a requirement that a 
mitigation package be included as enforceable conditions. So, 
am I correct that the Park Service agrees that if a bridge is 
authorized, it's important that the mitigation be included in 
the legislation?
    Ms. O'Dell. Yes, sir. We believe that's true. We're very 
grateful to the Senator for including that provision in her 
bill. It protects the spirit of the Wild and Scenic Rivers Act 
if this proposal should go forward. I think that many people in 
the community and the country will appreciate that factor.
    Senator Udall. Thank you.
    Mr. Holtrop, I always enjoy asking you questions, but I 
have no questions for you today, so----
    [Laughter.]
    Senator Udall [continuing]. I'll get over that.
    Senator Franken.
    Senator Franken. First, I just want to say something about 
the Wild and Scenic Rivers Act. I'm sorry that the Ranking 
Member isn't here. We want to preserve this act, and we want to 
preserve the intent that Senators Mondale and Gaylord Nelson 
had, which is to preserve these beautiful, beautiful rivers. 
This is, will be the first bridge that has been built over one 
of these rivers. It's really the exception that proves the 
rule. I think that's important.
    I don't want this to be an invitation to override, 
wholesale overriding of the act, which has done its job for 43 
years. I just want to say that.
    Ms. O'Dell, in the National Park Service's most recent 
section 7(a) evaluation it explains that ``adverse impacts must 
be eliminated rather than partially offset'' for the Park 
Service to consent to the project. The Lower St. Croix was 
added to the National Wild and Scenic Rivers System in part 
because of its ``outstanding, remarkable scenic values.''
    Would it ever be possible to completely eliminate all 
adverse impacts of a new bridge on the scenic values of a 
river?
    Ms. O'Dell. That's a difficult question for me to answer 
without looking at a specific proposal.
    Senator Franken. OK. Let me move on. First of all, the 7(a) 
section of this bill calls for this process.
    Ms. O'Dell. Yes, sir.
    Senator Franken. Right? That Senator Klobuchar and the rest 
of us have, that this legislation is following. This is part of 
the 7(a) process. So, I wanted to make that clear.
    Ms. O'Dell, the National Park Service also oversees the 
National Register of Historic Places, which includes the 
Stillwater Lift Bridge. The Park Service has said it can't 
approve a bridge ``where there was not one previously.'' Are 
you aware of that?
    Ms. O'Dell. I am.
    Senator Franken. OK. The existing bridge cannot be 
replaced, because it is protected as an historic bridge.
    Given the protections of these different programs, it is 
the position of the National Park Service that no bridge--this 
is my understanding. I've talked to the National Park Service, 
in Minnesota, at least--that no new bridge could move forward 
in the Stillwater area without congressional action. It that 
your understanding?
    Ms. O'Dell. I don't know that we could say that today, sir. 
Our job, really, is solely to evaluate a specific proposal, and 
to provide an analysis of that impact----
    Senator Franken. OK.
    Ms. O'Dell [continuing]. Of that specific proposal.
    Senator Franken. I guess my, having looked into this, that, 
officially, that may be the case. But, basically, looking at 
all the different bridge plans, there, what I understood from 
the National Park Service in Minnesota was that no bridge would 
get a 7(a) exemption, or, a positive 7(a) ruling, but that the 
mitigation that we're putting in here will definitely help. 
Anyway, in, let's move on.
    In the Park Service's letter to the Federal Highway 
Administration announcing the results of the most recent 7(a) 
evaluation, it mentions the congressional process--which is 
what we're doing--for authorizing specific projects in 
accordance with a provision within the act itself. In fact, it 
states that the NPS, National Park Service, strongly supports 
the implementation of the mitigation package if congressional 
action is taken to allow the project to move forward. This bill 
explicitly includes that same mitigation package, right?
    Ms. O'Dell. Yes, sir.
    Senator Franken. If Congress is going to move forward with 
authorizing this project, does the Park Service have any 
concerns that this bill does not address?
    Ms. O'Dell. Not that I am aware of, sir.
    Senator Franken. OK. OK. So, what I--and, having done a lot 
of research on this--is that we are, this act makes certain 
that nothing will disturb the nature of a wild and scenic 
river. We have this unique situation. The, a bridge can't be 
built that's not in the footprint of the current bridge. We 
can't get rid of the current bridge because of the historic 
nature of it. So, we're going to--and this bridge that we're 
talking about right now has mitigation that you favor, that 
doesn't qualify the 7(a) under the technical parts of whether 
it doesn't disturb the nature of the river, but which, under 
7(a), the legislation as crafted does satisfy 7(a), and does 
allow for the building of this bridge.
    Ms. O'Dell. The mitigation measures that the Park Service 
and Federal Highways agreed to do not mitigate the direct and 
adverse impacts of the building of a new bridge. However, they 
do support the spirit of the Wild and Scenic Rivers Act.
    Senator Franken. Great. I thank you very much.
    Ms. O'Dell. Thank you, Senator.
    Senator Udall. Thank you, Senator Franken.
    I have no further questions.
    I want to thank you for taking the time to come to the 
Senate side of Capitol Hill.
    We will keep the record open, which, of course, I will 
announce at the end of the hearing, and you may have additional 
questions directed your way.
    Thanks again for your service. Thank you.
    As Mr. Holtrop and Ms. O'Dell leave, I'd ask the 3 
witnesses for the--would the witnesses, Ms. O'Dell and Mr. 
Holtrop, would the witnesses, actually, be willing to stay for 
a few more minutes? I think Senator Coons is here. Evidently he 
has a question or 2.
    If Ms. O'Dell would stay.
    Mr. Holtrop, we will excuse you. It's your luck day.
    [Laughter.]
    Senator Udall. So, yes. So, yes. Ms. O'Dell, it's, your 
number came up. We'd like you to rejoin us at the--That was, 
I'm indebted to you. I'll see if I can make it up to you at 
some point, if you----
    Senator Coons is recognized when he's ready.

   STATEMENT OF HON. CHRISTOPHER A. COONS, U.S. SENATOR FROM 
                            DELAWARE

    Senator Coons. Thank you very much, Senator Udall. Thank 
you for convening this hearing.
    My congratulations to Senator Paul on joining you as the 
ranking minority.
    I simply wanted to speak for a few moments, if I could, Ms. 
O'Dell about, I believe it's S. 970, to designate some 
additional segments and tributaries of the White Clay Creek and 
include them in the National Wild and Scenic Rivers System, as 
someone who grew up in the area of that rivering system, and 
has hiked and fished it since childhood.
    I was just recommending to you, its consideration is 
something that my predecessor, Senator Kaufman, worked very 
hard on, that has enjoyed the support of Congressman Pitts of 
Pennsylvania, Congressman Carney of Delaware.
    The reason these 2 sections were held out of the original 
designation was because they were being considered by both a 
Pennsylvania and Delaware local government as a future water 
storage site. I was actively involved in my previous role as 
County Executive in some of those discussions. They've both 
since been removed from consideration for water storage because 
other options have been pursued.
    So, I just wanted to say that this bill, which passed 
favorably from this committee in the last congress, I think, is 
worthy of consideration. My sense was that it had no cost. I 
wanted to make sure that that is accurate before urging my 
colleagues to support this common-sense, no-cost, modest scope 
expansion to the Wild and Scenic Rivers Act.
    Ms. O'Dell.
    Ms. O'Dell. Yes, sir. That's true. We believe there is no 
additional cost to including these 9 extra miles in this system 
that's already about 190 miles wide.
    Senator Coons. Hopefully, this common-sense, no-cost 
bipartisan amendment will pass----
    [Laughter.]
    Senator Coons [continuing]. Without any huge controversy. 
But, given where we are in the Congress these days, I thought 
it none-the-less worthwhile to compel you to say that it has no 
cost.
    Ms. O'Dell. I'm happy I could say that for you, sir.
    [Laughter.]
    Senator Coons. Thank you very much. I appreciate the 
opportunity to----
    Senator Franken. Can I ask one question? How much does it 
cost?
    [Laughter.]
    Ms. O'Dell. I would have to get back to you on that, 
Senator.
    [Laughter.]
    Senator Udall. Thank you, Senator Coons, and Senator 
Franken.
    Senator Coons makes an important point.
    Ms. O'Dell, I know he and I both look forward to the day 
when we call you back to the committee to discuss further a 
proposal to create a national park in the 1 State that doesn't 
have a national park, which is the great State of Delaware--the 
first State. I know Senator Coons feels strongly about this. 
We're going to continue to work together to make this a reality 
for the people of Delaware, and the people of the United 
States.
    Senator Coons. Thank you, Senator Udall. We have a very 
solid plan that Senator Carper has advocated for tirelessly. 
I'm grateful for your support. We look forward to the detailed 
consideration of how we can keep the cost to a bare minimum for 
the last State without a national park. Thanks, Senator.
    Ms. O'Dell. We look forward to working with you to get us 
across that finish line, sir.
    Senator Udall. There's a lot of looking forward. Thank you, 
Ms. O'Dell, again, and thank you for returning to the witness 
table. That was, I think, relatively painless. I think we would 
all look forward to adding some acreage to the Wild and Scenic 
River System in Delaware. I think it's important to note that 
we have Pennsylvania's support as well.
    Ms. O'Dell. Correct. We do.
    Senator Udall. We do. So, thank you again, and----
    Ms. O'Dell. Thank you, Senator.
    Senator Udall [continuing]. We can move to the next panel.
    If the next panel would join us, we look forward to your 
testimony.
    We've been joined by, it's Mayor Harycki, Mr. Tomten, Mr. 
Hession.
    Thank you all for being here. We look forward to your 
testimony.
    Let me start with Mayor Harycki, and we'll move from my 
right to my left. We would love to hear from each of you, and 
if you can work within a 5-minute timeframe, that would be 
excellent, and then we will direct some questions your way as 
necessary.
    So, again, thank you. Thanks for making the long trip to 
our Nation's capital. I just drove across country a few weeks 
ago with my daughter, who's at the University of Virginia, and 
we bonded in a 36-hour non-stop drive back here. So, I know the 
time it takes to get here, but it's great to have you here. I 
know this speaks to the importance of this issue.
    Mr. Harycki. We had 7 people bonding.
    Senator Udall. The floor is yours.

               STATEMENT OF KEN HARYCKI, MAYOR, 
                     CITY OF STILLWATER, MN

    Mayor Harycki. Thank you.
    Chairman Udall, Ranking Member Paul, members of the 
committee. I'm Mayor Ken Harycki, co-chairman of the Crossing 
Coalition.
    I'm here today because only Congress can untangle this 
catch-22 that Federal law has created and has stopped the long 
overdue bridge from being built.
    First a little background. Downtown Stillwater's protected 
by the National Historic Register. The counties on both sides 
of the river are part of the Twin Cities' 3 million population 
metro area. The current lift bridge was built in 1931. By the 
1960s it was apparent that demand was exceeding the design. It 
is also on the Historic Register. Now, unfortunately, it is 
dangerously outdated.
    The lift bridge has a capacity of 11,000 cars per day, but 
currently it's overburdened by an average of 18,000 vehicles. 
In the summer it can jump to 25,000, all coming through 
downtown.
    The roadway has an accident rate nearly twice the State 
average, and flooding and maintenance force the old bridge to 
close on a regular basis. This is a functionally obsolete, 
fractured critical bridge. A structural failure would result in 
collapse. The bridge's efficiency rating of 33 is lower than 
that of the 35W bridge before it collapsed in 2007, killing 13 
and injuring 144.
    It's been difficult to find a plan that's consistent with 
the 3 important Federal--and sometimes conflicting--Federal 
laws. We believe the river is an important natural resource 
protected by the Wild and Scenic Rivers Act. We want to 
continue to protect the river and to protect the historic 
sites. But we also need a safe crossing.
    Our project was developed through a ground-breaking 
environmental mediation process led by the Udall Institute. If 
I may, perhaps it's not an accident that this committee is 
being shared by Senator Udall.
    In order to make sure that all ideas were considered, the 
Udall Institute brought together 27 stakeholder groups. Staff 
by a team of professionals, the group met for 3 years. It's 
valuable to note that the National Park Service was an 
important part of this process. This diverse group considered 
numerous ideas and locations for a new crossing. We even looked 
at tunneling.
    The stakeholders needed to protect the river and to respect 
the history of the region, all while making sure the natural 
area has a transportation facility that's capable of meeting 
current and future needs. The result was a package that 
balances the 3 Federal laws. All but one of the groups involved 
supported the plan, and we received a Record of Decision.
    Our vision is for more than a bridge. We'll be making 
significant park improvements and environmental remediation. 
The project will preserve the historic bridge, converting it to 
a key element of a bike and pedestrian trail, giving people new 
and exciting ways to enjoy the river valley and the national 
park.
    Among other environmental improvements, the new bridge will 
reduce phosphorous pollution by 20 percent. Finally, note the 
bridge location. We think it's better to building the new 
crossing within the industrial part of the river, next to a 
power plant, a sewage plant, and a marina. This portion of the 
river is surely not scenic and not wild. It is the correct 
location for the bridge.
    Now, after the latest lawsuit, the Park Service has 
determined that the Wild and Scenic Rivers Act does not allow 
them to grant permit for any new construction. This is an 
important part--point. The NPS has not just blocked this 
bridge. It has rejected any new construction in a Wild and 
Scenic Riverway. Only Congress has the authority to grant an 
exemption.
    This leads me to address the so-called Sensible Bridge plan 
that has been reintroduced. This plan is a modified version of 
a plan studied and rejected by the community stakeholder group. 
The plan is neither sensible, nor realistic. In fact, it's 
unbuildable.
    It proposes a 3-lane weight-restricted, diagonal, visually 
dominating bridge directly in front of the Stillwater historic 
district, obliterating the scenic values of the Wild and Scenic 
St. Croix. It will be functionally obsolete upon opening.
    Besides its ascetic fatal flaws, it has dramatic negative 
and disqualifying environmental and historic property impacts. 
The cost of this plan is irresponsibly presented as a fact, but 
unlike the Udall community-endorsed plan, it has not been 
subject to analysis by bridge engineers. Governor Dayton said 
it best earlier this year: Proposing a new plan at this stage 
is just, quote, disingenuous.
    Returning now to a conceptual design stage would delay the 
project for a decade or longer. The longer we wait, the more 
expensive the solution will be, and the greater risk that 
something tragic could happen. Living in Minnesota after the 
35W bridge collapse, we're especially sensitive about our 
bridges. We're especially pleased to say that this support has 
bridged political divides. The Governors of both Minnesota and 
Wisconsin, both representatives to Congress and your Senate 
colleagues and our author, Senator Klobuchar, was joined by 
Senators Frank and Kohl, and Johnson.
    We believe that the support we have created--we believe, 
with that support, we have a project and legislation that works 
within the procedural confines of the Wild and Scenic Rivers 
Act in a limited way. It's now up to you to help us untangle 
this catch-22 that Federal law created, and help us move 
forward.
    I thank you for your time.
    [The prepared statement of Mayor Harycki follows:]
    Prepared Statement of Ken Harycki, Mayor, City of Stillwater, MN
    Chairman Udall, ranking member Paul, and members of the committee.
    My name is Ken Harycki. I am the Mayor of Stillwater, Minnesota, 
and also co-chairman of the Coalition for the St. Croix River Crossing, 
a two-state regional community organization that has been formed to 
advocate for the new bridge project.
    My hometown is a beautiful and historic city located on the St. 
Croix River, which creates the border between Minnesota and Wisconsin. 
It is acknowledged as the birthplace of Minnesota and our downtown is 
protected by the National Register of Historic Places. The counties on 
both sides of the river are part of the Minneapolis-St. Paul 
metropolitan area, with a population of 3.2 million.
    Since even before 1848, when Wisconsin was admitted by Congress 
into the Union, communities on both sides of the river have been 
connected by a river crossing at Stillwater. In 1931, 80 years ago, a 
lift bridge was built across the river as our communities grew. This 
bridge, still in operation, is also on the National Register of 
Historic Places.
    Through the 1940's and 50's the bridge was able to handle the 
demands of people who needed to cross between our communities, but in 
the 1960's it became apparent that demand was exceeding this design.
    Now, in 2011 our bridge is dangerously outdated.
    The lift bridge was designed to handle a capacity of 11,200 cars 
per day, but today it is overburdened by an average of 18,400 vehicles 
daily. In the summer, traffic can jump to over 25,000 cars a day, all 
of it funneling through the narrow main street and 90 degree turns of 
our historic downtown.
    The road that leads up to the bridge has a traffic accident rate 
that is nearly twice the state average for comparable roadways.
    Cars idle for hours on both sides waiting to cross the bridge, 
creating pollution and making it challenging for residents and visitors 
to navigate Stillwater's historic downtown.
    Too many years and too much traffic have taken a toll on the 
bridge. Flooding and maintenance force the bridge to close on a regular 
basis, sending tens of thousands of cars and trucks elsewhere.
    This is a functionally-obsolete, fracture-critical bridge. A 
structural failure would result in collapse. The bridge's sufficiency 
rating of 33 is lower than that of the I-35W Bridge before it collapsed 
in 2007, killing 13 people and injuring 144.
    As you can see from the handout that we've provided to the 
committee, it has been difficult to find the right plan that is 
consistent with three important federal laws.

  <bullet> Section 7 of the Wild and Scenic Rivers Act;
  <bullet> Section 4 of the Transportation Act of 1996; and
  <bullet> Section 106 of the National Historic Preservation Act.

    In particular, the St. Croix River is an important natural resource 
that is recognized and protected by the Wild and Scenic Rivers Act. 
Area residents support this designation and want to continue to protect 
the river from over-development. We support protecting historic sites 
throughout the region. But we still need a safe, reliable crossing.
    The project that we are asking the Congress to permit to go forward 
was developed through an unprecedented environmental mediation process 
that was administered by the Udall Institute for Environmental Conflict 
Resolution.
    To make sure every possible idea for a new bridge was considered, 
the Udall Institute brought together 27 different stakeholder 
organizations. They are listed in your materials, and also on the 
poster board behind us. The group met in Stillwater City Hall at least 
monthly for three years.
    The Stakeholder Group, staffed by a team of engineering, 
environmental and design professionals, worked together to study a 
multitude of options, designs and features. These organizations 
represented the community, state and federal regulatory agencies, 
environmental organizations, historic preservation interests, economic 
development interests, and local governments from both sides of the 
river.
    The National Park Service was a very important part of this 
exhaustive planning process.
    This diverse group looked at every possible idea and location for a 
new crossing. We even looked at tunneling under the river. Your handout 
includes a map of the dozen or so routes that were reviewed as part of 
the Stakeholder process.
    The Stakeholders considered ways to protect the river, to make this 
national resource more accessible to people, and respect the history of 
Stillwater and the region--all while making sure the metro area has a 
transportation facility that is capable of meeting current and future 
needs.
    The result was a plan that balances the three laws. All but one of 
the groups involved supported the plan. We received a Record of 
Decision (the second we had received) that validated the work we did 
and the final result.
    Our plan and the community's vision are for more than just a new 
bridge. We'll be using federal and state highway funds to make 
significant park improvements and environmental remediations as part of 
the project.
    The project will preserve the historic bridge by converting it into 
the key element of a new bicycle and pedestrian loop trail along and 
above the river, giving people a new and exciting way to access and 
enjoy the river valley and this national park.
    Bluff lands on both sides of the river where the present-day 
roadway is located will be restored.
    The pilings and the riverfront for the old coal barge terminal in 
front of the power plant will be removed.
    The new bridge will also decrease the amount of phosphorous 
pollution entering the river by 20 percent--the number one goal of the 
St. Croix River Basin Team. The new crossing will also reduce the 
dangerous levels of traffic and automotive pollution from our small, 
historic downtown area.
    And finally, the bridge design and location. As you can see from 
our posters, the bridge is gorgeous. It's a low profile cable stay 
design that has been built in only two other locations in North 
America. The Stakeholders wanted a ``signature bridge'' that is worthy 
of the St. Croix Valley. We believe it will become as iconic as the 
Lift Bridge.
    Also, note the location. We think it's appropriate to build the new 
crossing within the industrial part of the riverway, next to a power 
plant, a sewage treatment plant and a marina. This portion of the river 
is assuredly not wild, and not historic like downtown Stillwater. It is 
the correct location for the crossing.
    Now, after the latest lawsuit the National Park Service has 
determined that the Wild and Scenic Rivers Act does not allow them to 
grant a permit for any new construction in a designated riverway. This 
is an important point: the NPS has not just blocked this bridge; it has 
rejected any new construction in a Wild and Scenic Riverway. Only 
Congress has the authority to grant an exemption, as spelled out in the 
Wild and Scenic Rivers Act.
    This leads me to address the so-called ``sensible bridge'' plan 
that has been recently reintroduced. This plan is a modified version of 
a plan that was studied and rejected by the Community Stakeholder 
group, described as alternative D in the 2006 Supplemental 
Environmental Impact Statement.
    This plan is neither sensible nor even realistic. It would build a 
diagonal, visually dominating and intrusive bridge directly in front of 
the Stillwater historic district, obliterating the scenic values of the 
Wild and Scenic St. Croix River. To top it off it will be functionally 
obsolete upon opening.
    It proposes a three-lane weight-restricted bridge with no 
connecting road improvements. It will not be able to carry the current 
traffic at opening, much less the traffic projected for the coming 
decades.
    Besides its aesthetic fatal flaws it has dramatically negative and 
disqualifying environmental and historic property impacts. Alternative 
D was shown to destroy 9 acres of park property, carve out at least 20 
times the cubic yardage of bluffs, 760,000 cubic yards, and require 
over 4,000 feet of retaining wall, 2000 feet at 25 ft high.
    The cost of this plan is irresponsibly presented as fact, but 
unlike the Udall/community endorsed plan, it has not been subjected to 
analysis by bridge engineers. When studied as Alternative D in the SEIS 
it came in at only about 10% less then the chosen alternative.
    Gov. Dayton said earlier this year that proposing a new plan at 
this stage is just, quote, ``disingenuous.'' Returning now to the 
conceptual design stage would delay this project for conceivably 
another decade and maybe longer. And the longer we wait, the more 
expensive the solution will get and the greater the risk that something 
tragic could happen. Living in Minnesota, after the I35W bridge 
collapse, we are especially sensitive about our bridges.
    While support for the project is not universal, as with all large 
public projects, there is strikingly broad and deep public support for 
this new bridge. That support is reflected by the majority of elected 
local and state officials.
    And we are especially pleased to say that throughout the decades 
this support has bridged political divides. Now is no different, with 
the Governors in Minnesota and Wisconsin, both representatives to 
Congress, and your Senate colleagues; our author, Senator Klobuchar, 
who is joined by Senator Franken, Senator Kohl and Senator Johnson.
    I assure you that the people who live and work in the St. Croix 
River Valley have done everything possible to create the best plan for 
the entire region. We care deeply about the river that unites our 
communities.
    Together, with the help of federal and state officials, we have 
created a project that

  <bullet> Meets current and future traffic demands
  <bullet> Protects the historic lift bridge and historic sites 
        throughout the region.
  <bullet> Respects the river and its scenic beauty
  <bullet> And works within the procedural confines of the Wild and 
        Scenic Rivers Act in a limited and project-specific way.

    It's now up to you to take action and help us resolve this matter. 
I thank you for your time and again ask for your help and support.

    Senator Udall. Thank you, Mayor Harycki.
    We've been joined by Roger Tomten.
    I hope I've pronounced your name at least close to 
properly. We want to welcome you. You're a resident and a 
business owner in Stillwater, Minnesota, and we're pleased your 
here. We're eager to hear your testimony. The floor is yours.

  STATEMENT OF ROGER L. TOMTEN, RESIDENT AND BUSINESS OWNER, 
                         STILLWATER, MN

    Mr. Tomten. TThank you, Mr. Chairman.
    Thank you, Senator Franken, and members of the 
subcommittee.
    For the record, I am Roger Tomten. I'm a 21-year-old 
resident and business owner in Stillwater, Minnesota.
    I appreciate the opportunity to testify on behalf of a 
growing number of Stillwater and Minnesota residents who 
support a new bridge across the St. Croix River between 
Minnesota and Wisconsin, but not the enormous freeway-style 
bridge prescribed in S. 1134.
    Candidly, I am humbled they are supporting a bridge design 
that I and 2 other St. Croix Valley architects have proposed. 
Our design was presented for the first time just 2 weeks ago, 
and its sensible size, scale and cost are resonating with 
fiscal conservatives and environmental advocates alike, and 
among Stillwater residents, too.
    Mr. Chairman, the National Park Service has approved 
construction projects in Wild and Scenic Riverways. But the so-
called extradosed bridge recommended by this bill has rightly 
been deemed incompatible with the Wild and Scenic St. Croix 
River. This bill, put simply, neuters the 40-year protections 
embodied in the Wild and Scenic Rivers Act. Vice President 
Mondale, one of the act's original authors, shares a similar 
assessment in his submitted testimony.
    The mayor and other say they will build this bridge 
alongside a coal-fired power plant. They fail to state the fact 
that this power plant was the very reason for the Wild and 
Scenic Rivers Act. No laws existed to stop this intrusion on 
the beautiful St. Croix River, and Senators Mondale and Gaylord 
Nelson wanted to be sure such an intrusion would never, ever 
happen again. Congress agreed.
    The bridge prescribed in this bill is such an intrusion. It 
is enormous--160 feet from river to deck, 60-foot towers above 
the deck, 4 lanes, and travel speeds of 65 miles an hour. It 
will cost nearly $700 million--nearly $700 million when 
Congress is fiercely debating how to curtail our Nation's 
spending, and coming just weeks after Minnesota's State 
Government ended the 20-day shutdown over a $5 billion State 
budget deficit.
    This bill effectively would green-light construction on the 
most expensive bridge in Minnesota history, costing more than 2 
and a half times the I-35 bridge that collapsed in 2007; yet, 
it would carry a fraction of the traffic. Advocates of this 
boondoggle give little regard to Minnesota's crumbling 
infrastructure. Our dwindling finances are struggling to repair 
the estimated 1,170 bridges deemed structurally deficient. We 
have 13 rural counties, where 15 to 25 percent of the bridges 
are structurally deficient.
    With all due respect to the Mayor, he and other proponents 
of S. 1134 say that every possible idea was studied in the 
mediation process held from 2003 to 2006. I participated in 
that mediation process, and I can assure you, only high-speed, 
freeway-style solutions were analyzed. Slower 40-mile-an-hour 
designs were not studied. Smaller scale bridges were not 
studied. These are the cornerstones of the Sensible Stillwater 
Bridge design that we propose.
    The historic lift bridge built in 1931 has been good for 
the city of Stillwater. Over the years, the bridge has become 
the symbol of the city--an icon, bringing thousands of National 
Park visitors into our community. There is no reason the 
Sensible Stillwater Bridge couldn't become another icon for the 
city of Stillwater.
    The prospect of cars bypassing downtown a mile down river 
on a new freeway-style bridge is a scary one. We think it will 
permanently alter the economic vitality of our historic 
commercial core, to say nothing of the beauty and character of 
the St. Croix River.
    The thought of foregoing the protections of the Wild and 
Scenic Rivers Act to benefit roughly 9,000 daily commuters is 
wrong; and to move this boondoggle bridge forward when our 
Nation is locked in a debate over spending, and Minnesota is 
coping with the effects of closing a $5 billion budget deficit 
makes no sense.
    My community of Stillwater needs a new bridge to replace 
the historic lift bridge. But the bridge prescribed in this 
bill is not the answer. It is too much bridge, at too high a 
price, for my State, for my community, and for the St. Croix 
Wild and Scenic Riverway.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Tomten follows:]
  Prepared Statement of Roger L. Tomten, Resident and Business Owner, 
                             Stillwater, MN
    Mr. Chairman, Ranking Member Paul, and members of the Subcommittee, 
for the record I am Roger Tomten, a resident and business owner in 
Stillwater, Minnesota. I appreciate the opportunity to testify on 
behalf of a growing number of Stillwater and Minnesota residents who 
support a new bridge across the St. Croix River between Minnesota and 
Wisconsin, but NOT the freeway style bridge prescribed in S. 1134.
    Mr. Chairman, I understand that the bill you see here has 
cosponsors from both states and both parties and appears to have 
widespread support, but there is great controversy over this bill's 
recommended bridge design that reaches beyond Minnesota and Wisconsin. 
The bridge in this bill will forever change the character of 
Stillwater, Minnesota and the St. Croix National Scenic Riverway, the 
national park it is neighbor to. Just as troubling is the bill's 
methodology--the unprecedented exemption for a transportation project 
of this size and scale--opens the door for other incompatible 
development projects over America's Wild and Scenic Rivers. This bill 
put simply, neuters the 40-year protections embodied in the Wild and 
Scenic Rivers Act.
    The bridge prescribed in this bill will cost nearly $700 million at 
a time when Congress is fiercely debating our nation's spending and 
less than two weeks after the government of Minnesota resolved a 
lengthy shutdown over a five billion dollar state budget deficit. It 
would be the most expensive bridge in Minnesota history, costing more 
than two and a half times the $265 million I-35 bridge that collapsed 
in 2007. Yet it would carry less than 30 percent of the traffic the I-
35 bridge carries.
    While advocates of this Bridge over the St. Croix lobby Congress 
and Minnesota officials to green light the $690 million project, the 
state's bridge repair fund is struggling to repair or replace the 
estimated 1,170 bridges deemed structurally deficient. No doubt 
Minnesota's infrastructure crisis exemplifies our nation's 
infrastructure crisis.
    The bridge prescribed in this bill is a 65-mile an hour, four-lane, 
freeway style bridge that was designed when the price of gasoline was 
less than two dollars a gallon. The enormous scale of this bridge was 
based on mid 1990s growth projections for new housing development--
primarily in Wisconsin. That growth has slowed to a crawl, as it has 
throughout the country. And now the freeway bridge called for in S. 
1134 would carry about 9,000 commuters daily, when there is already an 
eight-lane interstate bridge located just seven miles south.
    The historic lift bridge, built in 1931, has been good for the city 
of Stillwater, but it is in need of repair as it simply cannot handle 
the traffic today. Over the years the bridge has become the symbol of 
the city, bringing thousands of national park visitors into the town. 
These visitors have significantly boosted the economy in our small 
downtown area. The way the bridge prescribed in this bill is designed--
going from blufftop to blufftop, about a mile south of our downtown 
core--it will be very difficult for travelers to find their way into a 
downtown Stillwater business. Instead, cars will go whizzing past 
downtown on a new freeway-style bridge and permanently altering the 
economic vitality of our historic commercial core.
    There is an alternative, more sensible bridge design that is 
gaining growing support among Stillwater and Minnesota residents, with 
national park supporters, and transportation and taxpayer advocates who 
see it as a pragmatic and sensible option to the Boondoggle of a Bridge 
in this legislation. Our Sensible Stillwater bridge would cost less 
than $300 million, be more respectful of the St. Croix River it graces, 
and continue to bring scores of visitors to downtown Stillwater, while 
managing traffic flow and easing congestion for commuters. Construction 
of this bridge could be completed in the same timeframe as the big 
freeway-style bridge. Speeds on the Sensible Stillwater bridge would be 
limited to 40 miles per hour, reducing noise and vibration in the river 
valley, so that the valley will retain the serene character that it is 
known for.
    The Lower St. Croix River, where the city of Stillwater is located, 
has been protected as part of the St. Croix National Scenic Riverway in 
the National Park System since 1972. Congress voted to protect the 
Lower St. Croix after Northern States Power built a coal-burning power 
plant on the river's edge. Industrialization along the St. Croix south 
of Stillwater had to stop. And Congress stopped it with the Wild and 
Scenic designation.
    I understand that proponents of the mega-bridge point to the coal-
fired plant as justification for their bluff-top to bluff-top bridge. 
Such an explanation completely defies the primary reason why the St. 
Croix became a federally protected river--To prevent more eyesores like 
the King Power Plant that scar the inherent beauty of the St. Croix.
    Action by environmental visionaries like Walter Mondale and Gaylord 
Nelson prevented any additional industrialization. And the 
unsightliness and noise and pollution that came along with it. The Wild 
and Scenic River Act protected the St Croix River Valley for boating, 
canoeing, fishing, hiking, birdwatching. And just simply enjoying the 
scenery and solitude. And for nearly 40 years, those protections have 
held firm.
    Proponents of S.1134 indicate that all alternatives were studied in 
the mediation process held from 2003-2006. As a stakeholder in that 
mediation process, I can assure you, this was not the case. Only high-
speed freeway-style solutions were analyzed. Our Sensible Stillwater 
Bridge proposal establishes a slower design speed, builds a smaller 
bridge lower to the water, eliminates the commuter traffic from 
downtown Stillwater and meets the traffic needs of the area all for 
less than half the price. This is backed up by fact that several other 
members of the mediation process, the St. Croix River Association and 
the Minnesota Center for Environmental Advocacy have dropped their 
support for the bridge proposed in S.1134, and now support our Sensible 
Stillwater Bridge.
    The bridge prescribed in S.1134 headlined a feature story on out-
of-control spending in the July 19, 2011 front page section of the New 
York Times: ``. . .local officials and members of Congress have pushed 
for a new four-lane bridge over the St. Croix River that was co-
sponsored by Representatives Michele Bachmann and Sean Duffy. . 
.Opponents labeled the bridge an earmark, but they defend the spending 
by arguing that it was not an earmark. The legislation calls only for a 
bridge to be built.''
    The thought of forgoing the protection of the Wild and Scenic River 
Act to benefit roughly 9,000 daily commuters is wrong. And to move this 
mega-bridge plan forward when our nation is locked in debate over 
spending and the state of Minnesota is coping with a $5 billion budget 
deficit makes no sense. The community of Stillwater needs a new bridge 
to replace the historic lift bridge, but not the one prescribed in this 
bill.
    It is too much bridge at too high a cost for my state and my 
community.

    Senator Udall. Thank you, Mr. Tomten.
    Let me turn to Mr. Hession, who's here to testify on S. 
1063, as I understand it.

STATEMENT OF JACK HESSION, MEMBER, EXECUTIVE COMMITTEE, ALASKA 
                      CHAPTER, SIERRA CLUB

    Mr. Hession. Yes, sir. Thank you, Mr. Chairman, and Senator 
Franken, for inviting me to present the views of the Sierra 
Club here this afternoon.
    My name is Jack Hession. I'm a member of the Executive 
Committee of the Alaska Chapter of the Sierra Club, and I am 
familiar with all of the areas within the scope of this bill.
    While we support traditional HunaTlingit gull egg 
gathering, we oppose S. 1068 because it would open Glacier Bay 
National Park to this subsistence practice.
    The park is a world-famous wildlife sanctuary--one of 4 
national parks in Alaska closed to consumption of wildlife, 
including to subsistence. It's almost entirely a wilderness 
national park, and it even has 5 saltwater wilderness areas. 
It's also an internationally significant natural area and 
wildlife sanctuary. It's a World Heritage Site, and part of an 
international biosphere reserve with Wrangell-St. Elias 
National Park and 2 adjacent Canadian Parks--Kluane National 
Park and Tatshenshini-Alsek Provincial Park.
    According to the National Park Service in its LEIS that the 
committee has before it, the collection of glaucous-winged gull 
eggs by members of the HunaTlingit tribe would reduce the 
number of fledglings of these gulls by an estimated 22 percent. 
There is also a potential adverse spillover effect of the bill 
if it is approved: If Glacier Bay is open to egg collecting, 
Alaska native corporations and village corporations living near 
Katmai, Denali and Kenai Fjords National Parks--these are the 3 
other sanctuaries in the system in Alaska--might ask this 
subcommittee for the same privilege.
    As an alternative to this bill, we suggest that the 
subcommittee encourage the HunaTlingit to gather gull eggs at a 
half dozen of the tribe's traditional bird egg collecting sites 
located just outside the park. Attached to my statement is a 
list of these traditional sites, documented at a National Park 
Service study of traditional HunaTlingit bird egg collecting 
within the tribe's traditional territory.
    Use of these non-park sites by the HunaTlingit would 
preserve a valuable cultural resource--a goal the Sierra Club 
fully supports--and, at the same time, maintain the integrity 
of the park.
    In other words, Mr. Chairman, and in conclusion, this bill 
is not necessary.
    Thank you.
    [The prepared statement of Mr. Hession follows:]
Prepared Statement of Jack Hession, Member, Executive Committee, Alaska 
                    Chapter, Sierra Club, on S. 1063
    Sierra Club is a national environmental organization with chapters 
in every state. Achieving maximum protection and proper management of 
the national parks, including Glacier Bay National Park and Preserve 
(Glacier Bay), has long been a high priority for our organization.
    For example, during Congress's consideration of the Mining in the 
Parks Act of 1976, we urged members of Congress to include Glacier Bay 
National Monument (now a national park and preserve or NPP) and the 
former Mt. McKinley National Park (now Denali NPP) in the list of 
national park system units to be closed to new mining claims. In a 
strong show of support for these two magnificent units, Congress 
rebuffed the mining industry's attempt to keep them open to new claims.
    Our primary legislative goal during the 1970's was passage of the 
Alaska National Interest Lands Conservation Act of 1980, the single 
largest public land conservation act in the history of this nation. 
Among its other accomplishments, the Act expanded and re-designated the 
former Glacier Bay National Monument as a national park/preserve, and 
gave wilderness system status to almost the entire terrestrial portion 
and five saltwater areas, the latter unique in the Alaska system.
    During the 1990's Congress, at the urging of the Sierra Club and 
other environmental organizations, blocked attempts by the Alaska 
congressional delegation and the State of Alaska to open the park to 
subsistence practices by local rural residents.
S. 1063
    The Sierra Club strongly opposes S.1063 because it would open 
Glacier Bay National Park to the consumptive use of a wildlife species, 
specifically, the gathering of glaucous-winged gull eggs by the Huna 
Tlingit Tribe of Alaska Natives. The park is closed to the consumptive 
use of wildlife, including subsistence practices.
    Opening the park would harm the gull population, be in derogation 
of park purposes and values, and potentially lead to proposals for the 
subsistence taking of other wildlife in the park, in three other 
national parks in Alaska, and in national parks in other states. The 
Huna Tlingit advocate opening the park to subsistence hunting for seals 
and mountain goats, as well as to gull egg collecting.
    Opening the park to egg gathering conflicts with Congress's 
historic policy prohibiting human predation on wildlife in national 
parks. A recent expression of this policy is found in the Tabitha 
Shoshone Homeland Act of 2000 involving Death Valley National Park. In 
Sec. 4(e)(3), Resource Use by the Tribe, Congress specified that ``In 
the special areas any use of park resources by the tribe for 
traditional purposes, practices, and activities shall not include the 
taking of wildlife and shall not be in derogation of purposes and 
values for which the park was established'' (emphasis added).
    Opening the park to egg gathering also conflicts with Congress's 
intent in ANILCA that Glacier Bay National Park and other national 
parks in Alaska serve as wildlife sanctuaries. These parks ``. . .are 
intended to be large sanctuaries where fish and wildlife may roam 
freely, develop their social structures and evolve over long periods of 
time as nearly as possible, without the changes that extensive human 
activity would cause.'' Senate Report 96-413 p. 137. Reducing Glaucous-
winged fledglings in the park by an estimated 22 percent, as is 
anticipated under the agency's proposal, is an extensive human activity 
clearly contrary to Congress's intent.
    Opening the park to egg collecting is in conflict with the National 
Park Service Organic Act of 1916, which requires the Secretary of the 
Interior to ``. . .promote and regulate the use of Federal areas known 
as national parks. . .to conserve the scenery and the natural and 
historic objects and the wildlife therein and to provide for the 
enjoyment of the same in such a manner and by such means as will leave 
them unimpaired for the enjoyment of future generations.'' (Emphasis 
added.)
    Under this standard national parks are closed to the consumptive 
use of wildlife, unless exceptions to the rule are made by Congress, 
because consumptive use impairs that wildlife by definition. In terms 
of the Organic Act, then, whether a species within a national park can 
be maintained on a sustained yield basis--the ``biological 
sustainability'' test of P.L. 106-455--or not is irrelevant. Sustained 
yield of park wildlife is a wildlife management goal that has no basis 
in federal law and policy governing national parks.
    As discussed below, there are traditional glaucous-winged gull egg 
gathering sites near but outside the park within Huna Tlingit 
traditional territory. The availability of these sites means that 
Congress and the public do not have to choose, as the Park Service 
suggests, between opening the park to gull egg gathering and denying 
the Huna Tlingit the opportunity to maintain their culturally valuable 
practice of subsistence gull egg gathering
Glacier Bay National Park
    In addition to its national significance, Glacier Bay is recognized 
as a globally important wildlife sanctuary and natural area. It is a 
World Heritage Site and the primary coastal component of an 
International Biosphere Reserve with the contiguous Wrangell-St. Elias 
National Park, Kluane National Park of the Yukon Territory, and 
Tatshenshini-Alsek Provincial Park of British Columbia. Glacier Bay 
provides a sanctuary and feeding grounds for endangered humpback whales 
and threatened Steller sea lions.
    When the congressionally ordered phase-out of commercial fishing in 
Glacier Bay proper is complete, the park will contain one of the 
largest, perhaps the largest, marine protected area in the northern 
hemisphere. This will fulfill major scientific and sanctuary purposes 
of the park.
    The park's submerged lands and waters, including the saltwater 
areas, are federally owned. This gives the National Park Service (NPS) 
exclusive jurisdiction, freeing it from problems and disputes that can 
arise in other park system units in Alaska where the traditionally 
hostile State of Alaska owns the submerged lands and can pursue uses 
incompatible with park purposes and values.
    Similarly, the terrestrial portion of the park is not encumbered by 
extensive private or state-owned properties, aside from the University 
of Alaska's large undeveloped mining claim that is probably trading 
stock at best. With its sister sanctuaries Katmai NPP and Denali NPP, 
the park is one of the most pristine parks in the national park system.
Origin of the current controversy
    A technical paper prepared for the park by four academic 
anthropologists describes the origin of the current issue:

                  In the mid-1990's cultural resource management 
                personnel at the Park invited a group of Huna elders to 
                a workshop on traditional ecological knowledge attended 
                by representatives of the Hoonah community, the Alaska 
                Department of Fish and Game, the National Park Service, 
                and professional anthropologists who had worked in 
                Hoonah. The original intent was to discuss possible 
                collaboration on a project to gather and document 
                Tlingit knowledge of cultural and natural resources to 
                be used in Park management. The Huna diverted the 
                conference proceedings when they realized they were 
                being asked to share their knowledge without being 
                promised anything in return. In exchange for their 
                cooperation, they demanded that the Park restore 
                limited harvest rights for three key subsistence foods, 
                in order of priority: seagull eggs, seals, and mountain 
                goats. Park officials agreed to work cooperatively with 
                them toward a resolution of these issues.\1\ (Emphasis 
                added. The remainder of this paragraph describes the 
                subsequent ethnographic and biological studies.)
---------------------------------------------------------------------------
    \1\ Hunn, E.S, Johnson, D.R., Russell, P.M., Thornton, T.F., ``The 
Huna Tlingit People's Traditional Use of Gull Eggs and the 
Establishment of Glacier Bay National Park,'' Technical Report NPS D-
121, National Park Service, 2003, p. 4.

    This willingness of park officials to work ``toward a resolution of 
these issues'' led to the enactment of P.L. 106-455, the Glacier Bay 
Resources Management Act of November 2000. Sponsored by former Alaska 
senators Frank Murkowski and Ted Stevens, it directed the Secretary to 
study the ``sea gulls'' in the park ``. . .to assess whether sea gull 
eggs can be collected on a limited basis without impairing the 
biological sustainability of the sea gull population.'' If the 
Secretary ``. . .determines that limited collection of sea gull eggs 
can occur without impairing the biological sustainability of the sea 
gull population in the park, the Secretary shall submit recommendations 
for legislation to the [Senate and House Committees].''
    The NPS's subsequent study of a glaucous-winged gull colony on 
South Marble Island in the park found that an egg collecting party 
could take every egg out of every nest in two separate visits. It was 
assumed that the gulls would resume egg laying once the egg collections 
were over. Based on a mathematical model and subsistence egg collecting 
elsewhere in Alaska, the study estimated that the egg sweeps on the 
island would result in a 22 percent reduction in the number of 
glaucous-winged gull fledglings in the park, and therefore that the 
biological sustainability of the gull population in the park would not 
be impaired.
    Accordingly, the NPS recommended in its Legislative EIS and its 
July 28, 2011 testimony before the Subcommittee that Congress open the 
park to Huna Tlingit egg gathering. The proposed action/preferred 
alternative of the LEIS that would be implemented if S. 1063 is 
approved would ``. . . authorize the collecting of glaucous-winged gull 
eggs by Huna Tlingit tribal members at several locations within the 
park on two separate dates.''
Park Service refuses to consider an alternative to opening the park
    As part of the study called for in P.L. 106-455, park managers 
funded research into traditional Huna Tlingit bird egg use within the 
tribe's traditional territory. Glaucous-winged gull colonies were 
inventoried and described within and without the park. Six traditional 
glaucous-winged gull egg collecting sites were located outside the park 
in the Icy Strait-Cross Sound area.
    The availability of these non-park sites presented the NPS with an 
obvious alternative to opening the park to this subsistence practice. 
But rather than analyze this alternative in its LEIS, the agency merely 
acknowledged that traditional collecting sites are found ``. . . on 
National Forest Lands in Icy Strait and Cross Sound, including Middle 
Pass Rock near the Inian Islands, Table Rock in Cross Sound, and other 
traditional locations on the coast of Yakobi Island.''\2\
---------------------------------------------------------------------------
    \2\ This quotation is taken from a U.S. Fish and Wildlife Service 
regulation [50 CFR Part 100.3] governing subsistence gull egg 
collecting by the villagers of Hoonah that shows the non-park 
alternative to be in place:

        Current U.S. Fish and Wildlife Service regulations allow 
residents of Hoonah to gather glaucous winged gull eggs on National 
Forest lands in Icy Strait and Cross Sound, including Middle Pass Rock 
near the Inian Islands, Table Rock in Cross Sound, and other 
traditional locations on the coast of Yakobi Island between May 15 and 
June 30. The land and waters of Glacier Bay National Park remain closed 
to all subsistence harvesting.
---------------------------------------------------------------------------
    The NPS dismissed LEIS consideration of the non-park alternative 
with this argument: ``Although permanent residents of Hoonah are 
authorized to harvest glaucous-winged gull eggs on islands outside [of 
the park] in Icy Strait and Cross Sound, these nesting sites are 
virtually inaccessible on most days due to ocean swells and tidal 
currents. Moreover, such sites were never favored by the Huna Tlingit 
and do not fulfill the traditional practice of harvesting eggs within 
the homeland of Glacier Bay.''
    However, evidence in technical reports\3\ funded by the agency 
refutes the agency's argument, ``A Study of Traditional Use of Birds' 
Eggs by the Huna Tlingit,'' (2003), and ``The Huna Tlingit People's 
Traditional Use of Gull Eggs and the Establishment of Glacier Bay 
National Park'' (2002).

    \3\ Hunn et al., previously cited, and Hunn, E.S., Johnson, D.R., 
Russell, P.N., Thorton, T.F., A Study of Traditional Use of Birds' Eggs 
by the Huna Tlingit, Technical Report NPS/ccsouw/nrtr-2002-02 NPS D-
113, National Park Service, 2002.
---------------------------------------------------------------------------
    NPS claim: ``These [non-park] nesting sites are virtually 
inaccessible on most days due to ocean swells and tidal currents.'' The 
2002 report notes that:

                  Huna Tlingit gull egg harvests fit into the local 
                pattern of seasonal harvests. Gull eggs were taken 
                during a brief window of opportunity between mid-May 
                and mid-June, during the initial egg-laying phase at 
                the gull colonies. The timing of these harvests was 
                critical. Given the right synchronization of egg laying 
                in the gull colonies (described in more detail below), 
                optimal harvests with maximum numbers of fresh eggs 
                were possible only for a very limited time. Gull egg 
                trips heralded the arrival of good travel weather and 
                release from the period of late winter and early spring 
                food shortage. For Huna people, it was a particularly 
                exciting time, especially for children, who 
                participated actively in the gull egg harvests. 
                (Emphasis added.)

    The six non-park sites, each named by the Huna Tlingit, are 
traditional egg collecting sites. This alone indicates their 
accessibility. And as noted above, these sites were visited by Huna 
Tlingit egg gathering parties during the ``good travel weather,'' a 
period associated with calm seas of the late spring-early summer.
    Ocean swells and tidal currents in this area are well-known, but 
the fact that the sites are traditional Huna Tlingit gull egg gathering 
sites suggests that the swells and currents were not in the past and 
are not now a deterrent to tribal members intent on collecting gull and 
other bird eggs. Huna Tlingit villages, settlements, and forts were 
located throughout the Cross Sound-Icy Strait area in the past, 
indicating extensive travel in the region. Prior to the introduction of 
motorized boats, the Huna Tlingit used their large ocean-going dugout 
canoes for travel throughout the region. Today the villagers use 
motorized boats.
    In addition, the community of Elfin Cove in Cross Sound, a noted 
sport-fishing center, and the commercial fishing community of Pelican 
in Lisianski Inlet off Cross Sound testify to the extensive boat 
traffic in the area.
    NPS claim: That the Huna Tlingit ``never favored'' the six non-park 
sites. No evidence is cited in support of this assertion, but it is at 
least an admission that eggs were gathered at these sites. During the 
Little Ice Age, the six sites may well have been favored. As 
unglaciated sites in the Icy Strait-Cross Sound-Outer Coast area they 
were among the only sites available for egg collecting. When Captain 
George Vancouver sailed by the mouth of Glacier Bay proper the fiord 
was still filled with ice.
    NPS claim: That the six non-park sites ``do not fulfill the 
traditional practice of harvesting eggs within the homeland of Glacier 
Bay.'' True, traditional egg collecting sites outside the park 
obviously cannot fulfill the traditional pre-park practice of 
collecting eggs within the park. But the non-park sites do fulfill the 
traditional practice of collecting glaucous-winged gull eggs in the 
tribe's traditional territory--its homeland--outside the park, and in 
the case of George Island and Middle Pass Rock, the gathering of black-
legged kittiwake eggs as well.
    The 2002 report documents 11 traditional, active glaucous-winged 
egg collecting sites in the Cross Sound/Outer Coast area, five within 
and six outside the park.\4\ The six active non-park sites in the Cross 
Sound-Yakobi Island area are:
---------------------------------------------------------------------------
    \4\ Two other collecting sites in the park in this area are 
inactive ``non-seagull egg'' collecting sites. There are also three, 
possibly four (the text has three, the map four) other non-seagull gull 
collecting sites in eastern Icy Strait near Hoonah, one of which is 
active.
    In addition, the U.S. Fish and Wildlife Service's North Pacific 
Seabird Database, an online source the DLEIS authors apparently 
overlooked, locates two ``seabird colonies'' on islands just off the 
northwest entrance to Frederick Sound near Hoonah, as well as one 
closer to Hoonah, one at the west entrance to Lisianski Strait between 
Yakobi and Chichagof Islands, and one near Pt. Couverden. The active/
inactive status of the colonies is not disclosed.

    --Inian Islands: Middle Pass Rock; small island in the W part of 
            the middle passage in the Indian Islands in Cross Sound; 
            about 70 km NW of Hoonah; Lugheiya? `Nose' (check 
            location); medium productivity for eggs [SF, MM, PL, MI]; 
            associated with commercial fishing in Inian Island (now 
            closed); difficult to access due to strong tides and big 
            swells; considered dangerous; usually only men harvest (Ken 
            Grant; Johanna Dybdahl).
    --George Islands, outside Elfin Cove; at the mouth of Port Althorp 
            in Cross Sound; about 76 km NW of Hoonah; Khushnaaxh' 
            (``Tumbling Water Shelter''); medium productivity for eggs 
            [SF, MM, TA, BH, PL, MI]; Huna Tlingits that harvested at 
            Middle Pass Rock often harvested here as well; associated 
            with commercial fishing activities in Cross Sound and the 
            outer coast.
    --Table Rock (aka ``Bird Rock''); just S of Three Hill Island, near 
            Point Lucan in Cross Sound; about 80 km W of Hoonah; 
            Taweik' (``Coming Up Over It''); medium productivity for 
            eggs [SF, BF, MI]; this site is still used by some Natives 
            in Pelican, but is not considered very accessible by Huna 
            Natives; site was used in the past when fishing in the 
            Inian Islands.
    --Point Lucan and Column Point, rock; halfway between Point Lucan 
            and Column Point off Althorp Peninsula, Cross Sound; about 
            85 km W of Hoonah; Lix' Xagu (``Broken Rock Sandbar'') 
            (check location); productivity for eggs uncertain [SF, BF, 
            MM, TA, BH, PL, MI]; location needs to be checked.
    --Surge Bay rocks; at the mouth of Surge Bay on the outside of 
            Yakobi Island near the southwest entrance to Cross Sound; 
            about 110 km W of Hoonah; Tsaa Aayi (``Seal Country'') 
            (check location); productivity of eggs uncertain [SF, BF, 
            MM, TA, BH, PL, MI]; not commonly used; Surge Bay is a 
            former village site (Frank See).
    --Yakobi Rock; just west of Yakobi Island at the SW entrance to 
            Cross Sound; about 105 km W of Hoonah; Yeiya (``On the face 
            of Yei'') (Yakobi Island?) medium productivity for eggs 
            [SF, BF, MM, TA, BH, PL, MI]; this site is considered to be 
            productive but not very accessible due to its distance from 
            Hoonah and exposure to waves and ocean swells; it was used 
            occasionally in the past when commercial fishing activities 
            brought Hunas to the outer coast in spring. (Emphases and 
            parenthetical remarks in original.)

    Distances from Hoonah to the three most productive sites in Glacier 
Bay proper and from Hoonah to the six non-park sites are estimated in 
the 2000 report cited above. Three of the non-park sites are as close 
as or closer to Hoonah than the three park sites the NPS has selected 
for the proposed egg gathering:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

A Park Service demonstration project
    Shortly after passage of P.L. 106-455, the act authorizing the gull 
study, park managers invited a party of Huna Tlingit tribal members 
from Hoonah on an egg collecting trio to Middle Passage Rock, one of 
the non-park sites. Agency assistance was ``in the form of consultation 
throughout the permitting process, and vessel and safety support.'' 
Glaucous-winged gull eggs were gathered. In 2002, the managers arranged 
for a private charter boat to take the villagers to Middle Pass Rock 
where eggs were again gathered.
    Park staff did not investigate the other five non-park sites for 
purposes of the LEIS. An alternative calling for Park Service 
facilitation of Huna Tlingit egg gathering outside the park modeled on 
the agency's successful demonstration project was rejected on the 
grounds that ``this alternative, while reasonable and feasible, falls 
outside the scope of this LEIS, as Congress, through Section 4 of 
P.L.106-455, directed the NPS to assess whether ``sea gull eggs can be 
collected in Glacier Bay National Park without impairing the biological 
sustainability of the gull population of the park.'' (Emphasis added.)
    However, the National Environmental Policy Act requires federal 
agencies to consider all reasonable and feasible alternatives, and 
there is no indication that in enacting P.L. 106-455 Congress intended 
to limit the consideration of reasonable and feasible alternatives to 
just those selected by the NPS.
Conclusion and recommendation
    The Park Service's proposal, which is now before the Congress in S. 
1063, is an unprecedented, startling, and deeply disappointing 
development--the Park Service itself is determined to open the park to 
the extraction of a wildlife species the agency is charged by Congress 
to protect.
    Its proposal is unprecedented in that this is apparently the first 
such instance of the agency asking Congress to open a national park to 
the consumption of wildlife for subsistence or any other purpose. 
Previous attempts to extract resources from Glacier Bay have come from 
private interests and their allies. At those times, park managers have 
joined with citizen supporters to defend the park.
    The Park Service has apparently given no thought to the possible 
repercussions of their proposal. As noted above, the Huna Tlingit seek 
seal hunting and mountain goat hunting privileges in the park, and 
perhaps other subsistence practices, in addition to access for 
glaucous-winged gull egg gathering. Enactment of S. 1063 could invite 
legislative proposals for allowing these additional subsistence 
practices.
    If Congress opens the park to egg collecting, its action could also 
encourage Alaska Natives living near Katmai NP, old Mt. McKinley NP 
within Denali NPP, and Kenai Fjords NP to ask Congress to extend this 
subsistence practice to these wildlife sanctuaries. Native Americans in 
other states will also be interested in how Congress resolves the egg 
gathering issue in Glacier Bay National Park. If the gathering is 
approved, Native American tribes might ask Congress to authorize the 
same or similar practice in national parks near them.
    Sierra Club recommends that the Subcommittee take no further action 
on S. 1063.
    Thank you for considering our views.

    Senator Udall. Thank you, Mr. Hession.
    Mr. Hession, let me follow up with you with my first 
question.
    I will recognize myself for 5 minutes.
    It appears in this case that the Park Service and the bill 
sponsors are trying to balance 2 areas of concern: On one hand, 
the protection of a national park and its native wildlife, and 
on the other, the cultural traditions of a native community.
    According to the Park Service's testimony, they believe 
that a limited collection of gull eggs can be undertaken 
without threatening the parks' gull population. If their 
position's correct, and there will not be any detrimental 
effect on the park's gull population, why is it a problem if 
they try and, to accommodate the cultural practices of the 
HunaTlingit within the park?
    Mr. Hession. As I mentioned in my statement, Mr. Chairman, 
there is a detrimental effect. The gull population, the 
glaucous-winged gull population, would be hit with an impact of 
approximately 22 percent. That's an incompatible use in a 
national park, particularly in a park of this stature.
    In addition, we are not, as I mentioned, we are not opposed 
to HunaTlingit traditional egg gathering. In fact, we support 
it. But, not within the park; particularly when there are these 
alternative sites that the Park Service itself has identified 
but has refused to consider.
    We just suggest the subcommittee consider them and, in 
turn, encourage the HunaTlingit to utilize the instead of going 
into the park, which we see as completely unnecessary. In other 
words, it's a win-win situation, as they say nowadays.
    Senator Udall. Would you further explain the 22 percent? 
That applies to what?
    Mr. Hession. That applies to the entire park population. 
This proposal would allow 2 collecting trips to 5 sites a year. 
The idea is to go into, first, to South Marble Island, which is 
a very productive gull nesting site, and a haul out--major haul 
out for Steller sea lions. The idea is that the party of egg 
collectors would sweep across this island--I've been there. 
I've seen it. I've not been on it. The Park Service says you 
must maintain a suitable distance. But, sweep across it; take 
eggs out of every nest; then come back again on a second trip 
and do the same, in the hope, according to the Park Service, 
that this, that the gulls would relay a second series of 
clutches, and then everything would be OK. The problem is, they 
also concluded that you would have that better than one-fifth 
reduction in the number of fledglings in the park.
    Senator Udall. So, that's, that 22 is, to one-fifth less 
fledglings----
    Mr. Hession. Fledglings. Yes.
    Senator Udall. Thank you for testifying. Thank you for 
making the long journey here, to Washington, DC.
    Let me turn to Mayor Harycki. You noted in your testimony 
that the proposed bridge was developed by various stakeholders 
through an environmental mediation process administered by the 
Udall Instructions for Environmental Conflict, and you also 
referred to the bridge proposal as a Udall Community Endorsed 
Plan. Now, I'm very familiar with the Udall Institute. It's a 
federally chartered institute. But it's my understanding that 
it serves only to facilitate discussion, and it doesn't 
actually endorse specific policy proposals.
    So, I want to be clear here, because I, I want to be even-
handed. The Udall Institute isn't advocating for or against any 
of the proposals related to the St. Croix River Crossing. Is 
that accurate?
    Mayor Harycki. If I may, at the end of the process, the, 
all but one of the stakeholder groups did sign off on the plan 
that was developed through the process.
    So, although it was specifically endorsed by the Udall 
Institute----
    Senator Udall. They convened the process and----
    Mayor Harycki. Got us together, and----
    Senator Udall. Got everyone together.
    Mayor Harycki.--got us to this point.
    Senator Udall. Yes. I think you can understand why I want 
to make that clear, because the whole----
    Mayor Harycki. Definitely.
    Senator Udall [continuing]. Role in which the Udall 
Institute operates is to mediate, convene, and encourage the 
stakeholders to come up with their way forward, not a way 
forward that's dictated by the institute.
    Mayor Harycki. Correct.
    Senator Udall. Clarify that for the record. Mr. Mayor, you 
stated that area residents support the designation and want to 
continue to protect their river from over development. But, 
what's the point of the Wild and Scenic River designation if 
the solution to development--conflict is to simply waive one of 
the key protections under the Wild and Scenic Rivers Act?
    Mayor Harycki: I think the, you know, as I stated, 
everybody in our community views the St. Croix River as 
probably one of our greatest assets. I mean, we certainly 
appreciate having that river there. But, we also appreciate 
having a safe and reliable crossing. The important point is 
that any crossing will require the exemption. There's simply, 
you know, we're caught in a catch-22. We can't tear down the 
existing bridge, nor do we want to, because it's protected as a 
historic site. So, to build a bridge we require a congressional 
exemption. I mean, this is the process that was laid out in the 
law. We've spent 30 years as a community going down this 
process to get here.
    Senator Udall. I have a couple of additional questions for 
each of you, but I want to turn to Senator Franken, and in the 
next round I'll be able to ask my second round of questions.
    So, Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Thank, I want to thank all of the witnesses for being here.
    Mr. Tomten, you're here representing a number of 
Minnesotans and folks from Stillwater who support a new bridge, 
but a smaller bridge than is currently being considered.
    Given the past statements of the Park Service, that they 
couldn't approve any new construction, would you support a 
congressional exemption to the Wild and Scenic Rivers Act for a 
smaller bridge to be built?
    Mr. Tomten. Yes. But I would also ask--there currently have 
been 5 bridges built in the St. Croix River, replaced, there's 
been new construction on 5 different crossings up and down the 
St. Croix River in the last 20 years. If no one has, I believe 
the person from the Park Service indicated that they haven't 
turned down any, a proposal that they haven't analyzed, or, 
they haven't been able to report on a proposal that they 
haven't had before them.
    So, if they haven't had a smaller, slower bridge put before 
them, how do we know that they would not approve a bridge that 
is in the central corridor? They have in the past stated that 
the central corridor is the location that is appropriate for a 
bridge crossing on the St. Croix River.
    Senator Franken. My understanding from talking to the Park 
Service in, the National Park Service, that, that's in, 
authorized, to take care of the St. Croix, is that no bridge 
there in that footprint, or near that footprint, would be, pass 
the 7(a) process.
    So, I really, I believe that the smaller, slower bridge 
would also require an exemption, a congressional exemption. 
That is my understanding.
    Mayor Harycki, in your testimony you mentioned the fact 
that the current lift bridge handles more traffic than it was 
built for 80 years ago. Can you describe a typical summer day 
in Stillwater, and how that affects bridge traffic?
    Mayor Harycki. A typical summer day, and, really, a 
typical, you know, winter day, is, it's very beautiful town 
with an enormous traffic problem caused by an 80-year-old 
bridge. In fact, when you were--even though we didn't plan it 
that way, when you came to visit our community to look at the 
bridge situation yourself, you were delayed in the meeting by 
traffic. That is very--and it wasn't even the summer. That's a 
very typical situation.
    We can have several, we can problem have over a mile of 
traffic backing up through town. It creates problems for the 
city, because people are going through local community streets 
trying to find ways around traffic.
    So, a typical situation that we have is traffic delays; 
idling cars; the bridge has been hit numerous times by semi's 
trying to get across the river; they're trying to navigate a 
very----
    Senator Franken. Basically, we need a--the feeling is that, 
and I think Mr. Tomten would agree, that a new bridge is 
needed.
    I'm sympathetic, as you know, Mr. Tomten, to the desire for 
a lower, slower bridge. But I'm also sympathetic with the 
Governor who is, has said that if we don't do this now, this is 
really, he doesn't want to see this reopened. His, the State, 
it's the State's, and Mn/DOT--that's the Minnesota Department 
of Transportation's--decision, and the Governor's decision, 
that they would like to see this, a bridge there, and that they 
are feeling if we reopen this process, we're not going to see 
one.
    That is why I believe that we are going to need, no matter 
what we do, we're going to need an exemption to the Wild and 
Scenic Rivers Act, and that we need, Stillwater needs a bridge, 
and it needs it now, or, it needs it to start very soon.
    But, I thank you for your testimony.
    Mr. Tomten. If I could, Mr. Chairman? If I could respond to 
Senator Franken. Thank you.
    Yes, Stillwater does need a new bridge. It's our feeling 
that with a smaller-scale bridge, because we've already studied 
such a large scope for this project, I mean, the scale of this 
bridge proposed is huge. The footprint is huge. The fact that 
our smaller bridge fits so intimately within the large scope of 
the existing EIS, that we feel that it, a fairly quick order 
supplemental EIS can be handled in a fair amount of time, a 
short amount of time--not the 6 to 10 mediation years that 
everyone is concerned about, but rather, that we could turn 
around a supplement in 18 to 24 months. That, because of the 
smaller bridge, because of the quicker construction time, we 
can actually have a completed bridge at the same timeframe that 
we have under the big bridge proposal.
    Senator Franken. I understand, and I'm sympathetic to that. 
But, as the Governor has said, that, this is something that 
really needs to get started before September 30, I believe.
    Is that right, Mr. Mayor?
    Mayor Harycki. That is correct, Senator.
    Senator Franken. OK.
    Thank you. Thank you all.
    Senator Udall. Thank you, Senator Franken.
    Mr. Tomten, I think you were just speaking to the question 
I was going to ask, which was, the new bridge proposal, it 
appears to me, that you're advocating would then require new 
studies and evaluations; could take years; in the end the Park 
Service might oppose that bridge as well, so we're right back 
to our starting point.
    If you didn't have a chance to fully answer that with 
Senator Franken, I'd certainly welcome your comments. 
Otherwise, for the record, I would ask you to submit your point 
of view on that question that I've just answered--I'm sorry. 
That I've asked, and I've asked you to answer.
    Mr. Tomten. We feel that the timing can be brought about 
in, again, in a short period of time to do the environmental 
EIS on the project, and with the construction time being much 
shorter, we can actually have our bridge constructed at the 
same time as the bridge being proposed.
    So, we don't feel the timeframe is as much an issue. We did 
go through the long mediation process, and--I did want to 
clarify one thing for the record, if I could, Mr. Chairman.
    Senator Udall. Please.
    Mr. Tomten. During the mediation process, again, the only 
bridges that were ever studied were high speed freeway-style 
bridges. At the plea of several of the mediation teams that 
were, or, some of the stakeholders that were in the group, we 
were unable to convince Mn/DOT that a smaller, slower bridge be 
reviewed. So, Mn/DOT took upon, took their prerogative to limit 
it to high speed freeway-style bridges, large bridges.
    Just to clarify for the public record, there actually were 
2 of the stakeholder groups that did not sign on the mediation, 
not just one. It was our group--the Friends of the St. Croix--
and the Sierra Club. Since then, 2 of the other stakeholder 
groups have now withdrawn their support for the large bridge 
project and are now supporting the smaller, slower, cheaper 
alternative, the Sensible Stillwater Bridge.
    So, we feel we do have a lot of support. We feel that there 
is, you know, there's just kind of a growing frustration as to 
why slower and smaller bridges would not be analyzed answer 
studied. It's kind of strange to have to come all of the way to 
Washington to ask our own State Department of Transportation to 
look at a smaller project that save $400 million. But that's 
where I find myself today.
    I'm certain that, with a statement like that, the question 
of capacity would come up, and so I'd just like to preclude 
that question by saying that our bridge, our bridge proposal 
offers 2 lanes of traffic westbound in the morning, 2 lanes of 
traffic eastbound in the afternoon. The large $700 million 
bridge proposes 2 lanes of traffic eastward in the morning, 2 
lanes of traffic westward in the afternoon. So, capacity-wise, 
it will be very close to what the current bridge proposal is in 
terms of capacity, but for less than half the price, saving 
$400 million for the Federal Government and for the 2 States.
    Mayor Harycki. Mr. Chairman----
    Senator Udall. Thank you, Mr. Tomten.
    I'm going to turn to the Mayor--you both anticipated my 
question. Because when I read your testimony, there is a 
different point of view. I want to give each of you a chance to 
respond to, whatever length of time you'd like to respond.
    Mayor, you referred to the Sensible Bridge alternative, and 
made the point that it had been studied and rejected. I'd, 
would now----
    Mayor Harycki. If I may----
    Senator Udall [continuing]. Go to you to please respond.
    Mayor Harycki. If I might. What we're asking for is, we're 
not asking for Congress to design a bridge for us. We have 
professionals both at Mn/DOT and WSDOT that are fully capable 
of designing the bridge for us, and they're professionals. They 
know what they're doing.
    I would like to introduce a July 26, 2004, letter from the 
United States Department of the Interior that discusses the 
exemption process, and how any bridge being built would require 
an exemption. That's really what we're here for.
    The good news that I----
    Senator Udall. Mayor, without objection, that will be 
included in the record. Please continue.
    [The information referred to follows:]

                        Department of the Interior,
                                     National Park Service,
                                St. Croix Falls, WI, July 26, 2004.
Ms. Cheryl Martin,
Environmental Engineer, Federal Highway Administratio,n Galtier Plaza, 
        380 Jackson Street, Suite 500, St, Paul, MN.
    Dear Ms. Martin:

    This is in response to your letter of June 24, 2004, requesting 
that the National. Park Service (NPS) review the alternatives under 
consideration for the St. Croix River Crossing Project (crossing 
project) and provide an indication of the viability of each alternative 
under Section 7(a) of the Wild and Scenic Rivers Act. The following 
comments are preliminary, based on currently available information 
about the crossing project. They are intended to provide planning 
assistance to the Federal Highway Administration (FHWA), but do not 
constitute the Section 7(a) evaluation of the crossing project.
                       wild and scenic rivers act
    The Wild and Scenic Rivers Act (the Act) (Public Law 90-542) was 
passed by Congress in 1968. The Act established a method for providing 
Federal protection for certain of our country's remaining free-flowing 
rivers, preserving them and their immediate environments for the use 
and enjoyment of present and future generations. Section 1(b) of the 
Act contains the Congressional declaration of policy and states:

          It is hereby declared to be the policy of the United States 
        that certain selected rivers of the Nation which, with their 
        immediate environments, possess outstandingly remarkable 
        scenic, recreational, geologic, fish and wildlife, historic, 
        cultural, or other similar values, shall be preserved in free-
        flowing condition, and that they and their immediate 
        environments shall be protected for the benefit and enjoyment 
        of present and future generations.

    The Lower St. Croix National Scenic Riverway (Riverway) was 
established under the Act for its outstandingly remarkable geologic, 
scenic, and recreation values.
    Section 7(a) of the Act provides substantial protection to 
designated rivers. It states, in part, that:

          no department or agency of the United States shall assist by 
        loan, grant, license or otherwise in the construction of any 
        water resources project that would have a direct and adverse 
        effect on the values for which such river was established as 
        determined by the Secretary charged with its administration.
                      applicable policy positions
    The NPS and the Minnesota and Wisconsin natural resource 
departments, which are partners in Lower St. Croix management, have 
long held a position of non-proliferation of crossings over the 
Riverway. The 2002 Cooperative Management Plan (CMP) for the Lower St. 
Croix, which was approved by all management partners, provides 
direction regarding the ``non-proliferation'' policy. It states that 
there will be no net increase in the number of transportation 
corridors. In general, transportation corridors are to be replaced in 
or adjacent to the existing corridor. Capacity within an existing 
transportation corridor may be increased by widening an existing bridge 
or by constructing a parallel structure.
    The CMP does, however, provide some latitude for relocating 
transportation corridors if 1) the need for the project is clearly 
justified; 2) the project is consistent with state and regional 
transportation plans, 3) there is no feasible and prudent alternative 
to relocating the corridor, and 4) all built elements of the existing 
corridor are removed, and the corridor is restored to natural 
conditions. All proposed changes to river crossings or corridors 
require site specific environmental evaluations.
    In the Final CMP Environmental Impact Analysis, it is stated that 
the questions of whether or not a new bridge at Stillwater is built and 
whether or not the lift bridge is replaced will both be addressed in a 
separate environmental statement. If it is determined that a new bridge 
is constructed, however, that project should still be developed to be 
in conformance with the overall management goals outlined in the CMP.
         past section 7(a) evaluations of the crossing project
    The NPS has prepared Section 7(a) Evaluations for two previous 
crossing proposals; one in 1996 on the 1995 FEIS preferred alternative 
and one in 2000 for the bridge alternative developed through the 1998 
process facilitated by former Minnesota transportation commissioner 
Richard Braun. While particulars of the crossings described for the 
1996, 2000 and current projects vary, the outcomes of the two prior 
evaluations are generally applicable to the current effort.
    The Section 7(a) Evaluation of the 1995 FEIS preferred alternative 
determined that the proposed bridge, as described at that time, would 
have a direct and adverse effect on the scenic and recreational values 
for which the Riverway was established. Factors that led to that 
determination were the impacts of the proposed bridge on the existing 
natural and historic scene and the recreational user's enjoyment of the 
same. The 1995 proposed bridge would have interrupted and obscured 
views upstream and downstream; introduced a new manmade development to 
the natural appearing Wisconsin bluff; and disrupted views of historic 
Stillwater. In addition, the NPS found that the adverse impacts were so 
severe that they could not be adequately mitigated with available 
strategies. In her April 1998 decision, U.S. District Judge Ann 
Montgomery determined that the bridge was a water resources project 
subject to review under Section 7(a) of the Act and that the NPS 
Section 7(a) determination was not arbitrary and capricious.
    The Draft Section 7(a) Evaluation of the 1998 alternative also 
determined that the proposed bridge would have a direct and adverse 
effect on the scenic and recreational values for which the Riverway was 
established. Again, the factors that led to that determination were the 
impacts of the proposed bridge on the existing natural and historic 
scene. However, the evaluation also concluded that the direct and 
adverse effects could be adequately offset by any one of three 
mitigation packages developed through an interagency effort. The 
mitigation packages included removing obstructions to flow, removing 
manmade visual intrusions to the natural and historic scene, restoring 
the Wisconsin bluff by removing pavement from the existing Wisconsin 
approach road, and providing funds to preserve natural and cultural 
resources and to protect the viewshed of the Riverway. The location of 
the 1998 alternative is the same as Alternative C of the current 
effort.
                       comparison of alternatives
    Based on the foregoing, there are several important factors to 
consider in determining the consistency of the crossing project with 
Section 7(a) of the Act. They include the apparent mass of structure, 
which is influenced by horizontal and vertical bridge elements as well 
as the alignment of the bridge to the river, and the resulting degree 
of impact to natural and historic scenes enjoyed by recreational users 
of the river. Effective strategies for reducing the impact of the 
proposed crossing would include using crossing locations, bridge 
alignments, and bridge types that minimize impacts to natural 
resources, including river bluffs and vegetation, and that minimize the 
apparent mass of the bridge and obstructions of important natural and 
historic scenes.
    Alternative B-1 would use a new crossing corridor along a 
relatively industrially developed section of the-Riverway. It would be 
placed on a mostly perpendicularly alignment to the river. In general, 
this more perpendicular crossing would be a foreground element in the 
view of passing boaters for a shorter period of time and obstruct views 
less than a more diagonal crossing in the same location (such as the 
1995 FEIS preferred alternative). The bridge types under consideration 
for Alternative B-1 attempt to minimize apparent mass. Its location 
along a more industrially developed section of river on the Minnesota 
side may help reduce its impact on the historic scene of downtown 
Stillwater. An attempt to minimize the impact of a bridge on the 
natural-appearing Wisconsin bluff has been made by locating the 
abutment in a ravine. Impacts to the Wisconsin bluff could be further 
compensated by restoring the bluff along the existing approach road to 
the Lift Bridge and preserving the sparsely developed landscape on this 
side of the river. Bluff restoration and landscape preservation would 
also help meet CMP guidance regarding transportation corridors and land 
use. The CMP states that if a new transportation corridor is selected, 
the former should be restored to natural conditions. The CMP classifies 
land use in this portion of the river as ``rural residential,'' which 
is defined as providing the sense of being on a river in a sparsely 
developed landscape.
    The concrete arch bridge type for Alternative C has already been 
evaluated under Section 7(a). The evaluation concluded that it would 
have a direct and adverse effect on scenic and recreational values, but 
that those effects could be adequately offset by any one of three 
mitigation packages. If an adequate mitigation package can again be 
developed for this alternative, it would likely again be found to meet 
the requirements of Section 7(a).
    Alternatives D and E would use a location near the existing Lift 
Bridge. This alternative attempts to minimize impacts by concentrating 
bridge structures in a more developed section of Riverway, 
incorporating traditional-style bridge designs, and using the existing 
Wisconsin approach road. To do so the bridge would be placed on a 
diagonal alignment to the river, multi-level entrance and exit ramps 
and a retaining wall would be required on the Stillwater riverfrortt, 
and the existing Wisconsin approach and the Wisconsin bluff road would 
be expanded. The NPS is concerned that in an attempt to place this 
crossing nearer to the existing crossing, the bridge, the necessary 
entrance and exit ramps, and the retaining wall may not only disrupt 
but obscure views of historic Stillwater and the Wisconsin bluff from 
important perspectives. We are also concerned that two bridges in such 
close proximity to one another, one on a perpendicular alignment, and 
one on a diagonal alignment may create more of a safety hazard for 
boaters.
    The NPS believes that, lie the 1998 proposal, any one of the 
alternatives currently under consideration would have a direct and 
adverse effect on the scenic and recreational values of the Riverway. 
However, each alternative also includes measures to minimize visual 
impacts that were not included in the 1995 FEIS preferred alternative. 
Therefore, based on the information provided thus far, the NPS believes 
that given appropriate design considerations coupled with a strong 
mitigation package, the impacts of any of the alternatives, with the 
possible exception of Alternatives D and E, could likely be adequately 
offset It should be noted that the mitigation package must include 
removing vehicular traffic from the existing Lift Bridge. The Riverway 
managing agencies (NPS, MnDNR, WIDNR) position on this issue, as 
expressed in the CMP, is very clear-cut. There is to be no net increase 
in the number of transportation corridors crossing the Riverway.
                           information needs
    The NPS recommends that additional analysis be conducted on the 
crossing alternatives to determine the scenes impacted by the various 
bridge locations. The visualization sequence of the 1998 proposal, as 
seen from a boater's perspective, was very useful in facilitating its 
review under Section 7(a). A viewshed analysis of each alternative 
should also be conducted to determine the distances from which each 
bridge would be visible, particularly from the water surface. To assess 
impacts to free-flow, additional information will also be needed. 
Section 10.3.2.4 states that there will be no change in flooding, 
change in river profile, or increase in the 100-year to 500-year 
floodplain elevations, but provides no supporting analysis. The NPS 
will also require the same information as outlined in our June 22, 
1999, letter to Adam Josephson, Minnesota Department of Transportation, 
to complete a Section 7(a) evaluation of the preferred alternative.
                               conclusion
    We believe that the alternatives under review with the possible 
exceptions of D and E, should be able to sustain Section 7(a) review if 
the following conditions are met: 1) our aforementioned concerns, 
especially those regarding bridge design, are adequately addressed; 2) 
an effective mitigation strategy is developed; and 3) close 
consultation between the transportation agencies, Minnesota and 
Wisconsin Departments of Natural Resources, National Park Service and 
others continues. Should a new bridge be constructed, conversion of the 
lift bridge to a pedestrian/bike crossing until such time as it may be 
removed would satisfy the spirit of the CMP's guidance of non-
proliferation of crossings.
    These comments have been provided as early technical assistance, 
based on currently available information, and do not necessarily 
indicate the NPS response to future environmental documents prepared in 
association with the project The NPS has a continuing interest in 
working with the FHWA to ensure that the resource values of the St. 
Croix National Scenic Riverway are protected. A full evaluation under 
Section 7(a) will be completed after a preferred alternative is 
selected, all necessary data is available, and the NPS has had adequate 
time to carefully evaluate its impacts and the effectiveness of the 
mitigation items currently under development.
            Sincerely,
                                         Thomas A. Bradley,
                                                    Superintendent.

    Mayor Harycki. Thank you.
    The good news is that, you know, really, we've moved as a 
community from the discussion 15 years ago, do we need a bridge 
or don't we need a bridge, to saying, you know, both of us are 
saying we do need a bridge. That's really a key element. You 
know, the community acknowledges that a bridge needs to be 
built. What we're asking for is for Congress to grant us the 
ability to build the bridge.
    Mn/DOT has studied it. There are 2, 4-lane highways at each 
end of that bridge with freeway-style, freeway speeds on it. I 
believe, although I was not part of that process that preceded 
me, I believe that, you know, it would be irresponsible to take 
traffic from 55 miles an hour and build a bottleneck at 40 
miles an hour. That's, you know, ultimately why I think the 
lower speeds were not looked at.
    Senator Udall. Thank you, Mr. Mayor.
    Mr. Tomten, did you want to respond? Then if the Mayor 
wants to respond. Then I probably will include what----
    Mr. Tomten. I would agree we do----
    Senator Udall. I want the record to show what each of you 
bring as a point of view.
    Mr. Tomten. We do both agree, we do need a new bridge. It's 
a matter of how big. Unfortunately, our State Department of 
Transportation has only given the public one option--a freeway 
style bridge, and up to this point, no bridge. No bridge, or a 
freeway style bridge. We would like to propose an alternative 
in the middle that would save $400 million, and still pull all 
of the traffic out of downtown. It would still meet the 
capacity needs now and in the future for the freeway systems 
that are already built in place.
    In fact, our proposal utilizes much more of the existing 
infrastructure already in place that handles that traffic than 
the new proposal does. The new proposal basically redesigns 
several intersections that we feel are not necessary. So, we 
can save a ton of money in doing that.
    But what we would ask, all we're trying to ask is for the 
Governor and for the Department of Transportation to look at 
our alternative. What we'd ask of this committee is that you 
would ask the National Park Service to take a look at our 
proposal alongside the large bridge proposal and see which one 
is preferred, and which one really follows the spirit and 
intent of the Wild and Scenic Rivers Act.
    Senator Udall. Mayor Harycki.
    Mayor Harycki. We've gone down that path, and we've put 3 
hard years into looking at options. I really think at this 
point to build what would be a functionally obsolete bridge 
that would not meet future demands would be irresponsible. So, 
we've, you know, we've looked at, I think, about 12 different 
crossings, and we kept coming back to the one--and the other 
point is, the diagonal bridge that's being presented--if you'd 
put up the picture.
    The diagonal bridge that's being proposed would just 
obliterate the view from downtown Stillwater. We have a very 
picturesque--we actually own the land in Wisconsin, so part of 
Stillwater is in Wisconsin. We own the parkland there. This is 
a view from our downtown with the existing lift bridge on the 
left side. What we'd be looking at from our main park and from 
many of our residences' backyards would be a 40- to 50-foot 
tall bridge that would span the river. All you'd be seeing is 
bridges and the river. Whereas, the, I think we have a further 
view. Did we bring that picture with us? No, we didn't. We have 
a further view that, you know, it would push it down a mile, 
and it would be out of the view shot.
    So, I mean, if the Scenic River Act is trying to protect 
the views, I mean, this is what we're trying to protect 
against.
    Mr. Tomten. Mr. Chairman, if I could. Once again, to 
clarify it for the record, our Sensible Stillwater Bridge 
proposal has not been studied by the mitigation group. The 
bridge proposal that the Mayor is showing you and is referring 
to in his testimony was an alternative brought to the mediation 
by Mn/DOT called Alternate D. Alternate D is not our bridge. 
Our bridge is a smaller bridge. Our bridge is a lower bridge, 
and has not been studied by this mediation group.
    So, any of these statements about, our bridge is more 
impactful to the environment, that's wrong, because our bridge 
hasn't been studied. Any statements that our bridge would, 
really, be an eyesore from the Lowell Park in Stillwater I 
think are wrong, because, again, our bridge has not been 
studied. It needs to be brought forward.
    All we're asking this committee is to ask the Park Service, 
with the, after a request to the, from the Minnesota Department 
of Transportation, to compare the 2 proposals side-by-side and 
see which one meets the spirit and intent of the National Wild 
and Scenic Rivers Act.
    Senator Udall. Thank you again. I'm going to bring the 
hearing to a close.
    There are no further questions today, but we will keep the 
record open for members of the committee to submit additional 
questions. Those of you on the panel are certainly welcome to 
submit additional statements for the record.
    I want to thank you for the tone in which we've conducted 
this hearing.
    I want to also thank the Minnesota Senators--Senator 
Franken, Senator Klobuchar, who's still here, for their 
attention and involvement.
    With that, this subcommittee's adjourned.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of Joel Holtrop to Questions From Senator Wyden
                                 s. 764
    Question 1. Earlier this month, a Forest Service employee in Oregon 
was quoted in the Curry Coastal Pilot saying that the paperwork for 
finally withdrawing the Chetco is ``sitting on the desk of the director 
of the BLM in Washington, DC''. Is that the case?
    Answer. The Forest Service defers to the BLM to answer this 
question.
    Question 2. Can you give us an update on why this administrative 
withdrawal is taking so long?
    Answer. The application to withdraw 5,610 acres of National Forest 
System lands along the Chetco Wild and Scenic River was originally 
submitted to the BLM in the fall of 2010. However, at that time the 
Forest Service was in the midst of changing the protocol for developing 
maps and the legal boundary description needed to be verified before 
the package could be finalized. The notice of application for 
withdrawal and public meeting was published on August 1, 2011, a few 
days after the Subcommittee hearing. The lands will be temporarily 
segregated from location and entry under the United States mining laws 
for up to 2 years.
    Question 3. The Oregon delegation has asked, on multiple occasions 
over the last decade, that the Forest Service and BLM protect areas not 
covered by this bill in Southwest Oregon. What can you tell me about 
your agency's position on the Rough and Ready Creek and Baldface Creek 
watersheds?
    Answer. There are currently many mining claims in the areas of 
interest and a withdrawal would have little impact as to whether mining 
activities would continue. The Forest also believes that it can 
adequately protect these watersheds through administration and 
enforcement of current available laws and regulations. If these lands 
were withdrawn from mineral entry, there would be an impact to the 
agency's workload. For example, the agency would need to perform a 
number of validity exams. Given that a withdrawal of this area would 
not have the desired effect of limiting mining, the agency feels its 
resources are better utilized focusing on administration of ongoing 
operations.
    Question 4. Is there anything that really prevents the Forest 
Service from acting without legislation?
    Answer. The Forest Service has the option to proceed with an 
administrative withdrawal and conduct an environmental analysis. The 
area could not be withdrawn to protect the area from future mining 
claims while the analysis proceeded since it was already withdrawn once 
for this purpose. If the analysis resulted in a withdrawal, it would 
have little effect on current mining, as described in #2 above. A 
proposed legislative withdrawal would allow the agency to commence a 
withdrawal in aid of legislation, as is the case with the Chetco Wild 
and Scenic River withdrawal.
    Question 5. Is it the Forest Service's position that we have to 
introduce legislation before a withdrawal of these areas would go 
forward?
    Answer. The Forest Service continues to review its options. 
However, as stated in answer to the previous questions, given that a 
withdrawal in this area would have little effect on existing mining 
claims, the Forest Service believes its resources are better utilized 
by focusing on administration of current mining activities.
    Question 6. I understand that validity exams are costly for the 
Forest Service. Is there ways that Congress could help the Forest 
Service lower the cost of a validity exam, much like the language used 
in the mineral withdrawals for the Smith River National Recreation 
Area?
    Answer. Within the Smith River NRA the operator of a mining claim 
located prior to the withdrawal is required to submit specific 
information to the authorized officer showing there is a discovery of a 
valuable mineral deposit, facilitating this process. The authorized 
officer has been given the authority to determine if there is enough 
evidence for the Forest Service to verify the discovery with a validity 
examination, or to contact BLM and initiate a contest action against 
the mining claim. The decision to initiate contest is not subject to 
further agency or Department of Agriculture review or administrative 
appeal.
    Under a traditional withdrawal, any claim located prior to the date 
of the withdrawal requires a valid existing rights determination 
through a validity examination. This is usually initiated when the 
operator submits a proposed Plan of Operations. If there are no 
proposed mining activities on the claim there is no requirement to 
verify a discovery and
    the claim may stay in the withdrawn area. The authorized officer 
does not have the authority to determine if there is a discovery or 
initiate a mineral contest action without a validity examination. A 
valid existing right must be completed by a certified mineral examiner 
and if it is determined there is not a discovery a contest will then be 
initiated.
    Under the Smith River process the Forest Service is only required 
to perform validity examinations on mining claims that have been 
identified by the authorized officer as needing verification of a 
discovery. Depending on the deposit and operation, a validity 
examination to determine a valid existing right, can cost the 
government tens of thousands of dollars, not including the legal aspect 
of the contest hearing. This process will not reduce the cost of the 
validity examination but it may reduce the number of validity 
examinations needed.
                                 ______
                                 
       Responses of Peggy O'Dell to Questions From Senator Udall
                                s. 1063
    Question 1. The National Park Service completed an environmental 
impact statement in 2010 on the issue of allowing for the limited 
collection of gull eggs in Glacier Bay National Park. However S. 1036 
doesn't link the authority to allow egg collecting in the park to the 
preferred alternative of the EIS. Would it make sense to tie the 
legislative authority to the findings and criteria in the EIS and 
record of decision?
    Answer. The harvest provisions in S. 1063--which limit collection 
by members of the Hoonah Indian Association to not more than twice each 
calendar year at up to 5 locations--are taken directly from the EIS/
Record of Decision. Thus, the link to the EIS and ROD is evident in the 
language of the proposed legislation.
                                s. 1134
    Question 1. I understand that the National Park Service manages 
approximately 40 rivers which are components of the National Wild and 
Scenic Rivers System. Has the Park Service ever approved construction 
of a bridge over any of those rivers subsequent to their designation as 
a wild and scenic river? If yes, please identify the specific rivers 
and bridges where construction was approved.
    Answer. The NPS is responsible for determining whether a proposed 
water resources project would have a direct and adverse effect on the 
water quality, free-flowing condition, and outstandingly remarkable 
values for which a river was designated. The NPS considers the impacts 
of each bridge project individually to assess the effect a given 
project will have on the specific values for which a river was 
designated.
    The NPS has reviewed proposals for the construction of bridges over 
wild and scenic rivers and has determined in several instances that the 
bridge would not have a direct and adverse impact on the values for 
which the river was included in the National Wild and Scenic River 
System. The vast majority of these bridges are replacements (including 
removal) of an existing bridge that resulted in the improvement of 
river values. Identified below are the rivers with bridge projects that 
NPS found did not have a direct and adverse effect on the river, along 
with the number of bridges for each river.
  
Allagash, ME--1 bridge               Missouri River, NE/SD--2 bridges
Big & Little Darby Creek, OH--3      Musconetcong, NJ--1 bridge
 bridges
Eel River, CA--2 bridges             Namekagon, WI--8 bridges
Farmington, CT--1 bridge             Niobrara, NE--2 bridges
Flathead, MT--2 bridges              Obed River, TN--1 bridge
Great Egg Harbor, NJ--5 bridges      St. Croix, MN/WI--4 bridges
Lamprey, NH--4 bridges               Sudbury, Assabet & Concord, MA--6
                                      bridges
Little Miami River, OH--2 bridges    Upper Delaware, NY--1 bridge
Lower Delaware, DE--2 bridges        Westfield, MA--6 bridges
Lower St. Croix, MN/WI--2 bridges    White Clay Creek, DE--2 bridges
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    [Due to the large amount of materials received, only a 
representative sample of statements follow. Additional documents and 
statements have been retained in subcommittee files.]
  Statement of Emily Jones, Senior Program Manager, Southeast Region, 
           National Parks Conservation Association, on S. 265
    I write to submit my written statement in strong support of S. 265, 
the Champion Hill, Port Gibson and Raymond Battlefields Addition Act, 
introduced by Senators Cochran and Wicker, which would authorize the 
National Park Service to acquire approximately 10,000 acres of historic 
battlefield sites significant to the Vicksburg Campaign for addition to 
Vicksburg National Military Park.
    The State of Mississippi, Friends of Raymond, and Civil War Trust 
hold 1,050 acres of this land, and have conservation easements on an 
additional 1,171 acres. They have expressed strong interest in this 
land becoming part of the National Park, and in donating their 
interests. The Champion Hill, Port Gibson and Raymond Battlefields 
Addition Act is a most timely opportunity to protect hallowed ground in 
the Vicksburg Campaign as the nation commemorates the sesquicentennial 
of the Civil War.
    Port Gibson and Raymond are identified as Priority I landscapes by 
the Civil War Sites Advisory Commission (CWSAC)'s State of Mississippi 
report on the Nation's Civil War Battlefields. The Commission, 
established by Congress in 1991, first published its Report on the 
Nation's Civil War Battlefields in 1993. Both Port Gibson and Raymond 
retain a significant percentage of their integrity, as identified in 
the 1993 CWSAC Report and the October 2010 update.
    Champion Hill, a Priority III landscape, is one of the most intact 
battlefields in Mississippi. Champion Hill and Port Gibson are 
designated National Historic Landmarks and Raymond is listed on the 
National Register of Historic Places. Threats to Port Gibson include 
the proposed widening of US Highway 61 which could threaten the eastern 
half of the battlefield. Commercial development along State Highway 18, 
which bisects the battlefield, could pose a threat to the Raymond 
Battlefield. As stated in the CWSAC report, ``with the exception of 
resources protected within the boundaries of Vicksburg National 
Military Park, most of the Vicksburg battlefield landscape has been 
destroyed by modern development.'' According to the Civil War Trust, we 
are losing one acre of hallowed ground every hour of every day to 
sprawl in rural towns and urban suburbs.
    In addition to the historic integrity and military significance of 
these battlefields to the Vicksburg Campaign, the protection of these 
lands as part of the national park is of economic importance to the 
rural community of Raymond. On April 5, 2011, I had the honor of 
touring Raymond Battlefield and Champion Hill with Brigadier General 
Parker Hills (Ret.) to learn more about the proposed sites for addition 
to Vicksburg National Military Park. I also met with Mayor Isla Tullos 
who showed me the town's new Visitor Center, located appropriately in 
the same building as the Chamber of Commerce. She was hopeful about the 
tourism potential of the upcoming Civil War Sesquicentennial and saw a 
tremendous opportunity for Raymond to build business based on the 
historic character of the town by attracting visitors interested in 
learning more about the battle and the people of Raymond during those 
days leading up to the Siege of Vicksburg.
    The Mayor of Raymond has every reason to be optimistic about the 
economic future of her rural community if this legislation is passed. 
On average, national parks generate $4.00 in value for every tax dollar 
invested in them. They support $13.3 billion in private sector activity 
and provide jobs to 267,000 people across America. If Raymond 
Battlefield is added to Vicksburg National Military Park, local 
businesses would certainly benefit as Raymond is positioned to receive 
nearly 1 million visitors a year.
    After visiting Raymond Battlefield and Champion Hill with General 
Hills, I was very eager to learn more about the events leading up to 
the Siege of Vicksburg, General Pemberton's surrender, and the impact 
these events had in connection with Gettysburg and the outcome of the 
war. I was hooked on Civil War history in Mississippi having been to 
that place where history happened. I even made a personal connection 
through the National Park Service's Civil War Soldiers and Sailors 
system where I learned about an ancestor who fought at Chickasaw Bayou, 
Big Black River Bridge, and Vicksburg. My curiosity had been sparked by 
a story I'd heard from the Battle of Raymond. The story was of Irish 
immigrants from St. Louis, `the son's of Ireland', fighting under the 
Confederate leadership of Colonel McGavock, a past mayor of Nashville, 
Tennessee. Imagine the anguish of Confederate and Union troops as they 
met in battle with flags emblazoned with golden harps, the symbol of 
Ireland.
    Ensuring today's and tomorrow's National Park visitors can learn 
from the places where history happened is a key objective for NPCA 
during the Civil War's 150th Anniversary years 2011-2015. Beyond 
military tactics and the personalities of famous fascinating generals, 
NPCA seeks to shed light on the causes and consequences of the Civil 
War as well as upon the acts of heroism on both sides of the conflict.
    I appreciate the opportunity to present this statement on behalf of 
the National Parks Conservation Association. Our mission is to preserve 
and protect America's National Parks for future generations. Since 
1919, NPCA has been the leading voice of the American people working to 
protect our national parks and historic landmarks from Yellowstone to 
Gettysburg. Our 350,000 members across the country, including the 1,373 
members in the State of Mississippi, are everyday Americans who want to 
preserve our land and historical sites for our children and 
grandchildren.
                                 ______
                                 
                                           Civil War Trust,
                                     Washington, DC, July 27, 2011.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Energy and Natural 
        Resources Committee, 304 Senate Dirksen Office Building, 
        Washington, DC.
    Dear Chairman Udall, Ranking Member Paul and Members of the 
Subcommittee:

    On behalf of the national nonprofit Civil War Trust, we are writing 
in strong support of S. 265, the Champion Hill, Port Gibson, and 
Raymond Battlefields Addition Act. This legislation would authorize a 
boundary adjustment to the Vicksburg National Military Park in the 
State of Mississippi to include lands at the Champion Hill, Port Gibson 
and Raymond Battlefields, three battles associated with Major General 
Ulysses S. Grant's Operations against Vicksburg in 1863.
    Today the National Park Service interprets and protects 1,800 acres 
in Mississippi that commemorate the campaign, siege, and defense of 
Vicksburg. The inclusion of the Champion Hill, Port Gibson and Raymond 
battlefields in the Park's authorized boundary will create 
opportunities for visitors to access these significant Civil War 
landscapes and resources allowing the Park to convey a more 
comprehensive Civil War story.
    In the spring of 1863, Grant, with orders to eliminate the 
Confederate resistance in the Mississippi Valley, launched his march on 
Vicksburg. Along the way, Grant's forces engaged and defeated 
Confederate forces at Port Gibson, Raymond, and Champion Hill. On July 
4, 1863, Confederate Lieutenant General John C. Pemberton, surrendered 
the city of Vicksburg after prolonged siege operations. This was the 
culmination of one of the most brilliant military campaigns of the war. 
With the loss of Pemberton's army and the vital stronghold on the 
Mississippi, the Confederacy was effectively split in half. Grant's 
successes in the West boosted his reputation, leading ultimately to his 
appointment as General-in-Chief of the Union armies.
    It is worth noting that all three battlefields, along with the 
Vicksburg Battlefield, were recognized as nationally significant 
historic resources in a 1993 Congressional study on the status of the 
nation's Civil War battlefields conducted by the Civil War Sites 
Advisory Commission. In addition, Champion Hill and Port Gibson are 
designated National Historic Landmarks and Raymond is listed on the 
National Register of Historic Places.
    The Civil War Trust has preserved more than 30,000 acres of 
hallowed ground throughout the United States, including more than 3,300 
acres of battlefield lands in Mississippi. We are in a race against 
time to protect these historically-significant battlefield lands for 
future generations because about 30 acres of hallowed ground is lost 
each day to development.
    In conclusion, we applaud Senators Thad Cochran and Roger Wicker 
for their leadership on this important piece of legislation. The Civil 
War Trust fully supports the passage of S. 265 to modify the boundary 
of the Vicksburg National Military Park. With the Civil War's 
sesquicentennial anniversary in full swing, Congressional approval and 
enactment of this boundary expansion legislation during the 112th 
Congress would appropriately commemorate this chapter of America's 
history.
    Thank you for your consideration of this important piece of 
legislation.
            Sincerely yours,
                                          John L. Nau, III,
                                                 Chairman Emeritus.
                                            Jim Lighthizer,
                                                         President.
                                 ______
                                 
                        Department of the Interior,
                                     National Park Service,
                                    Washington, DC, August 2, 2011.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 304 
        Dirksen Senate Office Building, Washington, DC.
    Dear Mr. Chairman:

    I am pleased to report to you the findings of the National Capital 
Memorial Advisory Commission (Commission) which met on. June 23, 2011, 
to review S. 253 and S. 883, two bills now under consideration by your 
Committee. The Commission was established under the Commemorative Works 
Act of 1986 (40 U.S.C. 89, et. seq.). This letter is intended to 
fulfill the requirements of Section 8903(d) of that Act, which states 
that the Congress shall solicit the views of the Commission in 
considering legislation authorizing commemorative works within the 
District of Columbia and its environs.

          (b) S. 253, a bill to establish a World War I National 
        Memorial Commission and reestablish the District of Columbia 
        World War Memorial as the National World War I Memorial.

    The Commission considered testimony from Congressman Ted Poe, Edwin 
Fountain, Director, World War 1 Memorial Foundation, Joseph Grano, 
President of the Rhodes Tavern-D.C. Heritage Society, Nelson 
Rimensnyder, Historian of the Association of the Oldest Inhabitants of 
the District of Columbia, and William Brown, President of the 
Association of the Oldest Inhabitants of the District of Columbia.
    The Commission recognized that the District of Columbia World War 
Memorial has a unique significance to the citizens of the District of 
Columbia and recommends that this memorial not be reestablished as a 
national memorial. The Commission noted that memorials can achieve 
prominence and high visitation without being located directly on the 
Mall, and recognized that the Memorial to General Pershing and the 
fighting forces in World War I was authorized by the Congress and built 
by the American Battle Monuments Commission on Pennsylvania Avenue as 
the national memorial to World War I. The Commission discussed Mr. 
Grano's and Mr. Rimensnyder's recommendations that the site, design, 
and national character of this memorial could better support the 
enhancements intended by S. 253. The Commission concluded that 
enhancements intended to provide a greater commemoration of World War I 
may be better suited at the National World War I Memorial in Pershing 
Park, but cautioned that the modification of the existing memorial in 
Pershing Park was not within the scope of S. 253 and should not be 
explored or recommended within the scope of the Commission's evaluation 
of S. 253.

          S. 883, a bill to authorize the National Mall Liberty Fund 
        D.C. to establish a memorial on Federal land in the District of 
        Columbia to honor free persons and slaves who fought for 
        independence, liberty, and justice for all during the American 
        Revolution.

    The Commission considered testimony provided by Senator Joseph 
Lieberman, sponsor of S. 883, and Maurice Barboza, founder of the 
National Mall Liberty Fund D.C.
    The Commission noted that S. 883 would direct that the memorial be 
located within Area I without benefit of public participation or the 
participation of the Secretary of the Interior, both of which were 
actions that cannot be sanctioned under the Commemorative Works Act. 
This direction contradicts the site approval authority provided to the 
Secretary, the National Capital Planning Commission (NCPC) and the 
Commission of Fine Arts (CFA) under the Commemorative Works Act.
    The Commission recommends its support for S. 883, provided that it 
is brought into conformance with the Commemorative Works Act by 
deleting the word ``preeminent'' in Section 1, and the reference to 
Area I in Section 2(A)(i). Should the Congress enact this proposal into 
law and the National Mall Liberty Fund DC seek Area 1 designation, the 
Commission would welcome the opportunity to assist the Secretary of the 
Interior in considering the request, pursuant to Section 8908(b)(1) of 
the Commemorative Works Act.
    I would be pleased to answer any questions or to provide further 
information if you so desire.
            Sincerely,
                                       Peter May, Chairman.
                              National Capital Memorial Commission.
  Statement of Jim Stratton, Alaska Regional Director, National Parks 
                  Conservation Association, on S. 1063
    The National Parks Conservation Association (NPCA) works to 
protect, preserve, and enhance America's national parks for present and 
future generations. On behalf of NPCA's 335,000 members, and especially 
the national parks in Alaska, we appreciate the opportunity to submit 
these comments for the record.
    The National Parks Conservation Association supports S. 1063, a 
bill to authorize the Secretary of the Interior to allow the collection 
of glaucous-winged gull eggs in Glacier Bay National Park by members of 
the Hoonah Indian Association. This bill will help connect the Huna 
Tlingit to their ancestral homeland. Gathering gull eggs is a 
traditional practice that enhances physical, cultural and spiritual 
well being. NPCA understands these values and is supportive so long as 
egg collecting is done in a manner that does not significantly impact 
the natural resources of Glacier Bay.
    While NPCA is concerned that egg harvest could impact the gull 
population, we are reasonably confident that collection can be done 
with minimal effects. Glacier Bay contains a healthy population of 
glaucous-winged gulls, and if gathered at the right time of year, most 
gulls will lay a second clutch of eggs. Many years of studies have been 
conducted and they conclude that egg harvest can occur with only minor 
impacts.
    Also important is that no other park resources are adversely 
impacted by the egg collecting. Of special concern are Steller sea 
lions and other nesting sea birds. The primary location where egg 
collecting will occur is South Marble Island, which contains the 
largest sea lion rookery in Glacier Bay proper. Most sea lions in 
Glacier Bay belong to the eastern stock which was listed as 
``threatened'' in 1990, and some also belong to the western stock, 
listed as ``endangered'' in 1997. Many other birds (such as terns, 
kittiwakes, oystercatchers, puffins and cormorants) nest in the same 
locations as gulls. However with careful collecting techniques (as 
outlined in the May 2010 environmental impact statement) we believe 
gathering can occur with minimal disturbance to sea lions and other 
nesting sea birds.
    Key to the success of authorizing the Huna Tlingit to collect eggs 
in one of our country's premier national parks is creation of careful 
collection methods followed by diligent monitoring. It is important 
that the National Park Service sets dates, locations, group size, and 
other conditions to ensure collecting is done in a manner that least 
impacts gulls, other sea birds, Steller sea lions and other park 
resources. Equally important is that monitoring occurs to ensure no 
unforeseen consequences occur. Because the National Park Service will 
prepare an annual harvest plan and follow up with monitoring, we are 
confident the Huna Tlingit can return to this cultural tradition while 
park resources continue to be protected for future generations.
    In summary, NPCA supports this legislation for the following 
reasons:

  <bullet> Gathering gull eggs in Glacier Bay enhances important 
        traditional cultural ties for the Huna Tlingit
  <bullet> Glaucous-winged gulls are common in the park
  <bullet> If gathered at the right time, most gulls relay their eggs
  <bullet> Studies have determined the overall population of gulls will 
        not be impacted by carefully conducted egg collection
  <bullet> A harvest plan will be developed annually to set conditions 
        to minimize impacts
  <bullet> Monitoring will ensure no long term impacts take place to 
        gulls, other sea birds, Steller sea lions or other park 
        resources
  <bullet> If unacceptable impacts do occur, egg collection methods 
        will be adjusted

    Thank you for the opportunity to comment.
                                 ______
                                 
                 Statement of Barbara Ullian, on S. 764
    Thank you for the opportunity to submit a personal statement in 
support of the Chetco River Protection Act, S.764, and for holding a 
hearing for it on July 28th, 2011. I'd also like to thank Senators Ron 
Wyden and Jeff Merkley for introducing the legislation and Congressman 
Peter DeFazio for introducing it in the House of Representatives. My 
name is Barbara Ullian. I've lived and worked in Southwest Oregon since 
1947. Over the years I've photographed, rafted and grown to love and 
know the wild rivers and watersheds of what has become known as the 
Wild Rivers Coast.
                                summary
    A plan to mine about 20 miles of the National Wild and Scenic 
Chetco River was submitted to the Rogue River-Siskiyou National Forest 
in 2008. The instream mining proposal threatens the river and the 
nationally outstanding values that Congress sought to protect in 1988, 
when it added the Chetco to the National Wild and Scenic River System. 
The Siskiyou National Forest's 1993 Management Plan for the Wild and 
Scenic Chetco River recommends that Congress upgrade the classification 
of a two-mile river segment, between Boulder Creek and Mislatnah Creek, 
from ``Scenic'' to ``Wild.'' ``Wild'' River segments are automatically 
withdrawn from operation of the mining laws under the Wild and Scenic 
Rivers Act. However, the recommendation, along with a second 
classification change, was never forwarded to Congress. The ``Scenic 
River Area'' of the Chetco was also recommended for withdrawal but the 
Forest Supervisor chose not to pursue the withdrawal because the area 
had low mineral potential and at the time a low probability that the 
existing mining claims would be developed into mining operations. 
Forest Supervisor rejected the mineral withdrawal in 1993 because there 
was no threat of mining. The Chetco River Protection Act is based on 
the Forest Service's recommendations that have undergone public review 
and comment as per the National Environmental Protection Act.
                                location
    The National Wild & Scenic Chetco River is one of three 
Congressionally designated Wild and Scenic Rivers that flow through an 
approximately 400,000 acre complex of designated Wilderness and 
adjacent inventoried roadless areas known as the Kalmiopsis Wildlands. 
It lies between lies between the National Wild and Scenic Illinois 
River and the National Wild and Scenic Smith River. The Chetco River 
flows undammed from its headwaters to the Pacific Ocean at Brookings, 
Oregon. It's entirely in Curry County.
                         the new mining threat
    With the rise in the price of gold and the advent of so-called 
recreational gold mining, the low mineral potential of the Chetco no 
longer protected it from mining. The primary threat lies in 8 plans to 
mine about 20 miles of the Wild and Scenic Chetco River submitted to 
the Rogue River-Siskiyou National Forest beginning in 2008.\1\ The 
mining is on existing claims. It begins deep inside the Kalmiopsis 
Wilderness, continues down the ``Wild'' segment to where the Chetco 
River leaves the Wilderness and then down the ``Scenic'' and 
``Recreational'' segments almost to the Forest Boundary. Additional 
mining claims were located in 2009 through 2010. Some may be located 
over the top of existing claims.
---------------------------------------------------------------------------
    \1\ The proposed mining is mostly instream with suction dredges. 
The dredges float on pontoons over the water. Powered by gasoline 
engines, they suck up the streambed like a giant vacuum. The bed 
material is run through a sluice and deposited behind the dredge in 
unconsolidated tailings piles. The size and amount of streambed 
material that can be processed is determined by size of the intake 
nozzle and engine of the dredge. Volkswagen engines can be used. Fuels 
are often stored along stream banks and dredges refueled over the 
water.
---------------------------------------------------------------------------
                    why greater protection is needed
    The Forest Service's position regarding the mining proposed for the 
Chetco River is that, ``absent an official mineral withdrawal, [they] 
cannot prohibit location, entry, or any other operation under the 
mining law'' and that mining can occur whether or not claims are 
valid.\2\
---------------------------------------------------------------------------
    \2\ Rogue River-Siskiyou National Forest's June 17, 2008 response 
to Chetco River Mining and Exploration's (CRME) notice of intent to 
mine 19 miles of the National Wild and Scenic Chetco River outside the 
Kalmiopsis Wilderness.
---------------------------------------------------------------------------
    The mining plans for the Wild and Scenic Chetco River includes 
using a variety of different sized gasoline-powered suction dredges 
(which harm streambeds) and ``highbankers,''\3\ (which harms riparian 
areas along the streams). Proposed access in Wilderness and Wild River 
Areas includes the use of helicopters.
---------------------------------------------------------------------------
    \3\ A highbanker is gold mining equipment that employs (usually) a 
gasoline powered pump to force water through a sluice box to separate 
gold from soil taken from riparian areas and uplands.
---------------------------------------------------------------------------
            the forest service's recommendation to congress
    The Forest Supervisor's 1993 Decision for the Chetco's Wild & 
Scenic Management Plan includes the following direction:\4\
---------------------------------------------------------------------------
    \4\ USDA Forest Service, 1993. Decision Notice and Finding of No 
Significant Impact, Chetco Wild and Scenic River Management Plan 
Environmental Assessment, Forest Plan Amendment No. 6, Curry County, 
Oregon, Siskiyou National Forest, Chetco Ranger District, pp. 40-41.

          The Forest Service is recommending to Congress that the Wild 
        segment be extended approximately 2 miles downstream from the 
        existing designation at Boulder Creek to the confluence of 
        Mislatnah Creek. This 2 mile addition shall be managed as Wild 
        until Congress acts on the Forest Service recommendation.\5\
---------------------------------------------------------------------------
    \5\ The Forest Supervisor's Decision states: ``My selection of 
Alternative II will initiate a recommendation from the Forest Service 
to Congress that the Wild segment end at Mislatnah Creek. This is an 
extension of the original Congressional designation by two miles. This 
is my preference because the two mile segment of river from Boulder 
Creek to Mislatnah Creek is remote and accessible only by trail; is 
entirely free of impoundments, diversions, or other alternation; and 
has high water quality and shorelines which are essentially primitive. 
All these criteria meet the definition of a Wild River segment. A 
similar statement is made in the Decision regarding the extension of 
the Scenic segment.''
---------------------------------------------------------------------------
          The Forest Service is recommending to Congress that the 
        Scenic segment be extended approximately 1.5 miles downstream 
        from the existing designation at the Steel Bridge to the 
        confluence of Eagle Creek. This 1.5 mile addition [to the 
        Scenic segment of the Chetco] shall be managed as Scenic until 
        Congress acts on the Forest Service recommendation.

    The Chetco Wild & Scenic Management Plan Environmental Assessment 
also recommended that the ``Scenic'' segment of the river be withdrawn 
from future mineral entry.\6\ The Forest Supervisor chose not to pursue 
recommended withdrawal stating:
---------------------------------------------------------------------------
    \6\ USDA Forest Service 1993. Environmental Assessment for the 
Chetco Wild and Scenic River Management Plan, USDA Forest Service 
Siskiyou National Forest, p. 17.

          . . .  it would be impractical to recommend mineral 
        withdrawal on an area that has low mineral potential and low 
        probability of existing claims being developed into mining 
        operations.\7\
---------------------------------------------------------------------------
    \7\ Ibid. 43.

    However, on the recommendation of the Forest Service, the 
Department of Interior has proposed withdrawing about 17 miles of the 
Chetco River, outside the Kalmiopsis Wilderness, for five years, 
through the authority granted the Secretary of Interior in the Federal 
Land Management and Policy Act. The Federal Register Notice beginning 
the temporary segregation of the river from the Mining Law was 
published on August 1, 2011, a little more than a year after the Forest 
Service announced it would recommend a five year withdrawal to the 
Bureau of Land Management for the purposes of aiding Congress in their 
consideration of the Chetco River Protection Act.
 how s.764 would help protect and enhance the outstandingly remarkable 
                       values of the chetco river
    The Wild & Scenic Rivers Act (WSRA) requires that designated rivers 
be administered in such a manner as to protect and enhance the values 
which caused it to be included in the Wild & Scenic River System.\8\ 
The guidelines for the designation and management of National Wild & 
Scenic Rivers, issued by the Secretaries of Interior and Agriculture in 
1982, confirm that the Act codifies a nondegradation and enhancement 
policy regardless of river classification.\9\
---------------------------------------------------------------------------
    \8\ 16 USC Sec.  1281 (a).
    \9\ 47 Fed. Reg. 39454 (Sept. 7, 1982).
---------------------------------------------------------------------------
    While the ``protect and enhance'' standard applies equally to river 
segments classified as ``Scenic'' or ``Recreation,'' only a river 
segment classified as ``Wild'' is automatically withdrawn (upon 
Congressional designation) from all forms of mineral development 
(subject to valid existing rights).\10\ To fulfill the nondegradtion 
mandate of the WSRA, the areas of the National Wild & Scenic Chetco 
River, classified as ``Scenic'' and ``Recreational'' should also be 
withdrawn from operation of the Mining Law.\11\
---------------------------------------------------------------------------
    \10\ 16 USC Sec.  1280 (a)(iii).
    \11\ Terry S. Maley, in ``Mineral Law'' (Sixth Edition, p. 91) 
defines ``withdrawal'' as ``. . . withholding an area of Federal land 
from settlement, sale, location, or entry under some or all of the 
general land laws, for the purpose of limiting activities under those 
laws in order to maintain other public values in the area or reserving 
the area for a particular public purpose or program.''
---------------------------------------------------------------------------
    There is precedent for this. Congress, in designating other 
additions to the National Wild and Scenic Rivers System, has seen fit 
to include specific language, amending the WSRA, that also withdraws 
designated stream segments classified as ``Scenic'' and 
``Recreational.''\12\
---------------------------------------------------------------------------
    \12\ ``16 USC Sec. 1274(a)(62)(B)(ii) (Merced River, CA) and 16 USC 
Sec. 1274(a)(109) (East Fork Jemez River, NM).
---------------------------------------------------------------------------
    When a river area is withdrawn from mineral entry, no new mining 
claims can be located within it and existing claims can be exploited/
mined only if the claim is found to be valid. A valid claim is one on 
which the discovery of a valuable mineral deposit can be demonstrated 
on the date of withdrawal and one which meets all requirements of the 
law at the time of the hearing.\13\ The claimant cannot conduct mining 
activities to make a discovery after the date of withdrawal.\14\
---------------------------------------------------------------------------
    \13\ Id. at p. 106.
    \14\ Id at p. 109.
---------------------------------------------------------------------------
    Validity is determined through a process that includes mineral 
examination in the field, a mineral report and recommendation on 
whether the claim is valid or not. If the claim is found not to be 
valid, a claim contest proceeding is initiated in accordance with due 
process. Existing claims found to be invalid are terminated, no mining 
can occur and no new mining claims can be filed in the area.\15\
---------------------------------------------------------------------------
    \15\ Id. at p. 107.
---------------------------------------------------------------------------
    Claim validity is determined by the ability of the claimant to show 
a profit can be made after accounting for all costs, including 
compliance with federal and state laws (including the nondegradation 
standard of the WSRA).\16\ Mining in areas which require helicopter 
access (Wilderness and ``Wild'' river segments) will also result in 
high mining costs and this can affect claim validity.
---------------------------------------------------------------------------
    \16\ Great Basin Mine Watch, 147 IBLA 248,256 (1998).
---------------------------------------------------------------------------
    The result of the requirement to determine whether an existing 
mining claim is valid could be that no mining occurs, thereby 
protecting the ``outstandingly remarkable values'' for which the stream 
segment was included in the National Wild & Scenic Rivers System. \17\
---------------------------------------------------------------------------
    \17\ While mineral withdrawal is a clumsy method to protect 
nonmineral values from mining activity, its all there currently is on 
National Forest lands. This is because Congress has failed to provide 
meaningful reform of the 136 year old Mining Law and second, because of 
the timidity of the Forest Service in challenging mining operations. 
While the 1872 Mining Law grants a claimant the right to mine public 
lands, this right is strictly derivative of the ``discovery of a 
valuable mineral deposit.'' However, the Forest Service's policy is to 
simply assume the right to mine exists, unless an area is withdrawn 
from mineral entry. It's withdrawal that triggers examination of claim 
validity. For a discussion on this see John D. Leshy, ``The Mining Law: 
A Study in Perpetual Motion,'' Resources for the Future 1987.
---------------------------------------------------------------------------
    Another result, if a few of the claims are valid, will be less 
extensive mining than had the valid existing rights determination not 
been done. Additionally, in some cases, such as Rock Mesa in the Three 
Sisters Wilderness (1983) and Taggart's Bar in the Kalmiopsis 
Wilderness (1999)\18\, Congress has appropriated money from the Land 
and Water Conservation Fund to buyout the valid claims and protect the 
area from mining. Absent an official mineral withdrawal, the Forest 
Service's policy is that they have no authority to prohibit location, 
entry, or any other operation under the Mining Law.\19\
---------------------------------------------------------------------------
    \18\ During the process of the buyout of the patented Chetco River 
claim at Taggarts Bar in 1999, the owner of the claim agreed to 
terminate all the additional existing mining claims he held in the 
Kalmiopsis Wilderness. These existing claims spanned over 2,000 acres, 
mostly along the National Wild & Scenic Chetco River. Because the 
Kalmiopsis Wilderness is withdrawn from mineral entry, no new claims 
can be filed and no mining can occur on the 2,000 acre or the Chetco 
River claim.
    \19\ Rogue River-Siskiyou National Forest's June 17, 2008 response 
to Chetco River Mining and Exploration's notice of intent to mine 
outside the Kalmiopsis Wilderness.
---------------------------------------------------------------------------
   why the stream beds and banks of world class salmon and steelhead 
                       rivers should not be mined
    The bed of a river is not the lifeless assortment of rock and 
gravel that proponents of suction dredge mining would have you believe. 
Rather, streambeds are complex and sensitive ecosystems--essential to 
the health of the river and for native fish reproduction. Suction 
dredge mining in wild salmon and steelhead habitat is like using a 
bulldozer to rearrange a hospital's maternity wing.
    Salmon and steelhead return from their long journey at sea to spawn 
in the vicinity of where they themselves were born. They select 
relatively flat, stable areas of the stream to lay their eggs. These 
high-value reaches are limited in number and extent within a river 
system. Exacting conditions are required for successful reproduction. 
The spawning gravels must be the right size for the female to dig her 
nest with her tail. The nests are called redds. The surrounding 
streambed must be stable. Movement of the streambed during high flows, 
even some distance from the redd, will destroy the redd and smother or 
crush the developing eggs and alevins (tiny hatchlings) or cause them 
to be washed out of the shelter of the redds.
    The eggs hatch in one to three months. The alevins remain in the 
gravels for one to five months more. The flow of water within the redd 
must be enough to provide adequate oxygen to the eggs and alevins but 
not so high as to wash them from the protection of their nursery. 
Emergence and survival are also dependent on suitable water 
temperatures.
    The stability and structure of a stream's bed comes about through a 
process occurring over numerous seasons of high flows. The different 
sized bed material--rock, gravel and fines--is sorted by the river's 
hydraulics into stable configurations with an armoring layer. 
Unfortunately, high-value, low gradient spawning reaches also attract 
miners because it's where gold often settles out between the bed rock 
and streambed gravels. The mining destroys the stream's armoring layer 
and the order and stability crucial to naturally reproducing fish. 
Directly or indirectly, the mining can be deadly to salmonids and other 
aquatic species.
    Preserving relatively pristine fresh water refugia--such as the 
National Wild and Scenic Chetco River--is essential to assuring the 
survival of declining wild salmon, steelhead and cutthroat trout 
populations in this era of deteriorating ocean conditions and global 
climate change. Thank you for this opportunity to provide a statement 
in support of S.764.
                                 ______
                                 
                Statement of Michael Dombeck, on S. 764
    Thank you for the opportunity to submit testimony in support of S. 
764, the Chetco River Protection Act. I served as chief of the U.S. 
Forest Service and director of the Bureau of Land Management (BLM). I 
have professional expertise in watershed restoration, fisheries and 
ecosystem management. I'm a former fishing guide, and still an avid 
hunter and fisherman.
    I'm pleased to write on behalf of this legislation and the 
exceptional river it seeks to provide greater protection for. S. 764 is 
based on recommendations made by local Forest Service managers through 
a public National Environmental Policy Act process. Senator Wyden, 
Senator Merkley and Congressman DeFazio are to be commended for taking 
it to the next step, adapting the recommendations to the current 
situation and introducing legislation. In the interim, to preserve the 
status quo while Congress considers the bill, the Department of 
Interior, Bureau of Land Management has proposed withdrawing the Scenic 
and Recreational segments of the Chetco River on the recommendation of 
the Forest Service, the land managing agency.
    The Chetco River is one of those priceless national assets that 
protected will only grow in importance to the local community and as a 
part of the natural heritage of all Americans. It flows, without the 
impediment of dams, from its headwaters in Wilderness through the Rogue 
River-Siskiyou National Forest to the Pacific Ocean. It's famous for 
its large salmon and steelhead, some of the largest in Oregon, with 
reports of Chinook salmon weighing over 60 pounds.
    The high percentage of National Forest and Wilderness lands in its 
watershed, populations of native, naturally reproducing salmon, 
steelhead and cutthroat trout and its free flowing state presents 
opportunities for the Chetco to serve as a wild salmon refuge--rare in 
the lower 48 states. Yet the heart of all this, the river itself, is 
threatened by proposals to mine almost half its length using gasoline 
powered suction dredges for a period of 10 years. The impacts are 
likely to be profound on water quality, recreation opportunities, and 
the salmon resources.
    Jack Ward Thomas, my predecessor at the Forest Service, is often 
quoted as saying ``not only are ecosystems more complex than we think, 
they are more complex than we can think.'' As a fisheries biologist and 
ecosystem manager, I believe this especially applies to stream 
ecosystems. As someone who has a spent a lifetime observing rivers--
often hip deep in their rushing waters, with a fishing rod in hand, 
studying their flow, insect hatches and finned inhabitants--I know it 
to be true.
    The only peer reviewed review of the effects of suction dredge 
mining on streams urges caution saying, ``fisheries managers would be 
prudent to suspect dredging is harmful to aquatic resources.''\1\ The 
National Wild and Scenic Chetco River (or any other Wild and Scenic 
River or river with nationally outstanding fisheries, water quality and 
other values) is simply not the place for instream mining, which will 
add stressors and impacts to an ecosystem already having to adapt to 
increasingly rapid changes and instability in climate and ocean 
conditions.
---------------------------------------------------------------------------
    \1\ Bret C. Harvey & Thomas E. Lisle, ``Effects of Suction Dredging 
on Streams: A Review and an Evaluation Strategy,'' in Fisheries, Vol. 
23, Issue 8, 1998--http://www.tandfonline.com/doi/abs/10.1577/1548-8446 
percent281998 percent29023 percent3C0008 percent3AEOSDOS 
percent3E2.0.CO percent3B2
---------------------------------------------------------------------------
    In 2008, I testified before the Senate Energy and Natural Resources 
Committee on reform of the Mining Law of 1872. I was asked to comment 
on five very important questions about the types of environmental 
reforms needed to modernize this law. Two of these are relevant to the 
issues facing the Chetco River today. Currently professional land 
managers that work for the Forest Service and BLM believe that the 1872 
Mining Law makes hard rock mining the dominant use of public lands. So 
Forest Service managers, charged with ``protecting and enhancing'' the 
outstandingly remarkable values of the Chetco River, under the National 
Wild and Scenic Rivers Act, are caught between the Mining Law and 
Congress' mandate to preserve the Chetco's exceptional water quality, 
fisheries and recreation values (the opportunity to catch large salmon 
and steelhead in a natural setting).
    In that testimony, I wrote that mining reform legislation needs to 
``reaffirm the doctrine of multiple-use and recognize the inherent 
value of public lands for other important uses and values, including 
hunting and fishing opportunities and fish and wildlife habitat'' and 
that ``special places with important fish and wildlife and water values 
out to be placed off-limits to mining entirely.'' One of the most 
important tools for achieving this is for ``agency managers [to] be 
given the discretion to make logical decisions based on land health 
about where to mine and where not to mine.'' However, we're not talking 
about Mining Law reform here but about site specific legislation 
needed--in the absence of reform--to best protect and enhance the 
values which Congress sought to preserve when it added 44.5 miles of 
the Chetco River to the National Wild and Scenic River System in 1988.
    S. 764 may not be perfect in achieving this mandate because its 
withdrawal provisions are ``subject to valid existing rights.'' If the 
holders of existing mining claims demonstrate that there's a discovery 
of a valuable mineral deposit within the confines of each claim--in 
other words that there's a valid existing right to mine under the 1872 
Mining Law--then under current agency policy, land managers have no 
authority of deny the mining. However without withdrawal, the managing 
agency simply assumes that the mining claims are valid under law. This 
makes mining the dominant use, even though the 1872 Mining Law may not 
apply. This is not acceptable for a national wild and scenic river like 
the Chetco. So until there's meaningful reform of the Mining Law, S. 
764 will at least require that there's a valid right under the Mining 
Law before mining can commence and it will prevent the location of new 
mining claims.
    Under the 1872 Mining Law, any gold found in the Wild and Scenic 
Chetco River belongs to the miner. Mine operators pay no royalties for 
the gold or other valuable mineral found on the public's lands. In 
Oregon, unpatented mining claims are not taxable property.\2\ In fact, 
the proposed mining of the Chetco would be subsidized by the taxpayer. 
For example in 2010, the Rogue River-Siskiyou National Forest estimated 
that it would cost about $800,000 to process seven of the plans 
submitted to mine the river.
---------------------------------------------------------------------------
    \2\ http://www.leg.state.or.us/ors/307.html
---------------------------------------------------------------------------
    Finally, while I'm a biologist and former professor living in 
Wisconsin, the connectivity of the internet has allowed me to virtually 
experience the Chetco River through the adventures of five young people 
who epitomize what President Obama seeks achieve in his America's Great 
Outdoor policy. In June, four kayakers packed their boats and gear 8 
grueling miles and two days into the Chetco River canyon, deep in the 
Kalmiopsis Wilderness, to run both Wilderness reaches and almost 
equally wild segments of the river subject to the Chetco River 
Protection Act--bringing back photographs and video for the rest of us. 
They said they wanted ``to raise awareness about how rare and special 
this river is.''\3\ Then in a solo, also one-of-a-kind journey, a local 
Brookings, Oregon man packed a small raft and supplies for 10 days into 
the very headwaters of the Chetco and ran the river's entire 50 mile 
length to the Pacific. When asked why he did it, he said the Kalmiopsis 
Wilderness which the Chetco passes through is ``a vast and rich natural 
area that belongs to all of us--the source of the river that gives life 
to the area we call home.''\4\ A float of the Recreational section of 
the Chetco in drift boats--captured in a video sponsored by local 
businesses, individuals and the Chetco Watershed Council--shows a tamer 
but equally beautiful side of the river and some of the reasons its so 
important to the local community.\5\
---------------------------------------------------------------------------
    \3\ Medford Mail Tribune,''Clearer than crystal: Local men carry 
kayaks though hardscrabble wilderness to ride the rarely seen upper 
Chetco River,'' July 22, 2011--http://www.mailtribune.com/apps/
pbcs.dll/article?AID=/20110722/LIFE/107220301
    \4\ Curry Coastal Pilot, ``Chetco River: From headwaters to the 
sea,'' August 2, 2011--http://www.currypilot.com/20110802118255/News/
Local-News/Chetco-River-From-headwaters-to-the-sea
    \5\ Floating the Chetco--http://www.vimeo.com/24964697
---------------------------------------------------------------------------
    The National Wild and Scenic Chetco River, its Wilderness watershed 
and its Scenic and Recreational sections embody the priceless legacy of 
America's great outdoors on many levels. It deserves the highest level 
of protection we can give it. Thank you for the opportunity to add my 
support to the Chetco River Protection Act.
                                 ______
                                 
                                           Trout Unlimited,
                                                    August 4, 2011.
    Trout Unlimited is the largest coldwater fisheries conservation 
group in the United States with over 140,000 members nationally and 
2,500 in Oregon who volunteer their time to help protect, reconnect and 
restore the habitat so crucial to our trout, salmon and steelhead 
populations.
    We write today to support S. 764, The Chetco River Protection Act 
of 2011, a bill recently reintroduced from previous efforts in 2008, to 
amend the Wild and Scenic Rivers Act to make technical corrections to 
the segment designations for the Chetco River, Oregon and to protect it 
and its prized fishery from in-stream mining--an activity that provides 
little economic value to surrounding communities but can severely harm 
salmon and steelhead fisheries. As avid anglers, maintaining healthy 
runs of the Chetco's runs of salmon and steelhead is of utmost 
importance to us as well as our children and grandchildren.
    The Chetco River was added to the National Wild and Scenic River 
System in 1988, in recognition of its outstanding water quality, superb 
fishery and tremendous angling opportunities for salmon and steelhead. 
The Chetco River is free flowing from its headwaters in the Kalmiopsis 
Wilderness to the Pacific Ocean. Of the 44.5 miles that were designated 
in the Oregon Omnibus Wild and Scenic Rivers Act, 25.5 miles were 
classified as ``Wild,'' 8 miles as ``Scenic,'' and 11 miles as 
``Recreational.''
    Only Wild-classified segments of a Wild and Scenic River are 
withdrawn from mineral entry under the Wild and Scenic Rivers Act of 
1968. The result is that no new mining claims may be filed and only 
valid existing claims may be mined in Wild river segments.
    The ``Scenic'' and ``Recreational'' classifications of the Chetco 
River remain open to the filing of new claims and mining on claims that 
may not be valid because these river areas are not ``withdrawn'' from 
mineral entry. Unfortunately outdated mining statutes leave land 
managers little option but to withdraw an area from mining if they wish 
to protect its fish, wildlife, and water values. Recently, a plan was 
submitted to the Rogue River-Siskiyou National Forest by Chetco River 
Mining & Exploration, LLC to establish a large-scale instream suction 
dredge mine on approximately 24 miles of the river. This mining 
threatens the river, its prized fishery and the outstanding values that 
Congress sought to protect in 1988.
    In 1993, the Forest Service partially addressed this problem when 
it made the decision to recommend to Congress a technical correction to 
the Wild and Scenic Rivers Act. The agency recommended upgrading the 
classification of 2 miles of the Chetco River from ``Scenic'' to 
``Wild.'' The classification change would withdraw two miles of river, 
currently classified as ``Scenic,'' from mineral entry, allowing mining 
only on valid existing claims. The Forest Service also recommended that 
1.5 miles of the ``Recreational'' segment be upgraded to ``Scenic.'' 
However, the recommendations were never forwarded to Congress.
    In the same year, the Siskiyou National Forest Supervisor turned 
down a staff recommendation to administratively withdraw the ``Scenic'' 
segment of the Chetco River from mineral entry. He justified rejecting 
this part of the Chetco's Wild and Scenic River management plan by 
noting there was a low probability of existing claims being developed. 
With current gold prices in the vicinity of $1,500 per ounce, the low 
possibility of developing mining claims has become a high probability, 
as evidenced by the new suction dredging proposal mentioned above.
    This is not the first time the Chetco River has been threatened by 
mining. In 1999, a bipartisan effort led by Senator Smith, with the 
support from Senator Wyden and Congressman DeFazio, prevented a mining 
proposal from moving forward in the Kalmiopsis Wilderness through the 
appropriation of funds to purchase 145 acres, which had recently been 
patented (for $2.50 per acre) under provisions of the1872 Mining Law. 
The 145-acre proposed mining site, along the Chetco, was returned to 
the Kalmiopsis Wilderness. In addition, 2,100 acres of unpatented 
Kalmiopsis Wilderness mining claims were relinquished by the claim 
holder. Both of these measures have benefited the public.
    Until Congress comprehensively reforms the 1872 Mining Law, current 
and future threats facing the Chetco River will continue. Supporting 
S.764--The Chetco River Protection Act of 2011 is the action needed to 
protect the important values that we cherish in this river and we 
applaud you for introducing it.
    On behalf of our organization and chapters and future generations 
of anglers, we thank you for your leadership and attention on this 
issue. We look forward to working with your office to ensure passage.
            Sincerely,
                    Mike Beagle, Sportsmen's Conservation Project-Trout 
                            Unlimited; Drew Irby, Chair, California 
                            Council-Trout Unlimited; Tom Wolf, Chair, 
                            Oregon Council-Trout Unlimited; Dick 
                            Hollenbeck, President, Clackamas Chapter-
                            Trout Unlimited; Karl Mueller, President, 
                            McKenzie-Upper Willamette Chapter-Trout 
                            Unlimited; Alan Moore, Pacific Salmon and 
                            Steelhead Office-Trout Unlimited; Mike 
                            Gentry, President, Tualatin Valley Chapter-
                            Trout Unlimited; Carl Page, President, Wild 
                            Rivers Chapter-Trout Unlimited.
                                 ______
                                 
                                                     July 26, 2011.

Hon. Mark Udall,
SH-317 Hart Office Building, Washington, DC.
    Dear Chairman Udall:

    I write to express strong concern over legislation pending in the 
U.S. House (H.R. 850) and the U.S. Senate (S. 1134) that would allow a 
fiscally-irresponsible and environmentally-damaging $700 million 
``mega-bridge'' to be constructed over the St. Croix River between 
Minnesota and Wisconsin--a segment of the river currently protected 
under the National Wild and Scenic Rivers System. A new bridge is 
needed to replace the obsolete lift bridge in Stillwater, Minnesota. 
However, more fiscally and environmentally responsible design 
alternatives are available. I urge you to give careful consideration to 
legislation that will allow construction of a bridge that is considered 
by many Minnesotans to be a boondoggle.
    This is a local issue with national consequences. While the 
language in H.R. 850 and S. 1134 is not identical, these bills would 
produce the same result. Both bills endorse and allow construction of a 
massive bridge design rejected by the National Park Service as having a 
``direct and adverse effect on the designated river.'' Because the 
proposed St. Croix bridge design is so intrusive, passage of either 
bill would set a dangerously low standard for exclusions to Wild and 
Scenic Rivers Act protections that threatens every mile of every 
protected river in this national system.
    In addition, I strongly oppose the proposed St. Croix River mega-
bridge out of concern for my constituents. I represent the communities 
with the most to lose from the current freeway-style bridge design. If 
the traffic projections being used to justify this mega-bridge are 
accurate, tens of thousands more cars and semi-trucks will spill into 
the Minnesota Highway 36 corridor and worsen traffic congestion for 
Oakdale, North St. Paul, Maplewood, Little Canada, and Roseville--all 
communities in my congressional district in which traffic levels are 
presently ``at capacity.'' Despite the extraordinary $700 million cost 
of the mega-bridge, none of these funds are available to build 
overpasses, add lanes, or otherwise mitigate the guaranteed traffic 
mess in these Minnesota Highway 36 communities.
    If this mega-bridge over the St. Croix is constructed, it will be a 
monument to fiscal irresponsibility. At a total cost of nearly $700 
million, the proposed St. Croix mega-bridge project will be at least 
250 percent more expensive than the most expensive bridge ever built in 
Minnesota. Following the tragic Minneapolis bridge collapse in August 
2006, the replacement I-35W Bridge over the Mississippi River in 
Minneapolis was built for $260 million--a modest cost compared to this 
mega-bridge.
    Here are other key facts highlighting the fiscal irrationality of 
the mega-bridge proposed in H.R. 850 and S. 1134:

  <bullet> Despite costing nearly 3 times more than the I-35W Bridge in 
        Minneapolis, the mega-bridge would serve 127,000 fewer vehicles 
        per day (I-35W Bridge: 145,000 ADT/St. Croix Bridge: 18,400 
        ADT);
  <bullet> The four-lane, freeway-style, $700 million bridge described 
        in H.R. 850 and S. 1134 would connect a town of 17,970 people 
        (Stillwater, MN) to a village of 400 people (Houlton, WI).
  <bullet> Only six miles from the proposed site of the $700 million 
        mega-bridge is the Interstate-94 St. Croix River Bridge 
        connecting Minnesota and Wisconsin, serving more than 80,000 
        vehicles per day;
  <bullet> The population growth assumptions used to justify the huge 
        cost and size of the bridge in H.R. 850 and S. 1134 are based 
        on 2005 data that does not account for the subsequent housing 
        market collapse and skyrocketing gas prices--the foreclosure 
        rate in the Wisconsin County adjacent to the proposed mega-
        bridge is the highest in that state.

    The Wild and Scenic Rivers Act is not a barrier to progress in the 
St. Croix River valley. In reality, the Act is the last protection for 
taxpayers against an irresponsible and over-sized boondoggle. I urge 
you to oppose H.R. 850 and S. 1134 if either bill comes before your 
committee for a vote. Feel free to contact me or my staff Peter Frosch 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5626332233247830243925353e163b373f3a783e3923253378313920">[email&#160;protected]</a>; 202-225-6631) for more information.
            Sincerely,
                                            Betty McCollum,
                                                Member of Congress.
                               attachment
                      CONGRESSWOMAN BETTY MCCOLLUM
                  Testimony in Opposition to H.R. 850
u.s. house natural resources committee subcommittee on national parks, 
                        forests and public lands
                              may 4, 2011
    Chairman Bishop, Ranking Member Grijalva, Members of the 
Subcommittee:

    Minnesota residents deserve a replacement for the existing, 
outdated lift bridge over the St. Croix River connecting Stillwater, MN 
to western Wisconsin. I strongly support a fiscally responsible, 
appropriately-scaled transportation solution for the St. Croix River 
crossing in Stillwater. There is consensus that a new bridge is needed. 
However, there is intense debate and controversy over the specific 
design and overall cost of the proposed replacement bridge that H.R. 
850 would permit. Therefore, this legislation can only be described as 
a stalking horse for an excessively expensive mega-bridge to be built 
only six miles from the existing eight lane Interstate-94 St. Croix 
River crossing.
    While this debate is new to most Members of Congress, it is a 
debate that I have been involved in throughout my twenty-five year 
career in public service. In fact, the St. Croix crossing has been 
discussed locally for thirty years. During that period, numerous bridge 
replacement proposals have come and gone. Be assured, passage of H.R. 
850 will not end debate or controversy over this proposed St. Croix 
crossing.
    Irrespective of the bridge proposal in question, this Committee 
should reject H.R. 850 as an unprecedented assault on one of the most 
successful laws to protect America's natural treasures. The Wild and 
Scenic Rivers Act preserves the nation's finest rivers for future 
generations. The Act protects 11,000 miles of 166 rivers in 38 states 
and the Commonwealth of Puerto Rico. Inclusion in this system is a 
highly selective distinction: protected rivers amount to one quarter of 
one percent of America's rivers. The St. Croix is the only river in 
Minnesota protected under the Wild and Scenic Rivers Act and gained 
this protection only after enormous effort from leaders such as former-
U.S. Senator and Vice-President Walter Mondale.
    Since the Act was passed in 1968, only extremely rare modifications 
have been granted by Congress. Passage of H.R. 850 would set a new, 
dangerously low standard for granting exemptions to the Wild and Scenic 
River Act that threatens every mile of every protected river in this 
national system.
    The legislation under review today capriciously ignores the legacy 
of stewardship that millions of Americans enjoy today because of the 
law. H.R. 850 uses only 41 words to end over 40 years of federal 
protection for the St. Croix River. Regretfully, the effect of this 
legislation would be far less economical than its language. This 
legislation would ``deem'' a $700 million bridge over the St. Croix 
River to be consistent with the Wild and Scenic Rivers Act. But in 
October 2010, after careful review, the National Park Service 
determined this specific bridge proposal was not consistent with the 
Act. H.R. 850 simply disregards the Park Service finding and states 
fiction as fact.
    If Congress were to take the extraordinary step of granting an 
exemption to the Wild and Scenic River Act, the bridge proposed in H.R. 
850 is not deserving of the precedent. This $700 million bridge 
proposal is excessively expensive and would likely impose huge unfunded 
costs on the communities I represent.
    Following the 2007 collapse of the Interstate 35 Bridge over the 
Mississippi River in Minneapolis, a new state-of-the art bridge was 
constructed in record time for $260 million (this figure includes a $27 
million contractor bonus for early completion). The bridge H.R. 850 
enables to be built would cost taxpayers nearly three times as much the 
Interstate 35W Bridge, but serve only a fraction of the traffic. 
(Currently, around 18,000 vehicles cross the St. Croix River in 
Stillwater each day.) In this time of record deficits at the federal, 
state and local level, elected leaders must carefully consider the 
value of every investment. The bridge in H.R. 850 fails every common-
sense test of taxpayer value.
    Closer inspection of the proposed St. Croix Bridge reveals the true 
costs of the project may be much higher. There has been little 
attention paid to the traffic congestion that a new interstate-style 
bridge in Stillwater would add to the State Highway 36 corridor, 
including the cities of Oakdale, Maplewood, Mahtomedi, Roseville and 
North St. Paul. If there is enough traffic projected to justify 
building a bridge that costs nearly three times as much as the new 
Interstate 35W Bridge in Minneapolis then the communities along State 
Highway 36 should expect to be overrun with thousands more semi-trucks, 
buses, and daily commuters. Expanding State Highway 36 to accommodate 
an interstate-style bridge in Stillwater could raise the true cost of 
the mega-bridge project close to one billion dollars. Local elected 
officials from communities along State Highway 36 are raising concerns 
over the unfunded costs that H.R. 850 could impose on their taxpayers.
    The full cost of the bridge proposed in H.R. 850 is unknown and the 
value of this public investment is deeply in doubt. Thankfully, the 
Wild and Scenic Rivers Act is forcing a closer review of this proposal. 
The Act is safeguarding the environmental integrity of the St. Croix 
River and also protecting taxpayers from wasteful government spending. 
Granting an exemption to the Wild and Scenic River Act would be nothing 
short of fiscally reckless and a violation of the principle of local 
control.
    It is possible to build a new bridge that meets the requirements of 
the Wild and Scenic Rivers Act, solves the long-standing transportation 
problem in Stillwater, and guarantees state and federal taxpayers a 
responsible return on their investment. I strongly support construction 
of a bridge that satisfies these reasonable expectations. My 
experience--and plain Minnesota common sense--suggests the fastest path 
to a new bridge is the path of consensus and fiscal responsibility. The 
Interstate-35W Bridge over the Mississippi River in Minneapolis is 
proof that Minnesota can build a new bridge in record time when there's 
community consensus around a sensible plan. An affordable St. Croix 
bridge could be designed and constructed long before the Interstate 
style bridge proposal and offer taxpayers much greater value.
    I strongly urge Members of this Committee to support fiscal 
responsibility and environmental protection and oppose H.R. 850.
                                 ______
                                 
  Statement of Hon. Scott Walker, Governor, State of Wisconsin, on S. 
                                  1134
    Chairman Udall, Ranking Member Paul and members of the 
Subcommittee, thank you for the opportunity to submit testimony in 
support of S. 1134, St. Croix River Crossing Project Authorization Act.
    A new bridge between Minnesota and Wisconsin over the St. Croix 
River is a priority for our region. Since 1980, both states have worked 
closely with multiple stakeholders, state and federal agencies, and 
have had extensive public involvement to find solutions to address the 
many challenges facing this project. Undoubtedly, replacing the eighty-
year-old, two-lane Stillwater Lift Bridge is a project with 
significant, national interest. It is absolutely imperative for 
Congress to act to allow for the construction of a new bridge.
    As you know, most government services in Minnesota were recently 
shutdown during their budget crisis. However, the Stillwater Lift 
Bridge was deemed a critical service during this shutdown and remained 
operational as a matter of public health and safety. The Minnesota and 
Wisconsin state governments both recognize the importance of this 
bridge and the need for a replacement, and I am respectfully asking 
your subcommittee to do the same.
    S. 1134 was introduced by Wisconsin Senators Herb Kohl and Ron 
Johnson, and Minnesota Senators Amy Klobuchar and Al Franken, as 
bipartisan legislation to help more quickly facilitate the St. Croix 
River Crossing project; I am kindly requesting that the Subcommittee on 
National Parks act soon in order for a new crossing to be constructed.
    After decades of raising and lowering the bridge to allow boats to 
travel the St. Croix River, the existing Lift Bridge has surpassed its 
useful life and faces structural, operational and maintenance issues.
    Traffic has continued to increase in the region. Congestion on both 
sides of the bridge--in Stillwater, Minnesota and Houlton, Wisconsin--
frequently occurs as vehicles must wait for the bridge to lower before 
resuming movement to their destination. The existing bridge is located 
in a constrained local street network in downtown Stillwater and has 
topographic constraints on the Wisconsin-side due to the river bluffs. 
This creates severe limitations necessary to improve the safety and 
approaches of the existing Lift Bridge, resulting in the need for our 
states to study alternative bridge locations.
    I strongly support Senate bill S. 1134 as the best opportunity to 
achieve the required project authorization that will allow the 
construction of a new bridge over the St. Croix River.
    This bipartisan legislation deems the St. Croix River Crossing 
project compliant with the National Wild and Scenic Rivers Act, which 
will allow the project to move forward as was agreed to in the 2006 
Memorandum of Understanding (MOU). The MOU includes a rigorous 
mitigation package for identified impacts of the project.
    The measures, which were included in the 2006 MOU, help to balance 
natural resource protections with the transportation needs necessary to 
replace the bridge. While the National Park Service (NPS) agreed to the 
project proposal and proposed mitigation measures in 2005, the U.S. 
District Court of Minnesota issued a ruling in 2010, vacating their 
findings.
    Since then, the NPS's new evaluation of the project indicated the 
proposed project's direct and adverse impacts on the riverway, which is 
nationally designated under the Wild and Scenic Rivers Act, could not 
allow the project to be constructed. This revised finding halted 
further progress on the project, and will continue to be a barrier, 
unless there is Congressional action.
    The National Wild and Scenic Rivers Act has a provision that allows 
Congress to make an exemption from the Act and recommend a project's 
authorization. This bill would provide that needed exemption to allow 
our important project to move forward.
    Subjecting this project to years of more study, review and redesign 
will only result in added construction costs and further delays to the 
much needed construction of a replacement bridge. Additionally, money 
allotted to a new bridge by Minnesota will be reallocated if Congress 
does not act before September 30, so time is of the essence.
    Chairman Udall, Ranking Member Paul, and Subcommittee Members, I 
respectfully request your support of this bill. If I can assist you or 
provide more information, please do not hesitate to contact me. Thank 
you for the opportunity to provide testimony on behalf of the State of 
Wisconsin.
                                 ______
                                 
                                State of Minnesota,
                                    Office of the Governor,
                                     Saint Paul, MN, July 21, 2011.
Hon. Jeff Bingaman,
703 Hart Senate Office Building, U.S. Senate, Washington, DC.
    Dear Senator Bingaman:

    Thank you for hearing Senator Klobuchar's bill to enact the 
necessary federal legislation to permit the St. Croix River Crossing 
Project to be constructed. This vitally important highway connection 
between Minnesota and Wisconsin will greatly improve mobility for the 
citizens of both states and will also alleviate severe traffic problems 
in downtown Stillwater.
    The current lift bridge crosses the St. Croix River at Stillwater. 
The connection to the bridge in Minnesota is the historic main street 
of Stillwater and is frequently very congested due to the volume of 
traffic and the periodic raising of the bridge. The existing bridge was 
built in 1931 and is in poor structural condition.
    For decades, stakeholders have been working to balance 
transportation, historical preservation, and environmental concerns in 
a project design. The result of that effort is a proposed four-lane 
bridge that will provide additional capacity and connect expressways on 
both sides of the river.
    Again, thank you for hearing Senator Klobuchar's bill. I urge you 
and your colleagues to support it and move it quickly through the 
process so work on this important project can resume as quickly as 
possible.
            Sincerely
                                               Mark Dayton,
                                                          Governor.
                                 ______
                                 
                                                     July 13, 2011.

Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senators Bingaman and Murkowski:

    The organizations signing this letter represent millions of 
Americans committed to protecting our nation's lands, wildlife, and 
water as places that Congress set aside for the enjoyment and 
recreation of all. We are writing to express our strong opposition to 
S. 1134, a bill that overrides the Wild and Scenic Rivers Act and 
authorizes the construction of a costly, freeway-style bridge over and 
through the St. Croix National Scenic Riverway.
    If enacted, S. 1134 will not only result in the construction of a 
bridge that will harm a unit of the National Park System, the St. Croix 
River, it will set a dangerous precedent for all Wild and Scenic Rivers 
under pressure from harmful development. In its more than 40-year 
history, the Wild and Scenic Rivers Act has never been waived for a 
transportation project or for any project of this magnitude. The St. 
Croix River begins in northwest Wisconsin and flows south, forming the 
border of Minnesota and Wisconsin and joining the Mississippi River 
southeast of the Twin Cities.
    The St. Croix National Scenic Riverway was established in 1968 as 
one of the eight original Wild and Scenic Rivers and the lower section 
was designated four years later. The only Wild and Scenic river in 
Minnesota, the St. Croix provides a unique wilderness-like experience 
for outdoor recreation near a growing metropolitan area.
    In late 2010, the National Park Service, the official steward of 
the St. Croix River, determined that the bridge that will be built if 
S. 1134 is passed would create a ``direct and adverse effect on the 
values for which the riverway was established.''
    In addition to the terrible precedent of allowing enormous 
construction projects over a Wild and Scenic River, the bridge being 
proposed will cost Minnesota, Wisconsin, and the American taxpayer 
close to $700 million to build. This $700 million bridge would serve 
only 18,000 cars a day between Stillwater, Minnesota and Houlton, 
Wisconsin, with a population of 400. In contrast, the collapsed I-35W 
bridge in Minneapolis was rebuilt and completed in 2008 at a cost of 
only $234 million, and it is handling 145,000 vehicles a day. This 
proposed bridge would be the most costly bridge ever built in the 
history of the state of Minnesota.
    We recognize the need for a new crossing at the St. Croix National 
Scenic Riverway as the bridge currently serving the community of 
Stillwater is outdated and in need of repair, and we support a more 
sensible, smaller, and less-costly solution.
    We understand that the Committee may schedule a legislative hearing 
on S. 1134 soon. We prefer the Committee not consider this bill, but if 
the hearing is to be held, then we request to appear as witnesses to 
provide testimony on how the proposed bridge sets a terrible precedent 
for undermining the Wild and Scenic Rivers Act and in these tight 
fiscal times simply does not make sense.
            Sincerely,
                         Bill Lee, Chief Operating Officer.
                                                   American Rivers.
                 Anna Aurilio, Director, Washington Office,
                                               Environment America.
                                    Tom Kiernan, President,
                           National Parks Conservation Association.
                  Debbie Sease, National Campaign Director,
                                                       Sierra Club.
                                   Bill Meadows, President,
                                            The Wilderness Society.
                                 ______
                                 
                Statement of the Sierra Club, on S. 1134
    The Sierra Club North Star Chapter appreciates the opportunity to 
share our grave concerns regarding S. 1134. This legislation, by 
exempting the current proposed freeway-style bridge from federal 
review, would set a troubling national precedent, gut the Wild and 
Scenic Rivers Act, and cause irreversible damage the Lower St. Croix 
National Scenic Riverway.
    The Sierra Club is the world's oldest and largest grassroots 
environmental organization. Our 1.4 million members and supporters, in 
65 chapters and over 400 local groups nationwide, possess the unique 
ability to empower people and influence public policy through community 
activism, public education, outreach and litigation. The Sierra Club's 
North Star Chapter is the leading grassroots voice working to preserve 
and protect Minnesota's environment since its inception in 1968. We do 
this by involving and cultivating volunteer leadership to act through 
environmental advocacy and outdoor exploration.
    The Lower St. Croix, which extends 52 miles on the border of 
Minnesota and Wisconsin, is a regional and national treasure, widely 
recognized for its pristine natural character and scenic qualities. The 
river passes through diverse landscapes including a deep, narrow gorge 
and broad valleys lined with wooded bluffs. The Lower St. Croix is also 
considered to be a biodiversity ``hot spot,'' with many rare or unique 
habitats located along the river. Because of its outstandingly 
remarkable scenic and recreational values, it was added to the Wild and 
Scenic Rivers System by Congress in 1972.
    The proposal to build a blufftop-to-blufftop, $690 million bridge 
that would pierce the heart of the St. Croix poses a serious threat to 
these values. For this reason, the National Park Service determined in 
October 2010 that the proposal could not be approved. The Sierra Club 
believes that a new design with growing community support offers a 
solution that is responsive to residents' needs and fiscal realities 
while honoring the river's protected status. It would utilize a 
smaller, three-lane bridge, and rise 100 feet closer to the water than 
the current proposed design. A reversible lane would accommodate peak 
travel demand.
    Contrary to the claims of supporters of the freeway style 
superbridge, this new design, which would balance community needs, 
federal protections and the unique character and value of the St. 
Croix, is so different from any of the officially evaluated, rejected 
alternatives that it can only be described as new and unevaluated. We 
specifically and strongly reject the falsehood put forth by Riverway 
opponents that this alternative is similar to any previously evaluated 
bridge. It has never been evaluated by the Minnesota Department of 
Transportation, the lead agency on the project, or by the National Park 
Service.
    We have analyzed the new proposal and believe it is a balanced and 
reasonable compromise, consistent with community needs, federal 
protections and preserving the character of the river.
    The Sierra Club is aware that the National Park Service has stated 
that they may find any bridge not at the exact location of the current 
Lift Bridge in violation of the Wild and Scenic Rivers Act. We do not 
take lightly our decision to support the Sensible Stillwater Bridge 
Coalition design. While we categorically oppose the current proposed 
freeway-style bridge, we believe that the new proposal could be 
compatible with the Riverway.
    It is also a much less costly approach. With a $5 billion state 
deficit, the savings from the smaller proposal will also free up needed 
funds to address urgent transportation and repair needs in our region.
    We urge you to oppose the legislation before you, and uphold 
federal protections that safeguard 11,000 miles of 166 Wild and Scenic 
Rivers across the U.S.
    Thank you for consideration of our perspective.
                                 ______
                                 
 Statment of Matt Kramer, President of the Saint Paul Area Chamber of 
                          Commerce, on S. 1134
    Chairman Udall, ranking member Paul, and members of the committee:
    My name is Matt Kramer. I am the president of the Saint Paul Area 
Chamber of Commerce. The chamber represents businesses and 
organizations in the Saint Paul and east metro region that includes the 
St. Croix River Valley. We have been a supporter of the decades-long 
effort to build a new St. Croix River Crossing and have previously 
submitted comments as part of the Environmental Impact Statement 
related to the project planning process. We strongly support this 
project and urge your support of S1134, which will allow this project 
to finally move forward.
    Our members strongly believe that reliable, adequate and accessible 
transportation is one of the most important resources needed to foster 
a thriving business marketplace. The Minneapolis-Saint Paul 
metropolitan area has grown to now include 13 counties; including 
Pierce and St. Croix counties in Wisconsin. Our regional challenge is 
to make strategic investments in the transportation system that not 
only meet the needs of the 3 million people who already live and work 
in this vibrant metro area, but can also handle the future demand as we 
continue to grow.
    Minneapolis and Saint Paul must do everything possible to maintain 
and enhance a competitive and thriving business environment that will 
help us keep the businesses and jobs already here as well as attract 
new companies and employees. We work with private and public sectors to 
not only comprehensively plan and review projects, but also to make 
sure there are resources in place to build and maintain our roads, 
bridges, and public transportation system.
    We have been actively engaged in a number of important and 
regionally significant transportation initiatives. The chamber helped 
create, fund and manage the Central Corridor Partnership, a public-
private partnership that played a key role in advocating for the 
Central Corridor Light Rail Transit Line that is now under 
construction. Our members contributed significant resources to fund 
outreach work that helped make sure this project became a reality. We 
are also actively engaged in the campaign to secure passage of an 
amendment to Minnesota's constitution that would dedicate a portion of 
motor vehicle excise tax revenues to fund road and transit projects.
    We understand that leadership requires actively engaging in and 
bringing resources to a partnership to produce results. The Central 
Corridor, the motor vehicle sales tax, and the proposed bridge project 
are examples of people working together for the larger vision of the 
community.
    For decades St. Croix River Valley residents and the entire east 
metro region have been trying to solve a decades-long transportation 
problem that just keeps getting worse. The 80-year-old Stillwater Lift 
Bridge was originally designed to handle 11,200 cars per day, but today 
it is overburdened by an average of 18,400 vehicles daily. Companies 
throughout the east metro region depend on employees and businesses on 
both sides of the St. Croix River. In addition to pressuring companies 
and residents, the growing traffic bottleneck is also putting 
additional strain on the existing Interstate 94 bridge.
    Residents, elected officials, engineers, and environmental 
advocates thoroughly studied a dozen different plans before determining 
that the St. Croix River Crossing was the best plan for the region. The 
new bridge will solve transportation problems now and in the future as 
our region continues to experience widespread growth. It will make sure 
the investment today will benefit the community years into the future. 
What we need now is your help and immediate action on this matter.
    I strongly encourage you to approve S1134 and allow this project to 
move forward. The plan is ready, and we need this crucial 
transportation corridor.
                                 ______
                                 
    Statement of Harry Melander, President, Minnesota Building and 
         Construction Trades Council, St. Paul, MN, on S. 1134
    Chairman Udall, Ranking Member Paul, and Members of the Committee. 
I'm Harry Melander, President of the Minnesota Building and 
Construction Trades Council. Our organization represents more than 
50,000 trades people who live and work in Minnesota and Western 
Wisconsin.
    Union construction workers in Minnesota and Wisconsin are very 
aware of the river crossing project. The inadequacy of the existing 
1931 Stillwater Lift Bridge is well known to all who live in the 
Minneapolis-St. Paul metropolitan area, and a replacement bridge has 
been thoroughly discussed in St. Croix Valley communities for several 
decades.
    We note for the committee that 28 Stakeholders representing federal 
and state regulatory agencies, local governments and environmental and 
historic preservation interests met during three years of mediation to 
discuss and develop a bridge plan. The group intentionally chose a very 
unique cable stay bridge design for this project. The new bridge would 
feature open support piers and cable stays that allow for a slimmer 
bridge deck, with the overall goal of making the bridge less obtrusive 
to its surroundings. It is a beautiful, uncommon design, and this would 
be only the third one of this style built in all of North America.
    As part of this project the Stillwater Lift Bridge, protected on 
the National Register of Historic Places, will be retired from service 
as an automobile bridge. After a complete restoration, the lift bridge 
will become the signature component of a new walking and biking loop 
trail, meandering through natural and historic sites in both Stillwater 
and Wisconsin. The plan to construct new park and trail resources as 
part of the overall project will improve public access to the river. 
Already tens of thousands of people each year enjoy the historic charm 
and scenic beauty of downtown Stillwater and other sites in the St. 
Croix Valley region. These elements will add to the public's enjoyment 
of the riverway.
    The project has been thoroughly researched and carefully developed 
over the past two decades. The overall plan provides balance between 
the need to protect the scenic values of the river and improve 
opportunities for public recreation, the need to preserve the region's 
many historic sites, and the need to improve traffic safety and meet 
transportation needs for the region.
    The bridge design that has been selected will be more challenging 
to construct than a typical box girder freeway bridge. It is an 
important river crossing, with unique design elements that respect its 
natural surroundings. It will be constructed in and among sites that 
have great historical value for the people of two states. Our workers 
will use all of their talent and skill as tradespeople, and they will 
remember their work on this project for their entire careers.
    A commitment to full funding from Minnesota and Wisconsin means 
that the project does not require further appropriation from the 
Congress. We only need Congressional permission to build the bridge, 
and then we can get to work.
    Recent economic conditions have fallen heavily on the men and women 
who work in the construction trades in Minnesota, and so this project 
could not come along at a better time. Over one-quarter of Minnesota's 
unemployed workers are construction workers. Sadly, our state ranks 
third-highest in the nation for the percentage of construction jobs 
lost in the past year.
    The Minnesota Department of Transportation indicates that as many 
as 3,000 jobs per year will be created as a result of this project over 
the three years it will take to build it. This construction can provide 
an economic shot in the arm to many families at a time when it is most 
needed.
    Chairman Udall, Ranking Member Paul, and Committee Members, we hope 
you will act favorably on S1134 as soon as possible. The men and women 
of the Minnesota construction trades are up to the challenge of 
building this legacy project.
    Thank you.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
